<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF JOHN P. WALTERS TO BE DIRECTOR OF THE OFFICE OF NATIONAL DRUG CONTROL POLICY</title>
<body><pre>[Senate Hearing 107-632]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-632
 
    CONFIRMATION HEARING ON THE NOMINATION OF JOHN P. WALTERS TO BE 
         DIRECTOR OF THE OFFICE OF NATIONAL DRUG CONTROL POLICY
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2001

                               __________

                          Serial No. J-107-42

                               __________

         Printed for the use of the Committee on the Judiciary





                       U. S. GOVERNMENT PRINTING OFFICE
81-443                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director





                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.    85
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
Thurmond, Hon. Strom, a U.S. Senator from the State of South 
  Carolina.......................................................    85

                               PRESENTERS

Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah 
  presenting John P. Walters, Nominee to be Director of National 
  Drug Control Policy............................................     7
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona 
  presenting John P. Walters, Nominee to be Director of National 
  Drug Control Policy............................................    11

                        STATEMENT OF THE NOMINEE

Walters, John P., Nominee to be Director of National Drug Control 
  Policy.........................................................    13
    Questionnaire................................................    19

                         QUESTIONS AND ANSWERS

Responses of the Nominee to questions submitted by Senator Biden.    86
Responses of the Nominee to questions submitted by Senator 
  Bingaman.......................................................   100
Responses of the Nominee to questions submitted by Senator 
  Cantwell.......................................................   100
Responses of the Nominee to questions submitted by Senator Durbin   102
Responses of the Nominee to questions submitted by Senator 
  Feingold.......................................................   106
Responses of the Nominee to questions submitted by Senator 
  Grassley.......................................................   107
Responses of the Nominee to questions submitted by Senator 
  Kennedy........................................................   109
Responses of the Nominee to questions submitted by Senator Leahy.   114
Responses of the Nominee to questions submitted by Senator 
  Wellstone......................................................   122

                       SUBMISSIONS FOR THE RECORD

Betty Ford Center, John T. Schwarzlose, President and Chief 
  Executive Officer, Rancho Mirage, California, letter...........   124
Community Anti-Drug Coalitions of America, Arthur T. Dean, 
  Chairman and Chief Executive Officer, Alexandria, Virginia, 
  letter.........................................................   124
Drug Free America Foundation, Inc., Calvina L. Fay, Executive 
  Director, St. Petersburg, Florida, letter......................   125
Drug-Free Kids: America's Challenge, Joyce Nalepka, President, 
  Washington, D.C., letter.......................................   125
Drug-Free Schools Coalition, Inc., David G. Evans, Esq., 
  Executive Director, Flemington, New Jersey, letter.............   129
Drug Prevention Network of the Americas, Stephanie Haynes, 
  Alpine, Texas, letter..........................................   129
Drug Watch/MN, Jeanette McDougal, Co-Chair, St. Paul, Minnesota, 
  letter.........................................................   130
Fraternal Order of Police, Gilbert G. Gallegos, National 
  President, Albuquerque, New Mexico, letter.....................   130
Hastert, Hon. J. Dennis, a Representative in Congress from the 
  State of Illinois and Speaker of the House of Representatives, 
  letter and attachment..........................................   131
Mica, Hon. John L., a Representative in Congress from the State 
  of Florida, July 26 (two), July 31, August 1, August 2, and 
  August 3, 2001, ``Dear Colleague'' letters.....................   133
National Families in Action, Sue Rusche, Co-founder and Executive 
  Director, Atlanta, Georgia, letter.............................   139
National Troopers Coalition, Johnny L. Hughes, Director, 
  Government Relations, Albany, New York, letter.................   140
Partnership for a Drug-Free America, James E. Burke, Chairman, 
  New York, New York, letter.....................................   141
PRIDE Surveys, Thomas Gleaton, President, Bowling Green, 
  Kentucky, letter...............................................   141


    CONFIRMATION HEARING ON THE NOMINATION OF JOHN P. WALTERS TO BE 
         DIRECTOR OF THE OFFICE OF NATIONAL DRUG CONTROL POLICY

                              ----------                              


                      WEDNESDAY, OCTOBER 10, 2001

                              United States Senate,
                                 Committee on the Judiciary
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 1:46 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., presiding.
    Present: Senators Biden, Leahy, Kennedy, Kohl, Durbin, 
Hatch, Grassley, Kyl, DeWine, Sessions, and Brownback.
    Senator Biden. The committee will come to order.
    Let me begin in an inappropriate way by apologizing to our 
colleagues and to our nominee for being late. Senator Leahy and 
I had to attend a meeting relating to another matter and it 
went over just a little bit long, and I apologize to our friend 
from Utah.
    I have an opening statement, but I would be happy to yield 
to the chairman of the full committee.
    Chairman Leahy. No. Go ahead.

OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Senator Biden. Today, the Judiciary Committee considers the 
nomination of John Walters, to be Director of the Office of 
National Drug Control Policy. As you all know, this hearing was 
scheduled for literally a month ago today and the terrorist 
attack occurred in New York and in western Pennsylvania and at 
the Pentagon. For obvious reasons, it had to be canceled and 
events have sort of overtaken things and that is the reason we 
are as late as we are. It has nothing to do with the lack of 
consequence of this office and how important we think the 
office is and how we should proceed.
    I want to thank Mr. Walters for being patient, as he has 
worked to reschedule his schedule as well, and I appreciate it.
    John Walters is well-known to this committee, having 
testified before us a dozen times both as a Government witness 
during the first Bush administration and as a private citizen. 
Mr. Walters is also well known at ONDCP, having served as then-
Drug Czar Bill Bennett's chief of staff and national security 
advisor, then as Deputy Director for Supply Reduction under Bob 
Martinez, and ultimately as Acting Director of the Office.
    Since his time at the drug office, Mr. Walters has served 
as a visiting fellow at the Hudson Institute, president of the 
New Citizenship Project, and president of the Philanthropy 
Roundtable. I welcome him and his family here today.
    Thirteen years ago, I wrote a law that created the Office 
of National Drug Control Policy because I was convinced we 
needed to coordinate Federal drug policy, with one person 
accountable for developing and implementing an effective 
national strategy.
    I might at add, at that time the Democratic President 
didn't like the idea and subsequent Republican Presidents 
haven't liked the idea, but I still like the idea because I 
think there is a need for there to be one person on whose desk 
the buck stops.
    I have argued that Cabinet-level status is necessary to 
give the position visibility commensurate with the depth of our 
Nation's drug problem, providing our drug czar the clout to 
stop interagency feuding, fight for budgetary resources, and 
decertify inadequate agency drug budgets.
    I am glad that at the end of the day President Bush decided 
to make the drug czar a member of his Cabinet. To be able to 
decertify an agency's budget, as General McCaffrey did with 
Secretary Cohen's proposed counternarcotics budget for the 
Defense Department, the drug czar must be on equal footing with 
the rest of the President's Cabinet.
    As the person responsible for coordinating Federal drug 
policy, the drug czar will deal with almost every Federal 
agency, from the Department of Justice on drug courts, to the 
Department of Transportation on interdiction issues, to the 
State Department and the Department of Defense on Plan 
Colombia, to the Department of Health and Human Services on 
groundbreaking research on how drug use changes brain 
chemistry.
    The drug czar must be able to walk and chew gum at the same 
time, making sure that our national drug policy is 
comprehensive, as well as balanced. A balanced drug policy is 
often compared to a four-legged stool, with treatment, 
prevention, enforcement and research comprising the four legs. 
If one leg is shorter than the other, the stool topples over. 
For a long time, the demand reduction leg has been given short 
shrift.
    I was glad to hear President Bush say when he announced Mr. 
Walters' nomination in the Rose Garden that ``the most 
effective way to reduce the supply of drugs in America is to 
reduce the demand for drugs in America.'' He went on to pledge 
that his administration ``will focus unprecedented attention on 
the demand side of the problem.''
    I was heartened to hear Mr. Walters say in that Rose Garden 
ceremony that he pledged to spearhead drug policy which 
includes, ``protecting(ing) our children from drug 
use...help(ing) the addicted find effective treatment and 
remain recovery...shield(ing) our communities from the terrible 
human toll taken by illegal drugs...(and) stop(ping) illegal 
drug use and the drug trade from funding threats to democratic 
institutions throughout the hemisphere.'' I look forward to 
holding him to that pledge.
    While Mr. Walters and I agree on a number of issues, 
including the critical role of law enforcement at both the 
Federal and local level as it relates to drug policy and the 
importance of a strong supply reduction policy, there have been 
a number of equally important issues on which we have disagreed 
on over the years.
    I am particularly troubled--and it will come as no surprise 
to Mr. Walters because we have been engaging in this for the 
last 13 years--by Mr. Walters' many writings regarding drug 
treatment. He has written that the ``view that therapy by a 
team of counselors, physicians and specialists is the only 
effective way to reduce drug use'' is a ``myth.''
    In contrast, the top doctors and scientists in the field of 
addiction believe that addiction is a chronic, relapsing brain 
disease and that addiction treatment is as successful as 
treatment for other chronic diseases such as diabetes, 
hypertension, and asthma.
    Similarly, Mr. Walters has questioned the need for Federal 
support for drug prevention, writing that ``teaching children 
that drug use is wrong and harmful is primarily the 
responsibility of parents and local communities, youth 
organizations, religious institutions, schools, and police. 
Federal funding is neither necessary nor sufficient for 
conveying this lesson by word and deed.''
    These statements are certainly not in line with my drug 
policy views, and they don't sound to me like they are in line 
with what President Bush has stated. I plan to ask Mr. Walters 
a series of questions today to determine whether he will stand 
by what he has written or whether he will have what is known by 
the cynics on Capitol Hill as a confirmation conversion.
    I want to make it clear at the outset that I have the 
utmost respect for John Walters. He is a man of principle. We 
have debated drug issues over the past decade, and I suspect we 
will debate them in the future. Though we have often disagreed, 
I don't think that either one of us has taken the disagreement 
personally. So I welcome here today. I am anxious to hear what 
he has to say and I look forward to hearing his testimony.
    Now, Mr. Chairman, I see our ranking member has moved down 
to introduce, I guess, and I know you have asked me to do this 
hearing and you have another one to do.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Chairman Leahy. I appreciate very much, Mr. Chairman, that 
you are doing this hearing. You have set the standard for this 
committee over the years on so many of these drug issues and it 
is only appropriate that you are doing this.
    I was glad to have the chance to meet Mr. Walters and his 
family, his two lovely girls, and it makes me realize how old I 
have gotten. It has been a long time since my kids were that 
age.
    I don't doubt, as you have said, that Mr. Walters has 
thought seriously about our Nation's drug problems. I am very 
concerned about some of the conclusions he has reached and 
forcibly expressed on issues ranging from drug treatment to 
interdiction to sentencing issues.
    I will put more of this statement in the record.
    Mr. Walters, I would urge you, if you have the opportunity, 
to take the time to read my statement because some of the 
questions I will also submit for the record will be reflected 
in there.
    We have tried to move people along quickly on this. The 
Drug Enforcement Administration head, I think, is one of the 
most important in the drug war, and within just a few days of 
my becoming chairman of this committee I set a hearing on Asa 
Hutchinson. I think we held the hearing within a day or so of 
his papers actually arriving here, even before all his things 
were in.
    You, Mr. Chairman, and I think everybody on this committee 
voted for him and we moved him out and had him on the floor 
within a matter of days; the same with James Ziglar for the INS 
and Robert Mueller for the FBI. So when there is any kind of a 
consensus here, we are able to move very quickly.
    I do have four areas of concern here. First, there is a 
growing and bipartisan consensus that we need to do more to 
improve drug treatment and take other steps to reduce the 
demand for drugs. In fact, President Bush said ``[t]he most 
effective way to reduce the supply of drugs in America is to 
reduce the demand for drugs in America.'' The President went on 
to say he would give ``unprecedented attention'' to this.
    Now, Mr. Chairman, I have joined with you and Senator Hatch 
and others to introduce S. 304, the Drug Abuse Education, 
Prevention and Treatment Act, to put more money and Federal 
focus on treatment programs and to improve treatment 
opportunities and effectiveness in rural areas for drug-
addicted mothers, and so on.
    I want to know how Mr. Walters feels about the approach 
taken by S. 304. He has faulted the concept that addiction is a 
disease. He has referred to that concept as an ``ideology,'' 
even though it is held widely, if not universally, by 
Government and private experts. He has said that he supports 
``good'' treatment, but has sharply criticized existing 
treatment providers, aside from faith-based providers.
    Secondly, I am concerned about his position on issues 
related to criminal punishment. We all agree on both sides of 
the aisle that people who break our laws have to be punished. 
Those who traffic in and sell drugs deserve to be incarcerated 
for substantial periods of time. When I was a prosecutor, I 
always asked for extra penalties for traffickers in drugs.
    But many of us in both parties have come to question our 
reliance on mandatory minimum sentences for a wide variety of 
drug offenses, as well as the 100-to-1 disparity under current 
law between sentences for crack and powder cocaine.
    In his writings, Mr. Walters has been hostile to 
reconsideration of these issues. He wrote as recently as March 
of this year that the idea that we are imprisoning too many 
people for merely possessing illegal drugs or that criminal 
sentences are too long or harsh were ``among the great urban 
myths of our time.'' That statement flies in the face of the 
widespread dissatisfaction with mandatory minimum sentences 
among policymakers and Federal judges.
    Indeed, Chief Justice Rehnquist and the Judicial 
Conference, made up of representatives from all 12 U.S. 
circuits, have called for the repeal of Federal mandatory 
minimum sentences. I don't think the Chief Justice is one to 
fall prey to an urban myth, especially on something like this 
which has such a severe racial impact, as African Americans are 
much more likely to be sentenced for crack offenses. The facts 
show that overwhelmingly, facts developed by both conservative 
and liberal organizations.
    Mr. Walters has referred to the racial impact of the 
sentencing disparity as a ``perceived racial injustice.'' He 
even testified before Congress trying to ``[b]lock lower crack 
sentences'' and strip the U.S. Sentencing Commission of their 
powers. I would suggested that it is not ``perceived,'' not 
with the numbers that we have seen. In fact, what we found is 
that blacks accounted for 84.7 percent of those sentenced for 
crack offenses which carry the highest penalties, and whites 
for 5.4 percent. I think there is something going on there.
    Third, Mr. Walters' reaction to popular and legislative 
judgments by various States to allow limited use of marijuana 
for medical purposes also causes me concern. He said the 
Federal Government should just step in and take away licenses 
from any physicians who would follow what their State voters 
have decided on. It kind of runs roughshod over any federalism 
concerns, but his draconian response about stripping them of 
their licenses raises questions about his sense of proportion. 
It is a very blunt instrument to tell voters in a State that 
they don't know what they are doing.
    Then I want to know what he thinks about our anti-drug role 
in Latin America. I don't disagree that reducing the supply of 
drugs would have tremendous benefits for our Nation, but I 
agree with President Bush that the reason so many drugs find 
their way to our shores is because there is substantial demand 
for them and a lot of money people are willing to spend.
    My concern is that it seems almost every question--and I 
have not read all of Mr. Walters' writings, of course, and that 
is why I will submit so many questions on this. There seems to 
be no question about drugs to which the answer is not simply a 
hard-line, law enforcement response, even on complicated issues 
on which there is diverse opinion. I don't think this 
unbending, ``my way is the only way'' attitude is what 
Americans want to see here. I think we need a greater reliance 
on data and pragmatism, and less of an ideological 
determination.
    I believe Mr. Walters is an intelligent and accomplished 
man. I am certainly going to give his testimony and his 
responses to the committee's questions close attention. They 
deserve it. Obviously, we would have had this hearing a month 
before, except for the tragic events of the 11th.
    With that, Mr. Chairman, again I thank you because I know 
you have bent your schedule four ways to Sunday to make this 
possible.
    [The prepared statement of Senator Leahy follows:]

 Statement of Hon. Patrick J. Leahy, a U.S. Senator from the State of 
                                Vermont

    As all of you know, this hearing was originally scheduled for the 
morning of September 11, and was of course postponed as a result of the 
terrorist attacks in New York and Washington. I wanted to make sure we 
rescheduled this hearing as soon as possible, as drug abuse remains a 
vital problem for this nation and we need to continue to pay attention 
to our domestic priorities even as we engage in our necessary response 
to terrorism. So I thank Senator Biden for working with me to find a 
new date for this hearing, and I look forward to a comprehensive 
examination of this nomination.
    I come to this hearing with many concerns. I do not doubt that John 
Walters has thought seriously about our nation's drug problems, but I 
do doubt the conclusions he has reached and -forcefully expressed on 
issues ranging from drug treatment to interdiction to sentencing 
issues. In short, I am not yet convinced that he is the right person to 
head the Office of National Drug Control Policy.
    We have worked hard on this committee to ensure a speedy and fair 
hearing for the Bush Administration's executive branch nominees. Within 
days of the Senate's reorganization and my taking over as Chairman, I 
noticed a hearing on Asa Hutchinson's nomination to head the Drug 
Enforcement Administration. After we had the hearing, I expedited the 
process to provide a quick Committee vote, and then worked to secure a 
vote on the floor so that Mr. Hutchinson's nomination could be approved 
before the August recess. I similarly expedited the process for the 
nomination of James Ziglar to head the Immigration and Naturalization 
Service, and will continue to do my best to make sure that the 
Administration receives the quickest evaluation of its nominees 
possible, consistent with the Senate's obligation to provide advice and 
consent.
    The voluminous and opinionated record that Mr. Walters has 
developed requires a thorough examination. I have four areas of concern 
about his record that I would like to see addressed in this hearing.
    First, there is a growing and bipartisan consensus that we need to 
do much more to improve drug treatment and take other steps to reduce 
the demand for drugs. President Bush has said that ``[t]he most 
effective way to reduce the supply of drugs in America is to reduce the 
demand for drugs in America'' and has promised that his Administration 
will concentrate ``unprecedented attention'' on the demand for drugs. 
In the Senate, I have joined with Senator Hatch, Senator Biden, and 
others to introduce S. 304, the Drug Abuse Education, Prevention, and 
Treatment Act. That legislation would increase the Federal focus on 
treatment programs, with targeted programs to improve treatment 
opportunities and effectiveness in rural areas, programs devoted to 
drug-addicted mothers, and more. I am curious to find out whether Mr. 
Walters believes the approach taken by S. 304 is a helpful and 
appropriate one, and whether he shares in this growing pro-treatment 
consensus. Mr. Walters has faulted the concept that addiction is a 
disease, referring to that concept as an ``ideology'' even though it is 
held widely--if not universally--by government and private experts. He 
has written that ``the culture of victim hood lies at the core of the 
therapeutic world view,'' a statement I hope he can explain today. He 
has said that he supports ``good'' treatment but sharply criticized 
existing treatment providers, aside from faith based providers. In 
short, although Mr. Walters has not developed a lengthy record on 
treatment questions, some of his statements have caused great concern 
among those who care about treating drug addiction. I look forward to 
hearing a further explanation of his views today.
    Second, I am concerned about the nominee's position on issues 
related to criminal punishment. We all agree on both sides of the 
aisle--that people who break our laws must be punished, and that those 
who traffic in and sell drugs deserve to be incarcerated for 
substantial periods of time. At the same time, many of us Democrats and 
Republicans--have come to question our reliance on mandatory minimum 
sentences for a wide variety of drug offenses, as well as the 100 to I 
disparity under current law between sentences for crack and powder 
cocaine. In his writings and statements, Mr. Walters has been hostile 
to reconsideration of these issues. For example, he wrote as recently 
as March 2001 that the idea that we are imprisoning too many people for 
merely possessing illegal drugs or that criminal sentences are too long 
or harsh were ``among the great urban myths of our time.'' This 
statement flies in the face of the widespread dissatisfaction with 
mandatory minimum sentences among policymakers and Federal judges. 
Indeed, Chief Justice Rehnquist and the Judicial Conferences of all 12 
U.S. circuits have called for the repeal of Federal mandatory minimum 
sentences.
    The disparity in sentences for crack and powder cocaine has been a 
significant contributing factor to the disproportionate imprisonment of 
African-Americans. Under current law, it takes only 1 percent as much 
crack cocaine to trigger equal mandatory minimum penalties with powder 
cocaine. This disparity has a severe racial impact as blacks are 
overwhelmingly more likely to be sentenced for crack offenses. For 
example, in FY 1999, blacks accounted for 84.7 percent of those 
sentenced for crack offenses and whites just 5.4 percent. There is also 
reason to doubt the logic of the crack-powder distinction on law 
enforcement grounds. Since cocaine is imported and distributed in 
powder form, and only manufactured into crack at the retail level, 
those persons at the highest end of the drug distribution chain are 
rarely affected by the increased crack penalties. In other words, the 
harshest sentences are reserved for less culpable offenders.
    Despite these troubling facts, Mr. Walters has referred to the 
racial impact of the sentencing disparity as a ``perceived racial 
injustice'' and urged Congress in 1996 testimony to ``[b]lock lower 
crack sentences'' and to strip the U.S. Sentencing Commission of 
authority even to propose changes in criminal penalties where Congress 
has adopted mandatory minimums.
    Third, Mr. Walters' reaction to popular and legislative judgments 
by various States to allow limited use of marijuana for medical 
purposes also causes me concern. Numerous states have considered and 
passed medical marijuana initiatives, some by substantial majorities. 
Mr. Walters has responded to this trend by advocating that the Federal 
government use the Controlled Substances Act to take away the Federal 
licenses from any physician who prescribes marijuana to a patient in 
States that permit the practice. Such a step would prevent these 
doctors from prescribing or possessing any medication that is Federally 
controlled, basically making the practice of medicine impossible. In 
addition to running roughshod over any Federalism concerns whatsoever, 
Mr. Walters' draconian response raises questions about his sense of 
proportion. Although shutting down the process as he has suggested may 
be effective in rendering these State-passed initiatives meaningless, 
his proposal is a very blunt instrument, to say the least.
    Fourth, I am concerned that Mr. Walters will seek to have the 
United States overextend its antidrug role in Latin America. Throughout 
his career, he has been a prominent spokesman for the cause of drug 
interdiction. Prior to the development of Plan Colombia, he said that 
``we need to do more in Latin America'' in ``[lighting drugs at the 
source.'' He has also been a consistent supporter of increasing the 
U.S. military's role in preventing drugs from entering the United 
States. I do not disagree that reducing the supply of drugs would have 
tremendous benefits for our nation. At the same time, I agree with 
President Bush that the reason that so many drugs find their way to our 
shores is because there is substantial demand for them. The costs--both 
financial and political--of our involvement in the internal affairs of 
Latin American nations require close scrutiny. I have been skeptical 
about Plan Colombia, and I would be skeptical of additional proposals 
of that nature. I am curious to find out whether Mr. Walters would 
recommend that such proposals be offered.
    My fear is that for Mr. Walters, there is no question about drugs 
to which a hard-line law enforcement response is not the answer, even 
to complicated issues on which there is diverse opinion. I am not sure 
this is what American needs in its new drug czar. What we may need is a 
greater reliance on data and pragmatism and less of an ideological 
focus.
    Clearly, I have numerous concerns and questions about the positions 
this nominee has expressed. But I will consider this nomination with an 
open mind. In making this statement today, I am attempting to put my 
concerns on the record so that Mr. Walters will have ample opportunity 
to respond. Despite my numerous disagreements with Mr. Walters' past 
statements, I believe him to be an intelligent and accomplished man, 
and I will give his testimony and his responses to the Committee's 
questions the close attention they deserve.

    Senator Biden. Thank you, Mr. Chairman.
    I am going to yield now, if I may, to my colleagues.
    Mr. Walters, why don't you come on up to the table there 
while our colleagues are speaking about you?
    The way we are going to proceed is recognize both my 
colleagues, who I suspect are going to attend the hearing as 
well. They are both members.
    Chairman Leahy. They probably are going to say nice things 
about you.
    Senator Biden. And then we will go to you, Mr. Walters, and 
at that point I will ask you to introduce your family again to 
the whole committee, and we will hear your statement and then 
we will begin questioning.
    Senator Hatch?

PRESENTATION OF JOHN P. WALTERS, NOMINEE TO BE DIRECTOR OF THE 
OFFICE OF NATIONAL DRUG CONTROL POLICY BY HON. ORRIN G. HATCH, 
             A U.S. SENATOR FROM THE STATE OF UTAH

    Senator Hatch. Thank you, Mr. Chairman. I appreciate it.
    It is with great confidence and very high regard that I 
introduce to the committee John Walters, the nominee for 
Director of the Office of National Drug Control Policy, ONDCP.
    As everyone is keenly aware, Mr. Walters' hearing was 
postponed on September 11, literally in the wake of the 
terrorist attacks. Since the September 11 attacks, there has 
been a lot of discussion about the nexus between drug 
trafficking and terrorism. We know that insurgent groups in 
Colombia have long been characterized as narcoterrorists 
because of their known use of cocaine proceeds to fund 
terrorist acts, including the kidnapping of Americans abroad.
    We know that proceeds from the manufacturing and 
trafficking of opium poppy have helped sustain Osama bin 
Laden's terrorist organization, Al Qaeda, for years. We also 
know that terrorist organizations routinely launder the 
proceeds from drug trafficking and use the funds to support and 
expand their operations internationally, including purchasing 
and trafficking illegal weapons. I am sure in the coming months 
and years we will continue to learn about the clandestine 
connection between drugs and terrorists.
    Mr. Walters will be starting his tenure as drug czar at a 
very precarious time, but I know he is the right person to fill 
this position. He will have to work closely with law 
enforcement and intelligence authorities to ensure that the 
international component of the Nation's drug control policy is 
designed not only to prevent drugs from being trafficked into 
America, but also to prevent the manufacturing and sale of 
drugs for the purpose of funding terrorist activities.
    Mr. Walters is eminently qualified to carry out this task 
and I am confident that he will be a first-rate Director. After 
all, having served in ONDCP and the Department of Education 
with Bill Bennett, he learned from the person widely regarded 
by Republicans and Democrats alike as one of the most talented 
and effective drug czars we have ever had in this country.
    I would also like to praise General McCaffrey and his 
efforts as well. He worked very hard and did many good things.
    John Walters' career in public service has prepared him 
well for this office. Like you, Mr. Chairman, he has worked 
tirelessly over the last two decades helping to formulate and 
improve comprehensive policies designed to keep drugs away from 
our children. Also like you, he has truly unparalleled 
knowledge and experience in all facets of drug control policy.
    As an assistant to Secretary Bennett from 1985 to 1988, Mr. 
Walters was responsible for managing drug prevention policy and 
programs for the Department of Education. As Director Bennett's 
chief of staff at ONDCP, Mr. Walters was responsible for 
drafting and implementing a sensible and effective drug control 
policy. As Deputy Director for Supply Reduction at ONDCP, Mr. 
Walters formulated interdiction policies to keep drugs away 
from America's youth.
    Lest there be any doubt that Mr. Walters' efforts proved 
successful, let me point out to the committee that during Mr. 
Walters' tenure at the Department of Education and ONDCP, drug 
use in America had fallen to its lowest level at any time in 
the past 25 years, and drug use by teenagers had plunged over 
50 percent.
    Since leaving ONDCP in 1993, Mr. Walters has continued to 
remain a vocal, committed advocate for curbing drug use. He has 
testified numerous times before Congress, including this 
committee, on drug policy issues, and he has also written 
extensively about this subject.
    Since 1996, he has served as president of the Philanthropy 
Roundtable. In that capacity, he has worked with foundations 
and private donors in many areas of charitable giving, 
including support for both drug prevention and treatment 
programs.
    Mr. Walters enjoys widespread support from distinguished 
members of the law enforcement community, including the 
Fraternal Order of Police and the National Troopers Coalition, 
and from mainstream members from the prevention and treatment 
communities, including the Partnership for a Drug-Free America, 
National Families in Action, and the Community Anti-Drug 
Coalitions of America.
    Yet, despite this groundswell of support, ever since Mr. 
Walters' name was first mentioned in connection with the drug 
czar position some individuals and groups have attacked his 
nomination with a barrage of unfounded criticisms. Today, I am 
pleased to have the opportunity to set the record straight and 
to emphasize why our country needs John Walters confirmed now.
    We all agree that if we are to win the war on drugs in 
America, we need a comprehensive policy aimed at reducing both 
the demand for and the supply of drugs. Mr. Walters' 
accomplished record demonstrates that he has always believed 
that focuses on both demand and supply reduction are important.
    For example, in testimony given before the Senate Judiciary 
Committee in 1991, Mr. Walters, then Acting Director of ONDCP, 
laid out a national drug control strategy that included the 
following guiding principles: educating our citizens about the 
dangers of drug use, placing more addicts in effective 
treatment programs, expanding the number and quality of 
treatment programs, reducing the supply and availability of 
drugs on our streets, and dismantling trafficking organizations 
through tough law enforcement and interdiction measures. Again, 
in congressional testimony given in 1993, Mr. Walters 
reaffirmed that an effective anti-drug strategy must 
``integrate efforts to reduce the supply of as well as the 
demand for illegal drugs.''
    Some have voiced concern that Mr. Walters will put 
prosecution before prevention, tougher laws before treatment. 
To the contrary, Mr. Walters' record is replete with calls for 
more and better prevention and treatment programs.
    For instance, the drug strategy announced by Mr. Walters in 
1991 had as its highest priority ``preventing drug use before 
it starts.'' And he wasn't just mouthing these words, for 
prevention spending increased by 88 percent during his five-
year tenure at ONDCP. No other component, including law 
enforcement and interdiction, was increased more than 
prevention.
    His record on drug treatment belies that concern as well. 
In 1993, he testified that more and better treatment was sorely 
needed, and he worked to remedy the shortfall. During his 
tenure at ONDCP, spending on drug treatment increased 74 
percent. Mr. Chairman, this is not the record of a man who 
would turn his back on prevention and treatment efforts.
    John Walters remains committed to treatment and prevention 
programs. Mr. Chairman, earlier this year I introduced S. 304, 
the Drug Abuse Education, Prevention and Treatment Act of 2001, 
which both you and Senator Leahy have been kind enough to 
mention and for which both of you are some of our strongest 
supporters, as you have been in these drugs areas. This is a 
bipartisan bill that we drafted together--you, Senator Leahy, 
and Senators DeWine, Thurmond and Feinstein in particular.
    This legislation, as you know, will dramatically increase 
prevention and treatment efforts. In drafting the bill, I 
repeatedly solicited Mr. Walters' expert advice. I know that 
his record clearly reflects that he agrees with all of you and 
myself that prevention and treatment must remain integral 
components of our national drug control strategy.
    John Walters knows what it takes to reduce youth drug use, 
and he will be taking the helm at ONDCP at a critical time. 
According to the most recent national surveys, youth drug use, 
particularly of so-called club drugs such as Ecstasy and GHB, 
tragically is again on the rise.
    Over the past two years, current use of Ecstasy among 12-
graders increased dramatically by 140 percent. During this same 
period, the number of emergency room visits resulting from the 
use of Ecstasy increased 295 percent, and 80 percent of those 
visits were by patients under the age of 25.
    It is simply shocking that by the time of graduation from 
high school, over 50 percent of our youth have used an illicit 
drug. We must act immediately to reverse these soaring numbers 
and to prevent our youth from endangering their lives. So I 
look forward to hearing from Mr. Walters what he plans to do to 
reverse these dangerous developments.
    Fortunately, Mr. Walters will have extraordinarily talented 
deputies to help him with this daunting challenge. In selecting 
Scott Burns, a fellow Utahn, I might add, to handle State and 
local affairs, Dr. Barry Crane to head the Office of Supply 
Reduction, Dr. Andrea Barthwell to lead the Office of Demand 
Reduction, and Mary Ann Solberg as the Deputy Czar, the 
President has assembled a team of dedicated and knowledgeable 
professionals. So I personally look forward to working with Mr. 
Walters, his deputies, and the administration in finding new 
ways to solve rather than surrender to America's drug problem.
    Mr. Chairman, no Senator has worked harder and longer on 
the drug issue than you, and it is a testament to your 
dedication to America's youth that you are chairing this 
important hearing. You and I both want to see youth drug use 
rates fall, and we know that one of the keys to this goal is 
prompt passage of S. 304.
    In that regard, I am very grateful for our chairman, 
Senator Leahy, and for his working with you and me and others 
on this very important bill. I hope we can get that through 
within the relatively near future so that we can do even more 
and give the tools to Mr. Walters and others who are serving.
    Another one of those keys, Mr. Chairman, is John Walters. 
The President shares our commitment to a balanced drug policy, 
and he has expressed his eagerness to begin working with us to 
attack the problem of drug abuse.
    Rightfully, the Senate has been focusing primarily on 
passing the anti-terrorism bill and legislation related to the 
September 11 attack. However, in light of the documented 
connection between international drug trafficking and terrorist 
activities and the ongoing war against drugs and terrorism, now 
more than ever the administration and the country need to have 
its drug czar in place.
    It is of utmost importance that the Senate act on Mr. 
Walters' nomination immediately. With Mr. Walters in place, I 
look forward to working with my Senate Democratic and 
Republican colleagues to carry forward our fight against drug 
trafficking and terrorism.
    Mr. Chairman, 24 members of Speaker Hastert's Task Force 
for a Drug-Free America, including the Speaker, have signed a 
letter in support of John Walters' nomination, and I ask that 
this letter and other letters written in support be included in 
the record.
    Senator Biden. Without objection, they will be.
    Senator Hatch. Mr. Chairman, I am grateful for you giving 
me this time. I have such high respect for John Walters, and I 
know that he can do this job and do it well. It is something 
that needs to be done, and needs to be done now, not just for 
our youth, but in order to stop terrorism throughout the world 
as well.
    So I want to thank you again for holding this hearing and 
being willing to take the time to do this.
    Senator Biden. Thank you.
    Senator Kyl?

PRESENTATION OF JOHN P. WALTERS, NOMINEE TO BE DIRECTOR OF THE 
OFFICE OF NATIONAL DRUG CONTROL POLICY BY HON. JON KYL, A U.S. 
               SENATOR FROM THE STATE OF ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, and I want to thank 
you for the opportunity to join in Senator Hatch's introduction 
of John Walters as Director of the Office of National Drug 
Control Policy.
    As all of us are well aware, this is the last Cabinet 
position to be filled, and as Senator Hatch just pointed out, 
it is vital to continuing this country's anti-drug efforts, as 
well as contributing to our war against terrorism.
    Now, Mr. Chairman, I am biased. My daughter, Christie, is a 
good friend of John's wife, Mary. My granddaughter, Alyssia, 
goes to elementary school with Rebecca, John and Mary's 
daughter, and I have worked with John Walters. But I will tell 
you that he will be a superb drug czar. I am as convinced of 
that as anything I have ever been convinced of.
    I suspect that upon close examination--and I know that all 
of you have concerns about past writings or statements--upon 
close examination, I think you will find that there is far more 
in common than there is any disagreement between the various 
approaches to fighting what we all agree is a scourge on our 
society that has to be dealt with.
    When people talk about John Walters, they talk about his 
qualifications, and I doubt there is anybody at least 
technically more qualified to serve in this position--over 15 
years of experience in handling drug policy.
    Let me add a couple of things to what Senator Hatch said, 
and maybe repeat one or two as well. John Walters started his 
public service at the National Endowment for Humanities as 
Acting Assistant Director and Program Officer in the Division 
of Education Programs. That was from 1982 to 1985.
    Senator Biden. Does Senator Helms know that?
    Senator Kyl. As I said, there may be more in common here.
    From 1985 to 1988, he worked at the U.S. Department of 
Education, serving as Assistant to the Secretary, and there he 
led the development of anti-drug programs for that Department. 
He was the principal author of Education Department handbook 
``Schools Without Drugs: A Guide for Effective Education and 
Prevention Programs for Parents and Educators.'' Over one 
million copies were requested and distributed free of charge.
    After his service at the Department of Education, he 
cofounded the Madison Center, a public policy organization 
devoted to advancing and improvement in education and related 
fields, including early childhood education and drug abuse 
prevention.
    From 1989 to 1993, he served in the White House Office of 
National Drug Control Policy, and as was noted, during that 
time was chief of staff for William Bennett, Acting Director, 
and Deputy Director for Supply Reduction from 1991 until 
leaving that Office.
    For the past five years, he has been president of the 
Philanthropy Roundtable, a national association of over 600 
foundations and individual donors providing publications and 
programs on all aspects of charitable giving.
    John Walters believes in a well-balanced approach to the 
drug problem, and I am delighted that he now has an opportunity 
personally to respond to some of the distortions and 
mischaracterizations of his positions with respect to the 
balance needed to address the problem of drugs. He understands 
all aspects--treatment, prevention, education, and 
interdiction.
    To just cite some different statistics that relate to the 
same subject as Senator Hatch brought up, during his tenure at 
ONDCP overall Federal spending for drug control programs 
increased by 83 percent, almost $5.4 billion. Spending on 
prevention programs increased by 113 percent, $914 million, and 
treatment spending increased by 98 percent, $1.1 billion.
    So as I said, this is a man who participated in a well-
balanced program for drug abuse. As noted earlier, drug use by 
1992 had reached the lowest levels in the past 23 years. His 
career, in other words, reflects a deep-seated commitment to 
anti-drug efforts in all respects.
    Mr. Chairman and my colleagues on the Judiciary Committee, 
American families, schools, those who are addicted to drugs, 
police officers, and our communities deserves to have somebody 
at the helm of ONDCP who will really lead the national effort 
to combat drugs. John Walters has the experience, the 
knowledge, the ability, and most importantly the passion to 
spearhead the ONDCP.
    I hope that we can move very quickly to confirm him. The 
President and the Nation need him in this position.
    Thank you.
    Senator Biden. Thank you very much, Senator, for a very 
good statement. Please come and join us.
    Mr. Walters, will you please stand and be sworn?
    Do you swear that the testimony you are about to give 
before the committee will be the truth, the whole truth and 
nothing but the truth, so help you God?
    Mr. Walters. I do.
    Senator Biden. Thank you. Before we proceed any further, 
would you be kind enough to introduce to the rest of the 
committee your family who is with you today and anyone else you 
would like to introduce?

  STATEMENT OF JOHN P. WALTERS, NOMINEE TO BE DIRECTOR OF THE 
             OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. Walters. Thank you, Senator. My wife, Mary, is here, 
and my daughters, Michaela and Rebecca. My wife, with no 
intended disrespect for the committee, is going to take my 
daughters out because I can't change nature; they are probably 
not going to be able to sit through this.
    Senator Biden. Well, if you could do that, it would be 
cruel and unusual punishment to make them sit through it.
    By the way, I think there is some candy in the back room 
back there, if you want to head back that way, and you can hang 
out there if you want, or however you would like to proceed. I 
thank the girls for coming.
    I invite you at the appropriate time, which is now, to make 
any opening statement you may have, John.
    Mr. Walters. Thank you, Senator. The committee has a copy 
of my written statement which I would ask you include in the 
record.
    Senator Biden. It will be included in its entirety.
    Mr. Walters. I will just summarize a few points. I would 
like to thank Senators Hatch and Kyl for their kind 
introduction.
    It is an honor to be here, Mr. Chairman, Chairman Leahy, 
Chairman Biden, and the other members of the committee. It is 
an honor for me to have been nominated by the President for 
this important position, and I am pleased with the effort that 
has been made under difficult circumstances of the last month 
to hold this hearing. Thank you for your assistance.
    Also, I want to thank you and the other members of the 
committee and your staff for the willingness to consult with me 
during this process, to talk through some of the issues that 
are of concern to you and to others. And I hope I will be able 
to work with you in the future, should the committee and the 
Senate see fit to confirm me for this position.
    We all know the tremendous toll that drug abuse has taken 
on our society. The challenge of reversing or pushing back 
against that terrible threat is made somewhat less daunting by, 
in my mind, the history of strong bipartisan commitment to work 
on this problem and the many facets necessary to achieve 
success, particularly success in reducing drug use and 
addiction among our young people.
    You already have alluded to, as have others, that the 
President shares this commitment, as he had made clear in the 
remarks he made on the occasion of my nomination, and 
particularly his emphasis on expanding Federal resources for 
treatment, announcing his intention to request over the next 5 
years $1.6 billion to expand the treatment program, as well as 
additional monies for prevention programs involving parents, 
community coalitions, and expanding drug treatment, in 
particular, in the criminal justice system.
    As you know, I began working on the drug policy issue 
during my service at the Department of Education in the mid-
1980s. As assistant to then-Secretary William Bennett, I, as 
has been alluded to, became the principal staff member 
responsible for managing drug prevention policy and programs.
    During my tenure, which began in September 1985 and ended 
in 1988, I was one of the principal authors of the guide 
``Schools Without Drugs,'' referred to here, a guide for 
teachers and parents. Almost two million copies of that guide 
have been distributed to citizens throughout the country. It 
was a how-to guide for prevention programs in the home and in 
schools and communities.
    I was the senior manager of programs to link schools and 
communities together, called the Schools Without Drugs 
Challenge Program, as well as the developer of a prevention 
public service campaign and the implementer of the 1986 Drug-
Free Schools and Communities Act which vastly expanded the drug 
prevention funding from the Department of Education to schools 
and communities throughout the United States.
    I will not summarize the other parts of my career. As was 
alluded to earlier, Mr. Bennett and I left the Department. We 
intended to go into the private sector. We were starting a non-
profit that would be involved with education reform, as well as 
drug prevention and early childhood education.
    Unfortunately, that lasted only several months because the 
first President Bush asked Mr. Bennett to become the first drug 
czar. I went with Mr. Bennett to that office. We had long 
discussions with you, Mr. Chairman, and other senior members of 
this committee about the first drug strategy and its 
construction and implementation.
    I served first as chief of staff to Mr. Bennett and was 
involved in the construction of the strategy throughout the 
various agencies and programs. In the latter part of the Bush 
administration, I served as supply reduction deputy.
    My tenure at ONDCP, with the strong bipartisan support in 
Congress, sought to expand a balanced program of drug 
prevention and drug control. We sought not only, as was alluded 
to earlier, to bring together, organize and make accountable 
and effective programs on law enforcement and national 
security, but in prevention and treatment.
    Our efforts to focus on expanding treatment I am 
particularly proud of because I believe we provided more 
resources during that period, during that administration to 
drug treatment, and increases, than any administration before 
or after. And I believe those are needed and provide a basis 
for the expanded efforts we have been talking about and I think 
everybody agrees we need in the future.
    We also launched particular new programs to expand prison-
based treatment and prevention programs. We launched a new $100 
million-a-year community coalition initiative, modeled on the 
successful Robert Wood Johnson program. We also expanded 
resources to law enforcement, and I am proud to say we expanded 
anti-drug interdiction and national security programs not by 
taking money from other parts of anti-drug programs on the 
prevention side, but by making the priority of drug control a 
more central part of our national security agenda. The national 
security agencies and the interdiction agencies became a more 
complete and full player.
    I believe these balanced policies that we established and 
that we have been discussing already here today are crucial for 
successful drug control. And I think the proof that they can be 
successful has been the decline in drug use, and I am proud 
that use reached one of its lowest levels in the last several 
decades in 1992, and particularly that drug use by young 
people, as has been alluded to, aged 12 to 17, dropped by 60 
percent from 1985 to 1992. Cocaine use by those young people 
dropped by 78 percent.
    Sometimes, as you know, people say we can't make any 
difference. We do make differences, we have made differences. 
We make differences everyday, and I think it is important that 
we build on those, but to build on them we have to first 
recognize them.
    Let me conclude this brief summary because I know you have 
questions and I don't want to eat up the time. But given some 
of the comments that have been made in the public and in the 
press about my record in the past, let me try to state 
concisely my views so that we can explore this and we follow up 
what I put on the record.
    I believe in drug prevention programs. I believe in efforts 
by parents, by schools, by workplaces, and by communities. I 
think my record in office and subsequently reflects that. I 
believe in drug treatment, in particular, public and private. I 
believe that it works in prisons. I believe that it works in 
diversion programs and in drug courts.
    I believe also in law enforcement and interdiction playing 
an important role. I believe that drug control efforts should 
be expanded to our foreign policy priorities in appropriate 
ways, not that it is the only foreign policy priority. But I 
believe the record of the administration I last served in and I 
believe the discussions I have had with members of this 
committee, as well as others, indicate that I think there is an 
appropriate role, and I understand how that can fit into other 
priorities.
    I would like to take this opportunity to thank a couple of 
people in closing who are in the audience here and have been 
helpful--who have been willing to consult with me during this 
process and who I look forward, should the Senate decide to 
confirm me, to working with in the future, including some 
people I know that are well known to members of this committee: 
Mr. Dick Bonnetta from the Partnership for a Drug-Free America; 
General Art Dean and Sue Thau from CADCA; Melanie Heaps from 
Treatment Alternatives for Safer Communities; John Avery, 
Association for Treatment Professionals; Johnny Hughes from the 
National Troopers Coalition; Steve Young, newly-elected 
national president of the Fraternal Order of Police, and Jim 
Pasco of FOP; Jennifer Collier of the Legal Action Center; 
Chief Bob Warshaw, who worked in the previous administration as 
Deputy Director for State and Local Affairs and was chief in 
Rochester, New York, formerly; Linda Wolf Jones, of Therapeutic 
Communities of America; Judge Karen Friedman-Williams, National 
Association of Drug Court Professionals; Betty Sembler and 
Calvina Fay from the Drug-Free America Foundation; Judy 
Cushing, President of the Oregon Family Partnership; Henry 
Lazono, California for Drug-Free Youth; Barry Crane, who is in 
the audience, who has been nominated to be supply reduction 
deputy at ONDCP and has written extensively.
    These are just some of the people, but people who made the 
time to come here today, some from a long distance, and I 
wanted to publicly thank them for their advice and counsel and 
their support.
    Thank you, Mr. Chairman.
    [The prepared statement and biographical information of Mr. 
Walters follow.]

 Statement of John P. Walters, Nominee to be Director of the Office of 
                      National Drug Control Policy

    Chairmen Leahy and Biden, Ranking Member Hatch, and distinguished 
members of the Committee:
    I am honored to appear before you today as you consider my 
nomination for Director of the Office of National Drug Control Policy 
(ONDCP). I want to thank each member of the Committee for the guidance, 
counsel, and support offered during the nomination process. If the 
Senate permits, I will be pleased to join my colleagues and take my 
seat as a member of the President's Cabinet.
    Illicit drug use and its consequences exact a tremendous toll on 
our society. As you know, developing an effective arid comprehensive 
drug control policy is a challenge that is complex and multifaceted. 
This challenge has been made somewhat less daunting by the history of 
strong bipartisan commitment to our shared national goals of reducing 
drug use, especially among our youth.
    The President shares this commitment and made clear when he 
nominated me for this position that the drug issue is of foremost 
concern for the public health and national security of the United 
States. I fully endorse the President's pledge to increase federal 
funding for drug treatment by $1.6 billion over five years and look 
forward to working with Secretary Thompson on this important 
initiative. I strongly support the President in his heartfelt belief 
that in order to succeed in our efforts to craft a solution to this 
problem, the Congress and Executive Branch must transcend traditional 
political and party boundaries.
    Over many years now, both as an official of the United States 
Government and as a private citizen, I have had the privilege of 
working with most of the members of this Committee in an honest and 
cooperative effort to shape the most effective drug control policy 
possible. Although we have not agreed on every policy in the past, I 
have never doubted that we all share a deep personal concern for the 
good of our nation as it relates to these critically important matters. 
If confirmed as the ONDCP Director, I expect that our discourse will 
continue to be constructive and guided by a mutual desire to achieve a 
society less threatened by illicit drugs.
    I have always believed that the fundamental elements of effective 
drug control policy are consistent with common sense. We need to 
prevent young people from experimenting with drugs in the first 
instance and starting on the path that all too often leads to 
addiction, crime, and personal and familial destruction. We need to 
help those who have become addicted get off and stay off drugs. We need 
to use the coercive power of the criminal justice system and other 
supply reduction programs to support domestic prevention and treatment 
efforts, as well as pressuring and disrupting drug trafficking 
organizations.
    Despite the all-too-frequent claims of a vocal few that our drug 
control efforts are without merit and destined to fail, we all know 
that dedicated Americans throughout our country are making a difference 
every day in their communities by teaching the young about the dangers 
of drug use, treating the addicted, and protecting fellow citizens from 
the predatory drug trade and the destruction it inflicts. These 
community leaders deserve our full and unqualified support. They 
deserve our sincere thanks and our best efforts to .bring the widest 
possible attention to their important work.
    But even though much is being achieved, none of us-particularly 
those working hardest in this field-is satisfied with the status quo. 
Despite our best efforts, there are too many of us using drugs. There 
are particularly too many of our young people using drugs at very early 
ages. There are too many of us chronically addicted. The drug trade is 
too prosperous.
    Every responsible American wants to see us join together as 
individual communities and collectively to better address all aspects 
of the drug problem. Every responsible American wants to see us drive 
down drug use to lower levels. Every responsible American wants us to 
counter the irresponsible counsel of the legalization movement, which 
would sacrifice our the health and safety of our children to advance 
its own selfish agenda. We owe it to those concerned citizens to forge 
a united effort with renewed confidence, commitment, and effectiveness 
to reduce the drug problem substantially in the next several years and 
maintain our diligence to keep it in decline. Drug legalization, it has 
been noted, is a counsel of despair, a policy of hopelessness. Let me 
be clear, our experience-our recent experience, even-teaches one lesson 
more clearly than any other: when concerned Americans push back on the 
drug problem, it recedes.
    I began working on drug policy issues during my service at the U.S. 
Department of Education in the mid-1980's. As an assistant to then 
Education Secretary William J. Bennett, I became the principal staff 
member responsible for managing drug prevention policy and programs for 
the Department. During my tenure, which ranged from September of 1985 
to September of 1988, I was:

        <bullet> principal author of an Education Department handbook, 
        ``Schools Without Drugs,'' a guide for effective education and 
        prevention programs for parents and educators. Millions of 
        copies have been requested and distributed free-of-charge to 
        schools and families throughout the country;
        <bullet> senior manager for the Department of Education's 
        recognition program that gave national attention to schools 
        with effective drug prevention programs;
        <bullet> senior manager for the ``Schools Without Drugs'' 
        public service campaign that broadcast prevention education 
        advertisements;
        <bullet> senior manager for the ``Challenge'' newsletter that 
        distributed drug prevention strategies and successes to every 
        school district in the country; and
        <bullet> senior manager for the implementation of the expanded 
        prevention funding initiated by the 1986 Drug-Free Schools and 
        Communities Act.

    William Bennett and I left the Department of Education in the fall 
of 1988 to found the Madison Center, a non-profit institute designed to 
continue our work on education reform and drug prevention education. We 
were just beginning our new efforts when President George Bush 
nominated Mr. Bennett to be the first Director of the ONDCP and he 
asked me to join him as his Chief of Staff. I served at ONDCP from 
early 1989 through the end of the Administration, as Chief of Staff for 
the first half of that Administration, as Acting Director from December 
1990 to March 1991, and as Deputy Director for Supply Reduction from 
May 1991 until the end of the Administration.
    During my tenure at ONDCP-with the strong bipartisan support of the 
Congress-we sought to achieve an expanded and more balanced drug 
control strategy. In fact, I managed the drafting of the first National 
Drug Control Strategy to make our goals clear and to subject them to 
debate and further improvement. I am proud that the first Strategy 
highlighted drug treatment as a fundamental component of our multi-
faceted approach at a time when treatment programs did not enjoy 
popular support. With the help of Congress we put resources in place to 
support the policies and programs advanced by the Strategy, many of 
which continue to enjoy tremendous success. From FY 1989 to FY 1993 (in 
1996 constant dollars):

        <bullet> overall federal spending for drug control programs 
        increased by 61 percent or by $4.9 billion as compared with the 
        FY 89 level;
        <bullet> prevention increased by 88 percent or $873 million;
        <bullet> treatment increased by 74 percent or $1.04 billion;
        <bullet> domestic law enforcement increased by 84 percent or 
        $2.9 billion;
        <bullet> interdiction decreased by 8 percent or $136 million; 
        and
        <bullet> international programs increased by 52 percent or $193 
        million.
    It is important to note that those budgets funded expanded anti-
drug interdiction and national security programs by making drug control 
a central priority for the limited resources of those agencies of 
government, not by redirecting funds from agencies tasked with carrying 
out critical domestic demand reduction programs.
    Currently, we are enjoying significant bipartisan interest in 
expanding our nation's commitment to effective drug treatment programs 
and research. I am proud to have been a major architect of a drug 
strategy from 1989 to 1992 that called for, and obtained, larger 
increases in treatment resources than any administration before or 
since. We targeted those resources to areas experiencing a heavy demand 
for drug treatment services by creating a capacity expansion program 
(that remains a critical component of our treatment infrastructure), 
launching new initiatives to match better the specific needs of 
individual drug addicts with proper treatment modalities, and expanding 
the availability of prison-based treatment programs.
    In addition to the gains we made concerning drug treatment, I also 
am pleased that we were able to direct greatly expanded budgets and 
programs for drug prevention activities. In addition to enhancing 
substantially existing education and prevention programs, we launched a 
new $100 million per year community coalition initiative that enabled 
new federal funds to support a program created by the Robert Wood 
Johnson Foundation, and mobilized the efforts of private service 
organizations in a campaign to discourage drug use by young people, as 
well as supporting the advertising campaign created by the Partnership 
for a Drug-Free America.
    I firmly believe that the balanced policies and programs we 
established in that first Strategy, as well as the supporting budgets 
the Congress provided, helped make the efforts of millions of Americans 
more effective and contributed to real results:

        <bullet> By 1992, drug use in the United States had fallen to 
        the lowest level of any time in the past quarter century;
        <bullet> Specifically, between 1985 and 1992 ``current'' 
        (defined as monthly) use of all illegal drugs by 12-17-year-
        olds dropped by almost 60 percent; marijuana use dropped by 
        over 66 percent; and cocaine use dropped by over 78 percent.

    Those achievements are measures of what we can accomplishment when 
we commit to working together to overcome the many challenges posed by 
illicit drugs. Those achievements are not the result of our efforts in 
government, but of many, many dedicated Americans working together on 
all aspects of drug control policy. It would be an arrogant mistake for 
national leaders to take credit for these reductions which in most 
cases are the hard fought victories of parents and teachers, of police 
officers and members of the clergy, of neighborhood orange-hat patrols 
and treatment providers. The people who work hard each and every day, 
focusing on individual to individual, are where success in this effort 
rests. But they also need-and deserve-national leadership, and the 
resources that support their efforts. If confirmed, I will dedicate my 
office to working within the Administration and with the Congress to 
provide the support they so richly deserve.
    Thank you for this opportunity to testify and I look forward to 
answering any questions the Committee may have.
[GRAPHIC] [TIFF OMITTED] 81443.008

[GRAPHIC] [TIFF OMITTED] 81443.009

[GRAPHIC] [TIFF OMITTED] 81443.010

[GRAPHIC] [TIFF OMITTED] 81443.011

[GRAPHIC] [TIFF OMITTED] 81443.012

[GRAPHIC] [TIFF OMITTED] 81443.013

[GRAPHIC] [TIFF OMITTED] 81443.014

[GRAPHIC] [TIFF OMITTED] 81443.015

[GRAPHIC] [TIFF OMITTED] 81443.016

[GRAPHIC] [TIFF OMITTED] 81443.017

[GRAPHIC] [TIFF OMITTED] 81443.018

[GRAPHIC] [TIFF OMITTED] 81443.019

[GRAPHIC] [TIFF OMITTED] 81443.020

[GRAPHIC] [TIFF OMITTED] 81443.021

[GRAPHIC] [TIFF OMITTED] 81443.022

[GRAPHIC] [TIFF OMITTED] 81443.023

[GRAPHIC] [TIFF OMITTED] 81443.024

[GRAPHIC] [TIFF OMITTED] 81443.025

[GRAPHIC] [TIFF OMITTED] 81443.026

[GRAPHIC] [TIFF OMITTED] 81443.027

[GRAPHIC] [TIFF OMITTED] 81443.028


    Senator Biden. Well, thank you very much.
    We will do five-minute rounds for the first round here. I 
am also supposed to be chairing a hearing, which I am not going 
to chair, upstairs on Afghanistan in the Foreign Relations 
Committee. But I am going to go do exactly what the chairman 
did here. I am going to go up and make a brief opening 
statement there at the appropriate time and I may leave for ten 
minutes. I just wanted to explain my absence when I do, but 
this is more important.
    Let me start by saying, John, I don't have to read any of 
your quotes or anything. You and I have known each other for a 
long time. I can't think of anybody that I have liked better 
who I have disagreed with more.
    In 1996, you testified before my committee, and my staff 
excised this and reminded me. It was on the national drug 
control policy. I said, ``Look, John, I love you. We always 
argue a lot, you and I. While we always disagree, I am not sure 
we disagree as much as we like to disagree,'' and I went on 
from there.
    The point is I have a slightly different recollection of 
some of the reasons why things happened in the first go-around. 
If I remember, during the tenure of Bill Bennett, consumption 
did drop. But I am the one that put the money in. You guys 
opposed the additional money for treatment. This wasn't one of 
these things where you all came out and said, hey, let's have 
more treatment money. It was a big fight. Were it not for Dr. 
Kleber, we wouldn't have gotten there because Kleber was the 
only ally I had in that outfit at the time.
    Now, you had a logical argument, a good argument, and we 
all agreed at the time we weren't sure who was right; we just 
had a different view on how to approach it. The argument was 
you all didn't believe there were enough treatment 
professionals out there to be able to accommodate and use the 
treatment money well. At least that was Dr. Bennett's argument 
as to why we should not be putting more money in treatment in 
the first three budgets.
    But let's get the record straight there. It did go down, 
but it didn't go down because you and Dr. Bennett were arguing 
for more money for treatment. That significant increase got put 
in over your objection. Now, that doesn't mean that you 
shouldn't be the drug czar.
    The second thing is I also think that some of the stuff 
that is being used to make the case against you now is being 
used to make a case against you because you were in your 
political mode, not a substantive mode. I mean, the guys behind 
you are the guys who helped me write the crime bill, the thing 
you called irrelevant, ``the irrelevant crime bill,'' if I am 
not mistaken.
    I don't know whether you guys remember that, but this was 
the guy who thought the crime bill as irrelevant, and still 
thought it was irrelevant and wrote about it being irrelevant 
as little as a couple of years ago. I don't take that seriously 
because I know you don't think it is irrelevant. I took it as 
your being a partisan, which is understandable. You had a 
Democratic President you didn't like very much and so you had 
to write that stuff.
    But one thing is at the core of my concern, and we know 
each other too well, so I am not going to ask you any baited 
questions. I am going to ask you a general question that I 
would like you to respond to, and this is going to disappoint 
my staff because they wrote a hundred questions that are very 
specific.
    You very strongly believe in this notion of devolution of 
Government. You very deeply believe that and I respect that. I 
think you are dead wrong, but I respect it. The President 
believes it, too. You believe, as you have written numerous 
times, that law enforcement, drug treatment and education are 
local functions; the Federal Government should not be in the 
business. You have written that extensively.
    You have a very compelling ideological point of view, and 
when you write it, you write clearly and concisely. Everything 
I know about you in the years we have dealt with it is your 
views on how to deal with the drug problem are consistent with 
that philosophy. It is not at all inconsistent, which brings me 
to this dilemma.
    I don't doubt you think treatment makes sense sometimes. My 
recollection was you weren't real crazy about my idea of drug 
courts when I introduced that legislation. I may be wrong, but 
I don't think you were. I will go back and dig up the record, 
but you weren't so crazy about those. Again, local 
responsibility. What is the Federal Government doing involved 
in all this?
    Drug treatment that the Senator from Alabama was pushing 
very, very hard--he is not here at the moment, Senator 
Sessions--in prison, mandatory drug treatment in prison, 
imposing that view on States--I don't remember what your view 
was, but I don't remember it being supportive. I could be 
wrong.
    But here is the point: If, in fact, these are local 
responsibilities by and large, the difference in degree that we 
have is really consequential potentially. I don't suggest you 
think treatment can never work. I think you do think treatment 
works sometimes. My impression from 15 years of knowing you is 
that you don't think it works well enough to warrant the 
investment and the priority that it has had.
    I introduced a bill on pharmacotherapy when you guys were 
there for a $10 billion commitment, $1 billion a year over 10 
years, that you guys opposed. You opposed it then and I think 
you still oppose it now. You have written cogently about the 
fact that you don't think that anti-addiction medications are a 
particularly useful way to go about this issue, a gigantic 
issue about methadone, whether or not we should be promoting 
it, and so on. My recollection is you view those things as 
substitutes for an abuse that exists already and they don't go 
to the heart of the problem.
    You may be right on all of this, but I just want to make 
sure I got it right, that I haven't just been in a fog for the 
last 10 or 12 years as to what our disagreements are. You know 
my views thoroughly. I have put out a thick old book every 
single year since I have written this legislation, and I know 
you have read it and I know you know it.
    So here is my generic question: Is addiction, not the first 
time one consumes an illegal substance--once someone is 
classified as being addicted, is that a moral problem or is it 
a medical problem at that point? I assume you believe we could 
agree on a point at which someone is addicted to a substance, 
physiologically addicted, or do you think that is possible?
    Mr. Walters. Well, let me simply say first I don't want to 
pretend to be a physician--I am not--but I accept the Institute 
of Medicine criteria for substance dependency.
    Senator Biden. Now, at that point is that a moral or a 
medical problem?
    Mr. Walters. It is a medical problem and it is a problem of 
engaging an individual's own resources, as well as outside 
experts, in overcoming the addiction. So I am not trying to 
evade the question here, but I do think on the issue of 
disease, for example--this gets at the question of disease, 
obviously--if the understanding of disease is that it is 
something like diabetes where an individual's adherence to 
behavior that moderates the effects of the disease--to take 
medicine, change diet, exercise--these are an important part of 
their recovery, then I don't have a problem with that.
    Some of the context that I have written in and some of the 
criticisms that have been of concern to people, whether they 
are in context or out of context, have been more or less in my 
mind, at least, intended to say for people who think one thing 
is going to solve this, there are important limits to almost 
everything we do in drug control. And there is no silver 
bullet, and we ought not over-promise.
    I have been concerned in my career that drug policy gets 
caught up in rhetoric. You have made a point that I have been 
involved in that, too, and I will confess that I have. But the 
rhetoric I have been most concerned about is that we over-
promise, and as a result we play into the impression that 
nothing works. Of course, we all know a lot works, and we are 
trying to make the things that work, work better.
    So on the issue of what approach do we take, I think that 
people can take a variety of approaches and a combination of 
approaches that involve drugs, from methadone to naltrexone to 
other drugs that are coming on line to help in addiction 
treatment.
    But I think also we have--and I think it has been more 
recognized--we have to expand the scope of what we talk about 
in addiction and recovery, programs especially for people who 
have had severe and extended periods of addiction. We have to 
talk about recovery.
    What I have been doing for the last several years at the 
Philanthropy Roundtable insofar as it has touched the issue of 
drugs, (which is not the focus of the Philanthropy Roundtable), 
has been working with donors in the area of treatment and in 
the area of working with people in community institutions--
employment, recovery and reentry of people from the criminal 
justice system, working with people on educational 
opportunities, as well as child care opportunities, especially 
in neighborhoods that are poor and have been affected 
particularly harshly by the drug problem.
    So coming back to the point you made about local 
responsibility, almost everything the Federal Government does 
that it doesn't carry out itself it relies on local people to 
do the real work--law enforcement, treatment, and education. I 
have been struck by, and I know that you have been in 
Government longer than I, how blunt an instrument the Federal 
Government is.
    People look to it for help, but the frustration always is 
you can't really do much. You can enable people to do things 
that are crucial, but we rely on them to do them. My career out 
of Government has been to talk about how to better use those 
resources and how local governments need to build the coherence 
in their own systems to handle those resources and do a better 
job. I did not intend to say that Federal resources were not 
important.
    On the area of treatment funding, I don't remember the 
precise distinction between the request figures and the enacted 
figures on treatment funding. But I wasn't just at the Office 
then; I was the guy who had to negotiate the final tough parts 
of the budget and strategy. And I remember being on the phone 
with colleagues in HHS, in Lou Sullivan's office, screaming at 
them that we were going to decertify them because of the 
request amount that wasn't enough for increases in treatment.
    And that wasn't because they were against treatment. It was 
because, as you know, the appropriations process made it such 
that they believed other parts of their budget that were 
important--Head Start, other programs in HHS--were going to 
take the hit. We got more money, however.
    Now, I think we can all debate about what level was enough, 
but I don't remember us not stepping up to the plate and I 
don't remember us not being willing to fight inside the 
administration, and it was as hard to get those dollars on the 
prevention side as it was to get those dollars on the supply 
side.
    Senator Biden. Well, my time is up in this first round, but 
you sure fooled me because you were on the other end of the 
phone with me and with my staff saying, and Dr. Bennett was 
saying we shouldn't be spending this money. I don't doubt for a 
minute what you say inside the administration, but you sure in 
hell fooled me.
    Now, I will yield to the Senator from Utah.
    Senator Hatch. Well, thank you, Mr. Chairman.
    Youth drug use, Mr. Walters, remains markedly higher than 
it was back in 1992. For me, the problem is--and I hope that 
you agree--that even if teen drug use has leveled off in the 
past few years, it is leveling off at unacceptably high rates. 
For instance, use among eighth-graders since 1992 has increased 
by 129 percent for marijuana, by 80 percent for cocaine, and by 
100 percent for both crack and cocaine.
    Teenage drug use dropped dramatically during your tenure at 
the Department of Education and at ONDCP. I am curious to know 
what worked previously to slash drug use rates among our youth, 
and what do you think accounts for this drastic increase and 
what would be your strategy for bringing these current numbers 
down?
    Mr. Walters. Senator, I think we were benefitted by a 
broader consensus than has existed over the last several years 
about the priority and about the seriousness of the drug 
problem and about the need to focus energy on young people. I 
think some of that is coming back. I think the effort now, the 
ads on television that are now focused on parents and engaging 
parents as a vehicle to be involved in the behavior of young 
people, of supervising their time, but also just of sending the 
message--I mean, society became more blase about it.
    I do think that questions were raised that didn't exist at 
the latter part of the 1980s and early 1990s about whether or 
not even current law and current sanctions in society 
disapproving of drug use were appropriate. We know that the 
most important influence on young people is what they thing 
their parents and other responsible adults around them think 
and what those adults around them do as an example and what 
their actions indicate about the truth and the seriousness of 
their words.
    If you say don't use drugs, but you don't really act as if 
you care, if you don't follow up about where young people are 
after school and what they are doing when they appear to be 
erratic in their behavior or when there is a question about how 
they are spending their time or what they are doing with their 
time, then you are sending a message.
    When there are more or less known open sales of drugs 
around schools or along the routes children take back and forth 
to schools, or there are accepted parties, or when we say this 
is going to be a rite of passage for American young people, I 
think you end up with mean ages of first use that are as low as 
they are today which is shocking for drugs, and I think you end 
up obviously with larger numbers of initiates.
    What we do in terms of programs and activities all have to 
focus on use, and particularly I think there is now uniform 
agreement that we need to stop young people from using and we 
need to stop them from using for longer periods of time because 
that is a key to diminishing addiction and long-term use 
patterns in the country.
    Senator Hatch. In addition, the perception that youth drug 
use is confined to our urban areas is proving to be mistaken. 
According to a report funded by the DEA, drug traffickers are 
infiltrating rural America, as they have already done in urban 
and suburban areas.
    The report found that eighth-graders living in rural areas, 
as compared to eighth-graders living in urban areas, are 104 
percent more likely to use amphetamines, including 
methamphetamine, 50 percent likelier to use cocaine, 34 percent 
likelier to smoke marijuana, and 83 percent more likely to use 
crack cocaine.
    Now, this is particularly troubling to me and my 
constituents from my State which is mostly rural. Specifically, 
what can I tell my constituents back home that the Government 
is doing to protect children living in rural areas from 
becoming victims of illegal drug trafficking and use? Will you 
take a different approach from that used in urban and suburban 
areas, and if so, what different approach would you take?
    Mr. Walters. I think some of the basic approaches obviously 
involving parents remain the same, but the ability for us to 
deliver both the resources to help parents in organizing and 
cooperating with schools, also frankly the resources obviously 
in connection with public health services and law enforcement, 
are not as available in many rural areas.
    I have heard this when I was in office and I have heard it 
subsequently. Many rural areas can easily be swamped by demands 
for treatment, demands for law enforcement. I think part of the 
advantage of the expanded HIDTA program, for example, has been 
to try to organize resources in larger geographic areas that 
could be flexibly applied to needs as they arise, because when 
you don't have as much to apply against the problem, it is a 
quick mushrooming of use and supply that can overwhelm the 
available resources. So I think that is helpful.
    I also think we need to be careful that we don't fall into 
the kind of nationalizing trap of one size fits all. We need to 
vary and work with and talk with people that are working 
successfully. My view in my career in Government and out is 
when you have a problem, try to find somebody who is solving 
that well and see what lessons and see what kind of attention 
we can give to that in order to get more people working 
successfully, because most people want to solve problems rather 
than flounder around and if we give them both the resources and 
the example, they are eager to do things on their own.
    Senator Hatch. Well, thank you. My time is up.
    Chairman Leahy. [Presiding.] Welcome, Mr. Walters. I 
checked the numbers and I am told that there are 4,161 Drug 
Enforcement Administration agents working to prevent drug crime 
and apprehend law-breakers. Do you believe they are doing a 
conscientious job?
    Mr. Walters. Yes.
    Chairman Leahy. And then we have Asa Hutchinson, a 
conservative Republican. He and I have been on opposite ends of 
a number of things, but a man I strongly supported for the post 
as head of DEA. He was confirmed in August and sworn in on 
August 8. Would you say he is doing a pretty good so far?
    Mr. Walters. Yes.
    Chairman Leahy. Even before he was there, the DEA agents 
were not just sitting on their hands; they were working hard to 
protect America.
    Mr. Walters. Yes, sir.
    Chairman Leahy. Now, there are 10,522 Customs agents. Their 
job responsibilities include preventing illegal drugs from 
entering the country. Would you say these Customs agents have 
been working hard and with dedication throughout President 
Bush's tenure so far?
    Mr. Walters. Yes, sir.
    Chairman Leahy. There are 11,523 FBI agents. They are 
working to prevent and solve crimes, including drug-related 
crimes. Would you say that these FBI agents, these men and 
women, are performing their jobs admirably?
    Mr. Walters. Yes, sir.
    Chairman Leahy. Of course, there are thousands and 
thousands of State and local law enforcement officers, 
including those I used to work with when I was in law 
enforcement, whose responsibilities include drug crimes. They 
certainly have been working all year, have they not?
    Mr. Walters. Yes, sir.
    Chairman Leahy. The Bush administration hasn't said we 
won't do anything on drugs until you come along, is that 
correct?
    Mr. Walters. I haven't been told that. I think people are 
continuing to work hard even when I am not there.
    Chairman Leahy. Well, I agree with you because I know from 
any discussions I have ever had with them and everything I have 
ever heard them say that President Bush, like most Americans, 
wishes there was no drug abuse in this country and is very much 
opposed to it.
    I only mention that because apparently a number in Congress 
have said that the Bush administration was paralyzed and 
nothing was happening, pending your nomination. I felt the 
President was working pretty hard and I just thought I would 
get this on the record because I thought it was an unfair 
charge being made by these members of Congress.
    I will put their letters in the record, but I wanted to 
stand up for the 4,161 Drug Enforcement agents, the 10,500 
Customs Agents, the 11,500 FBI agents, and President Bush, and 
point out that they have been working. Obviously, the 
administration would like to have you there, too, but these 
others have been working in the meantime.
    The U.S. Sentencing Commission has estimated that less than 
7 percent of all Federal crack defendants are high-level drug 
offenders--less than 7 percent--so they have recommended that 
Congress reduce the sentences for crack offenses. I have always 
found the disparity unjustified, but you have criticized the 
Sentencing Commission for its recommendations and conclusions. 
You have urged that crack penalties be retained.
    Do you believe today that the current penalties for crack 
offenses should be retained?
    Mr. Walters. I think we should examine them. I have been 
concerned by both what I think is pretty widespread concern 
about the level and the extent of the sentences. And I think as 
a part of looking at the drug strategy from top to bottom we 
ought to work with you and other members of the Congress.
    I think the President has indicated a willingness, and the 
Attorney General--
    Chairman Leahy. But do you have any feelings one way or the 
other as you look at it today?
    Mr. Walters. I am less concerned today about the level of 
the sentence than the justness of the sentence in terms of 
proportionately provided punishment to people who are engaged 
in trafficking and the effect--
    Chairman Leahy. I am not sure I understand what that means. 
I am just from a small town in a little State. You big city 
guys, I have to keep up with you.
    Mr. Walters. I am from Michigan, but I would not want a 
change in the law to be one that either went as far as to 
normalize the drug trade as an acceptable activity or to send a 
signal that there was a consensus that drug trafficking in 
serious, addictive substances is not a serious concern of 
legal, political and national authorities.
    Chairman Leahy. Well, I understand it takes 1 percent as 
much crack cocaine to get the same kind of mandatory minimum 
that you could with powder cocaine. In other words, you have to 
have 100 times more powder cocaine to get the same sentence. 
That worries me because 38 percent of crack users in 1995 were 
black, but 88 percent of those who were sentenced were black.
    Now, you say that is a perceived racial injustice. Those 
are pretty amazing numbers. I mean, as a Vermonter I would 
worry about anybody using powder or crack cocaine. I am not 
suggesting otherwise, but it seems that if you are a powder 
cocaine user, not an awful lot happens to you. But if you are a 
crack cocaine user, you are heading to the slammer.
    Mr. Walters. Yes. Well, Senator, I don't need to tell you, 
you were here when some of this legislation was passed 
originally, and the concept, in part, was the greater danger of 
addiction and trafficking in crack cocaine and, in fact, the 
greater danger it posed to some of the poorest and least well-
endowed communities in America.
    Chairman Leahy. It seems their danger is they all go to 
jail, whereas if they are in white, affluent America, they 
won't.
    Mr. Walters. I think that concern is an issue that warrants 
a review of the sentences, but I would like to just say one 
thing about the background of my opinions.
    Chairman Leahy. Please.
    Mr. Walters. When I was at the drug office, and 
subsequently now working with people in communities with 
donors, what I saw was people who in many cases have borne the 
brunt in terms of ravaging not only families, but economic 
foundations of their communities and the other institutions of 
their communities; people who, unlike some of the suburbs, had 
to worry about their children walking past open-air drug 
markets to school.
    Most of those people, I found, wanted the same thing that 
the people in the suburbs wanted, which is why can't we close 
these drug dealers down and keep them off of our streets? I 
mean, it is inner-city neighbors that are walking their streets 
at night unarmed in orange baseball caps and have sometimes 
been pushed by frustration to burn down crack houses. The 
people in the suburbs don't have to do that. Also, it is the 
inner-city neighborhoods that have faced the fewest resources 
in rebuilding.
    So my concern in the discussion of racial equity--and I 
think I have said this and I have tried to be clear; maybe I 
haven't been as clear as I should in writings or testimony--is 
that the equity not be detached from the victims of open-air 
drug markets. When you look at maps of metropolitan areas, the 
communities that are affected by those are not randomly 
distributed, and I don't think it is unreasonable to hear the 
calls of those citizens and want to provide law enforcement 
protection where open-air drug markets and other kinds of open 
trafficking--
    Chairman Leahy. If you had the same open-air drug markets 
in wealthy suburbia, you would be hearing the same complaints. 
Unfortunately, in wealthy suburbia oftentimes you see a very, 
very nice high school with signs outside saying this is a drug-
free high school as the kids are peddling drugs from their very 
expensive cars that belong to their parents to each other or as 
they are buying designer clothes and everything else.
    I know you are not suggesting that drugs aren't in both 
wealthy suburbia and inner cities, but I just want to make sure 
that we have the same resources to approach it and we don't 
take the only resources and if you are white, wealthy suburbia, 
we will get you into a rehab thing and we will take care of you 
and we will make sure there is nothing on your record, and if 
you are in black inner-city America, we will send you to jail 
for 20 years.
    Mr. Walters. I agree with you. My own view of my work in 
the last several years has been not so much focused on law 
enforcement, obviously, because that is not where I have been. 
But I think the problem is in stabilizing neighborhoods once 
law enforcement is provided with effective treatment, with 
effective housing, with effective economic development, better 
schools.
    And I have been, in fact, working with donors to try to 
bring that about in the private sector. Obviously, there is 
public sector money here, too. We ought not to make drug 
enforcement a kind of maw that sucks in generation after 
generation of young black men in our inner cities and grinds 
them up and destroys their lives. But I do believe you have to 
balance that concern with not allowing the drug trade to grind 
up those communities and addict and destroy the lives as well.
    So we have to be able--in this case, I guess maybe it is a 
``walk and chew gum'' requirement. We have to be able to 
sustain lawful order and we have to rebuild and sustain the 
outlets for healthy development and economic and social well-
being of the citizens.
    Chairman Leahy. Well, my time has expired. I am going to 
yield to Senator Kyl. I have also been called to go back to the 
floor to try one more time to see if we can move this terrorism 
bill.
    I am going to submit a number of questions for the record 
in case I don't get back. If I get back, I will ask them. I 
would ask you not to consider these boilerplate questions. I 
have thought long and hard on them, and I would want you to do 
the same. If I don't get a chance to ask you them here, we are 
going to have to sit down and talk about them.
    Senator Biden will take the first step on this, but then 
after that a determination of when this may be set on the 
agenda. I will be largely influenced by those questions. If you 
think any of the questions are not fair, I wish you would just 
call me up and tell me so. I think they are, but if you think 
otherwise, call me up. They are not trick questions. I am 
trying to get an honest answer from you.
    Senator Kyl?
    Senator Kyl. Thank you, Mr. Chairman. I would like to begin 
by putting a slightly different perspective on the timing of 
the hearing and the fact that we haven't confirmed a Director 
yet.
    While the Chairman, I think, is correct that one can't 
infer that we are paralyzed as a result of the fact that we 
don't have a Director because of the literally thousands of 
people who in one way or another are working hard on the 
problem of drug control, by the same token I don't think we can 
infer that it is a good thing, or even acceptable, that we 
don't have the leader, the Director of the Office, in this 
position.
    Chairman Leahy. If that was directed at me, I thought my 
question was very clear on it and I thought his answer was very 
clear.
    Senator Kyl. It was, Mr. Chairman, directed at the 
inference which one might take from your comment, and I am sure 
you would not want it left pregnant out there that it is okay 
to have a nominee for this important office still hanging fire 
in mid-October, the last month, of course, obviously having 
interfered with our responsibilities, and rightly so. But I do 
think it is important that we move this forward as quickly as 
we can.
    Chairman Leahy. I will make sure you are given an extra 
minute for the time on this. But as you referred to me, I am 
perfectly willing to have my question be on the record as it 
was asked and Mr. Walters on the record as answered. I think we 
both understood each other very, very well. Obviously, any 
Senator can draw any inference they want and usually will.
    Senator Kyl. I want to alert my colleagues and caution the 
public about a report on John Walters that is being circulated 
by an organization called the Coalition for Compassionate 
Leadership on Drug Policy. A few weeks ago, this binder with 
information regarding John Walters was delivered to our Senate 
committee offices. It was prepared by the CCLDP and contained a 
report on John Walters.
    I just have a caution of three words: follow the money. The 
CCLDP's Web site is registered to the Soros Foundation, in New 
York. The Soros Foundation was founded by multi-billionaire 
George Soros, whose major interest is to advance the 
legalization of drugs. I am familiar with George Soros and 
other legalizers because of the three separate legalization 
ballot initiatives that they helped to fund in my own State of 
Arizona.
    In 1996, when Arizona had its first ballot initiative to 
legalize over 116 Schedule I drugs such as heroin, LSD and 
marijuana, over $1 million in out-of-state money financed the 
initiative, at least $430,000 of which was from Soros.
    In 1998, when Arizona had another ballot initiative 
regarding legalization, out-of-state donors, including George 
Soros, contributed approximately $400,000 to help its passage.
    Just last year, another legalization initiative was in the 
works to further decriminalize drugs by immunizing people who 
took so-called medical marijuana from a variety of crimes, 
ranging from possession of cocaine and meth to selling drugs to 
minors. Again, out-of-state donors, including George Soros, 
spent almost $500,000 in support of this initiative.
    Soros has founded a number of organizations, many of which 
are members of CCLDP. Some of the official members of that 
include organizations who support legalization, including 
NORML, the National Organization for Reform of Marijuana Laws, 
and the Marijuana Policy Project. So, again, follow the money.
    While the CCLDP report purports not to take a position on 
the Walters nomination, it is filled, in my view, with 
distortions and inaccuracies, two of which are especially 
disturbing.
    First, it characterizes John Walters' record on treatment 
as ``relatively limited,'' notwithstanding all the things that 
we cited before about his qualifications in that regard, 15 
years of experience in treatment, and the other items that we 
noted before.
    Second, the report distorts the scientific evidence 
surrounding the needle exchange programs by incorrectly stating 
that overwhelming evidence shows that increasing the 
availability of sterile syringes curtails AIDS and hepatitis. 
That, of course, ignores the body of scientific research 
cautioning against needle exchange programs, including the 
analysis of Montreal, Canada, NEP which found that drug users 
enrolled in the NEP were twice as likely to become infected 
with AIDS than non-participants. That is from Lancet, the 
British medical journal. A study of the Vancouver NEP, the 
oldest and largest in North America, revealed that both AIDS 
and drug use increased over 25 percent since that exchange 
program started in 1998. So I just want to caution people that 
some of the material that they have been getting is designed to 
manipulate and distort John Walters' distinguished record.
    The question I would like to ask is this: It seems to me 
that the real question here is the announced policy of 
President Bush which everyone on this dais so far has extolled 
as a balanced, reasonable and appropriate response to the drug 
problem in the United States.
    My question is, Mr. Walters, will you faithfully execute 
the policies that we have been extolling up here of President 
Bush in the execution of your responsibilities as Director of 
this Office?
    Mr. Walters. Yes, sir. I wouldn't have taken the job, 
obviously, if I couldn't do that, and I believe the President's 
statements and his proposals are consistent with what needs to 
be done in this country. So I have no reservation and am eager 
to help in any way I can in carrying out those policies.
    Senator Kyl. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kennedy. [Presiding.] Thank you very much.
    I welcome Mr. Walters. I enjoyed our chance to talk in our 
office and I appreciate your coming by. And I welcome this last 
response. I think all of us are aware that the President, I 
think, to his credit has called for the closing of the 
treatment gap.
    You have had important responsibilities in this area for a 
number of years, and written about it, commented on it, and 
exercised important responsibilities. For many of us who 
believe that this kind of demand side that exists in our 
society which has been a scourge among the young people of this 
Nation needed to have a greater voice for the treatment of the 
various challenges that young and old alike have faced.
    Now, I was here in 1988, and we had the Nunn-Moynihan task 
force that at that time announced that what we really needed--
and it went into very great detail and examined the materials 
and talked about a 50-50 balance. That wasn't accepted by a 
narrow vote, one or two votes in the Senate. It was actually 
rejected. Then we went ahead with the 1988 Act on this and you 
had 4 years of important responsibility.
    You know, you can look back in terms of the resources and 
the funds that were out there when you were there, and we have 
seen since that period of time some enormously compelling 
information that has been made available to us: the Cal data 
that for every dollar we spend on drug treatment, we save as 
much as seven dollars on costs relating to crime and health 
care.
    The RAND study says treatment for heavy cocaine users is 3 
times more effective at reducing cocaine consumption than 
mandatory minimum sentences, and 11 times more effective than 
interdiction.
    The NIDA study says methadone treatment has shown to 
decrease criminal behavior by as much as 50 percent. The 
Department of Justice said in 1997 that offenders who 
successfully complete drug court programs are one-third as 
likely to be arrested for new drug offenses or felonies and one 
fourth as likely to violate probation or parole.
    I have looked at your record. I have tried to find out 
where you fought, like you mentioned to the former chairman of 
this committee, Joe Biden, or where you have written, where you 
have advocated, where you have pointed out what have been the 
findings of the scientific reviews about the importance of 
treatment for this. And I can't find it; I don't see it there.
    I hear your answers to this and they have been positive. 
You talk about child care, employment, recovery programs, all 
of those kinds of things. But in your writings we find really 
the contrary to that, and that is what is of central concern to 
me, whether you really have the belief that this is of 
importance, that this is of consequence, that you want to go 
out and try to do, I think, what credibly the President has 
said, because there is very little in the 4 years that you had 
important responsibilities.
    The fact is, over that period of the 4 years, in terms of 
treatment and prevention the budget never got even up close to 
a third during that period of time, maybe 32 percent or 33 
percent, not that budget in and of itself is all of the answer. 
I mean, the money isn't all, but at least it is a pretty clear 
indication as to where it is, and that is where we really find 
the difficulty.
    Now, what is your sense? You are going to be asked in terms 
of policy what you think it has to be. Let's say that money is 
at least an indicator of what are going to be our priorities. 
What would you like to see?
    You have had a long time to think about this. How would you 
allocate resources in terms of interdiction, prosecution, 
treatment, prevention? Give us some idea of where you stand on 
this issue.
    I have got a short time, too, and I want to give you a fair 
chance to answer it, but I do have other questions.
    Mr. Walters. Thank you, Senator. I mean, I don't know 
exactly how to meet the question you have about my intent 
underneath all this. I can tell you that when I worked at the 
Office initially, when we looked at the treatment problem and 
talked about increases in the treatment system and trying to do 
that in a concise way, we, came up with a program that still 
exists today called the Capacity Expansion Program to target 
resources to where there was a measurable need. We discussed 
and implemented programs to match modalities of treatment to 
the needs of those who needed those services. We tried to 
support additional programs to both conduct research and to 
bring those together.
    As you probably see from my resume, I was actually Acting 
Director of the Office for a period between Mr. Bennett's 
departure and Governor Martinez' arrival in November to March. 
And during that period of time, there was an actual meeting 
with the President on the budget and remaining drug policy 
issues, and I was the one representing the Office at the 
Cabinet and there was one fundamental issue that was a debate 
between myself and then-OMB Director Darman and that was the 
increase in money that we were requesting for treatment. And I 
was the one who had to make that argument and it was not an 
easy argument, so I haven't--
    Senator Kennedy. My time is up. What do you think for 
interdiction, what do you think for prosecution, what do you 
think for treatment, and what do you think in terms of 
prevention? I mean, what would you say you would like to see? 
What are you going to advocate for?
    The President says he wants to reduce the treatment gap. 
You are going to have important responsibilities. What would 
you say? Out of a dollar, what would you spend on each one?
    Mr. Walters. Well, I think it is remarkable to have a 
President who begins with a $1.6 billion commitment to 
treatment at the start of his administration.
    Senator Kennedy. Let's just take one dollar, without 
getting into how much the budget can afford. Just on one 
dollar, that was my question because I know my time is up. Out 
of one dollar, what would you like to see as someone who has 
looked at this and thought about it?
    Mr. Walters. I don't mean to evade your question. It is 
hard for me to say, not having had discussions with what people 
have out there. If we are not talking about cutting things in 
order to make an artificial percentage--
    Senator Kennedy. If I can just finish this question, I am 
not asking you whether it is a $1.6 billion or $1.9 billion or 
what we have to cut in Head Start. I am not asking you that. 
You just have percentages. The President says we have got ``y'' 
amount of money to spend. I want to know from you how you think 
it ought to be spent.
    Mr. Walters. Just the Federal money?
    Senator Kennedy. Just one dollar, say, of the amount that 
is going to be available. How much do you think ought to be on 
interdiction, how much in terms of prosecution, how much ought 
to be in treatment, how much ought to be in prevention?
    Mr. Walters. I don't want to mislead you and make a 
commitment I can't live with, obviously. I don't think there is 
anything wrong notionally to talk about those as equal parts of 
the overall strategy. I think to qualify that, I have to say 
that there are parts of the drug strategy that the Federal 
Government is a partial player in and it is a partial funder 
of, but State, local, private resources are there that help to 
balance it.
    If I understand the concern you have, if driving in the 
direction of apportioning the four parts, if you want, among 
prevention, treatment, law enforcement and international 
programs into equal parts is--I don't think notionally that 
there is anything wrong with that and I don't disagree with it.
    But I am aware that the devil is in the details in these 
things because appropriations bills are divided and people do 
have to make tradeoffs and there are some things the Federal 
Government does that other levels of government can't do.
    So I am not trying to be evasive, but I am trying to be 
candid with you. I, as you have, have fought for these monies, 
too, and you have got to authorize them and you have got to 
appropriate them and you have got to be willing to stand in the 
draft of all the other competition at the time. And I have been 
struck by one of the problems in getting money for treatment is 
the people who need these services are not active and vocal 
constituents frequently. And so when it comes time to make 
phone calls and to wire members about their support, they 
aren't there.
    So I mean I would like to do more. I think it is 
unprecedented that a President begin with this level of 
commitment for treatment, and I honestly am not ashamed of the 
record that we had in the administration I served in. It was 
the largest increase in treatment funding. And it is not just 
dollars; I recognize that.
    I am sorry that Senator Biden remembers this another way, 
but it was not an easy fight, and it was not an easy fight 
inside the administration and it was not an easy fight inside 
Congress. So I recognize that we have differences on issues, 
but on this issue I have fought and I am proud of that record 
and I would intend to follow through on that record if I was 
confirmed.
    Senator Kennedy. My time is up.
    Senator DeWine?
    Senator DeWine. Thank you.
    Mr. Walters, the percentages are always an interesting 
question and I am a huge proponent of a balanced anti-drug 
approach. I think we do have to point out, or I will at least 
point out that when we look at that we also have to look at the 
total government dollars that are being spent, not just Federal 
dollars that are being spent.
    For example, one of the things that is done in regard to 
trying to drive drug consumption down is we go to the source 
countries and we do things in the source countries. We do 
things on our borders. Those are pretty much exclusively the 
obligation of us, the Federal Government. And so it skews it a 
little bit, I think, when we look at the pie charts and whether 
it is the Federal Government's money. But I believe in the 
general concept that we need to have a balanced drug approach, 
and I am glad that you do as well.
    Let me ask you a question. You talked a little bit in your 
written statement about your work in expanding the availability 
of prison-based treatment programs. I wonder if you could just 
take a couple of minutes and tell us where you think we are in 
this area. I mean, this is something that is clearly our 
responsibility. These are Federal prisons, these are our 
prisons, these are the ones that we have the responsibility 
for.
    As I have said many times in the past, we already pay to 
house these prisoners and to feed them and to clothe them, and 
while we have got their attention involuntarily it sure makes 
sense to try to do some treatment and we are crazy if we don't.
    How are we doing in the Federal prison system, if you know?
    Mr. Walters. I don't know, in detail. I do know that the 
opportunities for treatment in the Federal prison system have 
expanded from the start that was made when I was last in 
Government. I think all the reviews are that these have 
positive results.
    We also tried when I was in Government to expand resources 
for State and local prison-based treatment by opening up as an 
option to the block grant resources being moved into the prison 
system.
    Senator DeWine. I wholeheartedly agree we should do this.
    Mr. Walters. I also am aware that some recent studies, I 
believe, have suggested that a substantial increase in the 
effectiveness of prison-based treatment to produce long-term 
recovery is provided by follow-up programs after the individual 
is back out in the community. This makes sense from what we 
know about treatment generally.
    Senator DeWine. From what we know about treatment 
everyplace else, it makes sense in prison.
    Mr. Walters. I think in terms of looking at making the 
system more effective, not only do we have to talk about the 
allocation of slots, but what kind of slots, how we match them, 
how we handle outreach, how we handle follow-up services, 
because we know especially for long-term substance abusers this 
can be an extremely long process. It is talked about as a 
chronic, relapsing disease. What that means is we have to be 
able to have some continuity.
    I think the criminal justice system not only in prisons, 
but in diversion programs like drug courts, give you a way of 
influencing behavior in a positive way using the criminal 
justice system. I had the opportunity since I was nominated of 
visiting a drug court with my former colleague, Reggie Walton, 
whom I believe this committee has recently confirmed for a 
Federal position on the bench.
    Part of his calendar in D.C. was the juvenile drug court, 
and I made contact with him after my nomination and I went down 
and talked to him about that. I think he took a system that 
wasn't running as well and helped turn it around, and it is a 
big loss to D.C. But these programs obviously work because they 
provide the kind of continuity, and I think in some cases it 
was obvious from his impression an adult that will help and be 
involved in the life of young people who have not had the kind 
of guidance that they need in a serious and sustained way, 
getting them the resources for treatment, but also for getting 
back on track in their education and back in their community.
    So I think those are important levers where the discussion 
of opposition between the criminal justice system and 
prevention and treatment is wrong-headed. These are systems 
that work together, and when they do, we get the best results.
    Senator DeWine. I agree.
    Let me turn to education. I know that when you were in the 
Department of Education, one of your major responsibilities and 
roles was on education reform and drug prevention education. I 
happened to serve in 1989 and 1990 when I was in the House of 
Representatives on the National Commission on Drug-Free Schools 
and we looked at where we were 10, 11 years ago, at that time.
    How do you think we are doing today, and what do we need to 
be doing? How are our schools doing? We identified a lot of 
problems in 1989 and 1990 on this commission report, and I know 
that you worked on a lot of those problems in that same general 
era. Where do you think we are now?
    Mr. Walters. I have been touched by the number of people 
who are working in this area everyday very hard and have felt 
that the culture has kind of turned to become an adversary to 
their work in the last decade. It has not made this a serious 
matter; it has made it a questionable matter, and dabbling in 
drug use was now kind of fashionable and chic.
    Parents and teachers and community leaders felt that they 
had been orphaned after being given the kind of support and 
leadership that made it possible for them to extend their 
efforts. That doesn't mean they have stopped working, and I 
think it is important that we not forget that everyday a lot of 
people in all aspects of this problem go to work and save 
lives. And they have not asked for recognition, but they would 
like people to stop making it harder. And if we can give them 
some additional help, that would be more than welcome as well.
    So I think to reestablish the consensus that first of all 
says what society thinks about drugs in a consistent manner 
with what parents and I think the vast majority of Americans 
think, and give that message to young people--you shouldn't use 
it, it is wrong, it is harmful--and now we have been reminded 
that enemies of the United States also believe that drug use is 
harmful to our people because they would like to promote it.
    So I think we have a remarkable opportunity for consensus. 
We are rebuilding the cultural consensus against drug use and 
we have a lot of people that are not only doing a lot now, but 
are energized to do more if we can support them both with 
programs but also with vocal leadership on this issue.
    Senator DeWine. Well, it is a relationship clearly between 
what the community is doing and what the schools do. And they 
cannot be separate and apart; they have to be tied in together. 
I would hope, after your confirmation, this would be one of the 
things that you would look at.
    We have a bill that I expect we are going to pass that 
makes some reforms in that, and I think that will do some good. 
But ultimately the question is going to be, and always is, what 
is the local community doing. I think it is a role that you 
could play a very significant role in. In my home State of 
Ohio, it is 630-some school districts, and you just multiply 
that all the way across the country.
    I guess we are doing a tag. Over to Senator Kohl.
    Senator Kohl. [Presiding.] I thank you, gentlemen.
    Mr. Walters, welcome. I would just like to ask one more 
question before I move on on prevention and treatment. In 1996, 
you wrote on the Federal funding role in preventing drug use, 
``Teaching that drug use is wrong and harmful is primarily the 
responsibility of parents and local communities.'' ``Federal 
funding,'' you wrote, ``is neither necessary nor sufficient for 
conveying this very personal message to children on a 
consistent basis.''
    In 1995, in the newspaper the Washington Times, you wrote 
that ``Individual program mandates should be abolished so 
States and localities can establish and pursue their own 
priorities for fighting drug use and drug crime. Law 
enforcement, drug treatment and prevention and education are 
local responsibilities. Therefore, the new block grant program 
should be designed to restore local responsibility by phasing 
out these programs after three years.''
    So under your formulations, I would conclude that States 
and localities would have no requirement to spend any money at 
all on prevention or treatment after three years, if they so 
desired, and would not receive any Federal money at all to use, 
even if they wanted to, for that purpose. So I have a difficult 
time reconciling these statements with your previous answer 
about treatment and prevention.
    In 1995 and 1996, you seemed to be clearly against any 
Federal money spent specifically on treatment and prevention, 
and now you are apparently saying something that is quite 
different. So before I move on, could you finally reconcile 
your thinking then and your thinking now? Has it evolved, has 
it changed? Are you not today of the same thought process as 
you were back then?
    Mr. Walters. Yes, I have changed my view on that, and that 
was a change from when I was in Government and let me explain 
why. I was concerned at that time that both the management of 
the Federal resources and the level of support for those 
resources was dropping off and was drifting, and that for many 
communities the ability to manage and direct and to have 
accountability in prevention, treatment, and even supply 
reduction programs was diminished. I was also working at that 
time in an organization that was designed to try to provide 
greater onus for local institutions to take greater authority 
and accountability for local actions.
    I may have been wrong about the direction in which funding 
and management was going, although I am not sure about the 
management part. But at a time when the attention of the 
country here was shifting, I thought it would empower the 
people at the local level who were working everyday to make 
decisions about resources that would be most effective to them 
and to find long-term support that would be directed toward 
results.
    I would not recommend that today. That is not the 
President's policy and I wouldn't have taken this job if I 
disagreed with him on that. I believe we need to maintain 
Federal support for these programs. When I was last in 
Government, we did that in both prevention, treatment and on 
supply reduction programs, and I think we need to make them 
more accountable and effective.
    So, yes, I did have a change of thought during that period 
of time. Again, maybe I was wrong about what was happening, but 
I did think that things were moving so that the resources 
weren't going to be sustainable or were not going to be managed 
as well as they should.
    Senator Kohl. All right. I will take you as you wish to be 
taken, at your word.
    Mr. Walters. Thank you.
    Senator Kohl. Mr. Walters, in a 1995 commentary in the 
Washington Times you wrote about the Gun-Free School Zones Act. 
This is the bill that makes it a Federal offense to carry a gun 
within 1,000 feet of a school. Basically, the bill and the fix 
we made in response to the Supreme Court challenge in Lopez 
were efforts to address the ever-growing problem of school 
violence.
    In your article, you quoted me as saying that the bill was 
a common-sense approach to the issue of guns in our schools, 
which is what I did say. Then you commented on that statement 
that I made by writing, ``The Gun-Free School Zones Act does 
not rest upon common sense; it defies it.''
    Six years later, I still believe that the Federal 
Government has an important role to play in addressing school 
violence, and it is still common sense, in my opinion, to do 
everything we can to help keep guns out of and away from 
schools.
    Given the number of school shootings in this country since 
you wrote your article, have you changed your mind at all on 
the importance of the Federal Government's role in trying to 
stem school violence and crime generally, and in the wisdom of 
having a law that says you must not carry a gun within 1,000 
feet of a school?
    Mr. Walters. Yes. I would support the law. I mean, I 
wouldn't again take an office that I couldn't support the law. 
Let me just say, at the risk of having Senator Biden accuse me 
of having a confirmation hearing conversion, in taking on this 
responsibility, and I think frankly in my past record, I have 
not been ashamed of saying that certain things are Federal 
responsibility, where others have argued otherwise, other 
conservatives, other Republicans.
    I tried to make a point, maybe not a point I should have 
made, with that law that--and, again, talking about at that 
time being concerned with the integrity of local institutions 
where most of the resources that even the Federal Government 
delivers have to be carried out, the concern I had was that the 
tendency to nationalize these discussions would diminish the 
attention to what inevitably still is going to be local 
manpower, local teachers, local parents, local law enforcement.
    As I said earlier in regard to some of the other questions, 
I am not opposed to Federal resources being applied to help 
here because there are situations where that is crucial. And I 
agree with your point, if I understand it, which is you can't 
stand back on some of these issues and say ``I don't do 
windows'' here at the Federal Government; that is your job.
    But I also think--just in defense of my thought here, I 
also think that there has been, and other people on both sides 
have talked about this, a tendency to erode the responsibility 
and authority of local institutions who are the first-line 
people, who are inevitably going to have more of the resources 
and more of the actual involvement with individual problems in 
communities.
    And one of the things where we have seen renovation, 
whether it is education or law enforcement or treatment or 
health care, is when accountability has been restored to those 
institutions by local citizens. The Federal Government can 
help, but its help has to be such that it doesn't cripple, in 
my mind, the integrity and the proper management of local 
institutions. I wouldn't write the same thing today, Senator.
    Senator Kohl. Well, to my colleagues I want to say that I 
have always dreamed about being chairman of the Judiciary 
Committee.
    [Laughter.]
    Senator Biden. I am not chairman either. Go right ahead.
    [Laughter.]
    Senator Sessions. I suppose you also dream that the nominee 
would have criticized one of your bills, too, that you asked 
him about.
    Senator Biden. [Presiding.] And he criticized your prison 
funding thing, if I am not mistaken.
    Senator Sessions. Maybe. I will have to check on that.
    Just briefly, I want to make the point that I don't believe 
there is a conflict between education, prevention, law 
enforcement, and treatment. All of those are part of the way 
you fight drugs.
    You come at this position with extraordinarily wonderful 
experience. You presided over the drug czar's office, at least 
the executive director of it or whatever the title was, second 
to Bill Bennett, and succeeded him for a time during the 
greatest achievement of reduction of drug use in the history of 
this country.
    This idea that the war on drugs has been lost is baloney. 
We won the war on drugs and made tremendous achievements and 
improvements in it. From the time of, I think, the last year of 
President Carter or the first year of President Reagan until 
former President Bush left office, according to a University of 
Michigan study, the most authoritative study of high school 
seniors in America, drug use declined every single year. It was 
reduced by over 50 percent. We have people who say the drug war 
was a failure.
    Let me ask you, isn't the best way to deal with treatment 
is not have people become addicted at all?
    Mr. Walters. Absolutely, Senator.
    Senator Sessions. Isn't it true that treatment can help a 
number of people, but once people become addicted most people 
never get over it? It is a long-term personal disability of 
some kind. They suffer from it in various ways the rest of 
their lives.
    Mr. Walters. I think we always have hope that people will 
be treated. I think many families and friends of individuals 
are aware that there are people who have tried for years and 
years to fight their addiction and regrettably have not been 
successful.
    I think that we need to try harder. We all want research, 
we all want treatment to work better. We also, I think, have to 
give the prevention message to young people that it is not a 
matter of you can play with drugs and if you get in trouble, we 
will definitely be able to treat you and you won't have long-
term consequences. You are playing with a serious threat to 
your future well-being.
    Senator Sessions. Treatment is helpful to a lot of people, 
but a lot of people, it never takes and it is such a tragedy. 
If anybody has ever seen and known people who have gone through 
treatment, it costs them immeasurably. Some are able to beat 
the addiction, some are not.
    I visited a treatment center not long ago and the guy told 
me that with regard to a lot of these people, they will be in 
and out of here the rest of their lives and the only thing that 
will cure their addiction is death. Many do it by suicide; they 
do it be overdose. They end up going to jail. It is just a sad 
thing.
    So stopping people from trying drugs, reducing young 
people's experimentation with drugs, as you presided over a 50-
percent reduction, means you are going to have ultimately 50 
percent fewer addicts. Isn't that correct?
    Mr. Walters. We hope so. I also want to make clear, though, 
that I share your concern about the dangers here. I think we 
can save more people from addiction, but it is not a substitute 
for stopping people going into the beginning because we know 
that if--I mean, this has been repeated over and over again--
that if young people do not experiment with drugs by the time 
they reach roughly age 18 or 20, they are unlikely to try and 
then become a candidate for addiction later on.
    That is something we ought to be able to do as a society to 
take care of our young people in early parts of their lives. 
And if we do that, we are attentive to that, we don't have all 
the consequences of drug addiction to deal with later.
    Senator Sessions. Well, would you say that you are proud of 
the results that occurred during your tenure in the drug czar's 
office?
    Mr. Walters. Yes, I am.
    Senator Sessions. And would this Nation have been better 
off if you had those same trends continued after you left 
office?
    Mr. Walters. Yes, I mean certainly.
    Senator Sessions. Drug use went up among high school 
seniors when you left that office immediately almost, did it 
not?
    Mr. Walters. Yes, but I want to be careful.
    Senator Sessions. I know you don't want to get into that, 
but I want to get into that.
    Mr. Walters. But I want to be--
    Senator Sessions. President Clinton talked about ``I wish I 
had inhaled.'' He joked about it, he sent a mixed message. He 
slashed the drug czar's office, and drug use started going up 
after 12 consecutive years of decline, culminating during your 
time there in which we achieved the greatest reduction of any 
period that occurred. I think that is the fact. If you can keep 
people from starting drugs, it is better than having treatment.
    Now, President Bush, I know, Senator Biden, cares about 
treatment, and I do too. He has got a $1.6 billion increase for 
treatment which you support, but I just don't think we ought to 
overlook the combination of law enforcement, good education, 
and creating, as you said, the need to rebuild the cultural 
consensus against drug abuse which has been lost to a sad 
degree. We need to rebuild that and I think we can start seeing 
those use numbers go down.
    Do you believe it is possible that we can start seeing drug 
use numbers by high school students, teenagers, start going 
down again?
    Mr. Walters. Yes. I think in some cases you are seeing with 
the new national survey that younger people--the youngest age 
cohort is going down.
    I appreciate your kind words toward me. I want to be 
careful, though, because it is not just a matter of me, but I 
think it is fair. We worked with a lot of people, including 
people on this committee and the Congress, and we tried, I 
think, all of us, to empower people, some of whom are 
represented behind me from organizations that are working 
there.
    I don't believe that I, or even the administration I served 
was the cause of this, but we have to not get in people's way. 
And we did try to support them and I think one of the things I 
looked forward to, should the Senate agree to confirm me, was 
working with you and some of your colleagues up here.
    I mean, I have testified here with some of you in the past 
even after I left office when this topic was not in season and 
when people still were willing to fight for resources and 
attention, and try to push against what I think was a difficult 
environment. But I want to be clear that I don't expect to have 
to, but I also would never expect to be able to do this alone 
and I am counting, if I am confirmed, on people like yourself 
and the other members of this committee to be as vigorous. And 
the President's commitment here, I think, is also crucial in 
providing the level of support to give not only the resources, 
but the tone and cultural support for what needs to be done to 
get drug use down again to the levels we had before.
    Senator Sessions. I want to say that is correct. I know as 
a Federal prosecutor at the time, Senator Biden was the 
champion, with other members of this committee, improving the 
ability of those fighting the war on drugs to be successful, 
and it worked. I think my concern is we are drifting away from 
what worked, and I think it is ultimately the cultural 
challenge to keep the message that drug use is unacceptable.
    Within the last week, Senator Biden, I saw a promo for a 
sitcom in which one of the persons--this is the kind of promo 
that would be repeated over and over again: well, I don't know 
why I did that; maybe I was high on speed. I think those are 
almost the exact words. That kind of thing has got to undermine 
this cultural consensus that drug use is not acceptable. 
Somehow you achieved that, you and Bill Bennett, to a good 
degree, and if you can reestablish that, I think you will see 
the numbers go down.
    I do believe that there a lot of things we can approve this 
drug effort in and I am open to that. I think we ought to 
narrow that gap between crack and powder sentences, and if 
nobody else is going to offer legislation to do it, I am. There 
are some other things we can do. I do believe in increased 
treatment, but the whole package--one is not hostile to the 
other; they all are part of the way to have victory in this 
effort.
    Thank you, Mr. Chairman.
    Senator Biden. Thank you, Senator.
    Senator Durbin?
    Senator Durbin. Thank you very much, Mr. Chairman.
    Thank you, Mr. Walters. Mr. Walters, I have asked these 
questions I am about to ask you of everyone, from Democratic 
administrations, Republican administrations, since I have been 
on this committee for the last few years, and they reflect my 
genuine concerns about how the laws will be implemented by the 
people who are entrusted with that responsibility.
    I have asked these questions of Attorney General Ashcroft, 
Attorney General Reno, General McCaffrey and virtually everyone 
who has come before us. So they are not directed at you 
personally. They are things that are on my mind whenever we 
talk about drug policy, but I will have to say that some 
statements you have made prior to this hearing lead me to have 
greater concern about where you stand.
    The first one has to do with racial profiling. We have 
heard over and over from everyone that racial profiling has to 
be eradicated, that we have to put an end to it. Yet, if you 
look for the clearest illustration of racial profiling in 
America, it is in the enforcement of our drug laws, where we 
have a small percent of our population who are 
disproportionately arrested, convicted and imprisoned for drug 
crimes. And those are people of color, African Americans, 
Hispanic Americans.
    Now, what I have read from your writings is that you claim 
that this racial profiling is an urban myth. That troubles me 
because if you are entrusted with a multi-billion-dollar agency 
to guide the thinking about the enforcement of drug laws in our 
country and are not sensitive to this disproportionate 
treatment of minorities when it comes to drug crimes, that 
troubles me greatly.
    Have you changed your opinion? Do you still believe racial 
profiling in drug sentencing is an urban myth?
    Mr. Walters. Let me just approach it this way because I 
don't understand racial profiling exactly as identical with the 
sentencing issue. I understood racial profiling to be the 
stopping or arresting or apprehending of individuals on the 
basis of a profile, whether or not there was any actual 
criminal activity or probable cause.
    Senator Durbin. That is the point.
    Mr. Walters. I mean, I am not trying to avoid the question, 
but--
    Senator Durbin. Let me be very clear.
    Mr. Walters. Okay.
    Senator Durbin. The State trooper that pulls a car over 
because he sees a person of color in it is guilty of racial 
profiling. When that person is then arrested and then is 
convicted by a court and then is incarcerated, the initial act 
of racial profiling has played itself all the way through the 
system. They sit in the cell because the initial focus was on a 
person of color.
    If we know that African Americans represent 12 percent of 
our population and 13 percent of drug users, how can we sit 
here and ignore the fact that 87 percent of the drug users who 
are not African American are not being arrested, are not being 
convicted and are not being incarcerated?
    The war on drugs is a war that is looking for people of 
color. Do you believe that is an urban myth?
    Mr. Walters. It was not my experience when I was in the 
Office that there was an intention--if anything, there was a 
contrary intention in regard to race. The goal that I think we 
have talked about prior to your arrival was that the original 
mandatory minimum sentencing in the Federal Government was to 
protect against what was then perceived to be an intention by 
Colombia suppliers to market crack into the inner city.
    At that time, Congressman Rangel and the Black Caucus in 
the House vigorously supported that legislation to help protect 
people in the inner city from what was thought to be the most 
dangerous and addictive substance we had ever faced as a part 
of the drug problem.
    I understand the concern about the application and the 
result of the law. I will say that my experience with the vast 
majority of people in law enforcement and in the criminal 
justice system is that they do not intend to be racially 
biased. They are as sensitive to the issue of the perception 
that there is this kind of bias in the system. I think most of 
them are working very hard.
    Most law enforcement personnel that I know, know what bias 
means. They have felt it personally. Whenever someone in law 
enforcement does something wrong and it is widely publicized, 
in the eyes and in the words of people that they see they are 
accused of being the bad cop or the bad prosecutor, too. So 
they know how corrosive, they know how dangerous that is.
    I think everyone, I presume, that you have asked this of 
that has been confirmed in the administration--most of the 
people I have ever worked with and are now either in the 
administration or out would say we need to work very hard to 
make sure the system is both fair and is perceived as fair. I 
have talked about a willingness, as a part of a review of drug 
policy, to work with members of this committee, the Attorney 
General, the President, who have talked about a need to review 
these laws.
    As I said to you when we met privately--I want to be frank 
here, too--my concern is in my experience working both with 
foundations and charitable donors and in Government is that the 
process not end up depriving people who already desperately 
would like protection for their children going to school, for 
their communities, in the same way that other parts of our 
society get that protection from the law enforcement protection 
to make their streets safe and their homes and communities 
safe.
    My experience being in those communities was that frankly 
those people would say, why can't we get the same--why are 
there open-air drug markets here, when they wouldn't be 
tolerated where most of the better-off people live in the 
suburbs? And I think the answer to that question, as I tried to 
indicate earlier, is we not only have to provide law 
enforcement resources; we need to work to stabilize communities 
so that employment and housing--and it is not just everything 
has to be done, but what has to be done is effective linking of 
treatment resources.
    That is why I think there has been promise to things like 
community coalition programs that take the relevant 
institutions and stabilize a place that first has to have the 
open-air drug markets closed and keep it from being generation 
after generation of young black men in the inner city being 
sucked into the criminal justice system and being ground up. 
That is not what any American wants.
    It is not simply a law enforcement matter, although we have 
to make sure law enforcement is just. It is also a matter of 
bringing back lawful order and institutional integrity to 
communities throughout, especially those that have been hardest 
hit by drugs.
    Senator Durbin. The point I am making, Mr. Walters, is 
this: You are talking about the enforcement of the law. First, 
I share your admiration and respect for the men and women in 
uniform who put their lives on the line every single day to 
protect us, all of us. And I think that it is incumbent on all 
of us as political leaders to work with them and try to develop 
policies that really do beat down the racial profiling which is 
undermining respect for the law in many segments of America.
    I have been in Chicago police cruisers and I have gone down 
the street and I have seen the open-air markets. I have seen 
the African American selling drugs, but I also notice the color 
of the buyers, the customers. They are white kids from the 
suburbs, and the people who are going to get arrested are not 
the white kids from the suburbs. That is what the statistics 
tell us. If we are going after this system in a fair-minded and 
even-handed way, everyone should be held accountable under the 
law and not one group picked out over others.
    I really need to satisfy in my mind whether you think what 
I have just said is a reality or a myth before your vote comes 
up on the floor.
    Mr. Walters. Let me answer another aspect to that as well 
as the central question. I have written and I have tried to 
provide some additional evidence as to why I think simply the 
use of figures capture the whole problem. And I have tried to 
explain--I don't know the extent to which I have been able to 
do that--the background for some of the remarks I have made in 
the past.
    But I also think that we are all in agreement, or there is 
a wide consensus that it is counterproductive to use the 
criminal justice system to take users and incarcerate them for 
extended periods of time. I know I have been accused in some 
places of being for long jail terms for users. I have never 
been for long jail terms of users, and I don't think that users 
get long jail terms now. I don't think the data supports that.
    But I do think that early-level people involved in the 
trafficking and probably addictive use of drugs ought to be 
more vigorously diverted into programs that provide them 
treatment and more extended supervision to get their lives back 
together, like drug courts and other kinds of diversion 
programs.
    So I think part of the answer to this question is to change 
the mix on the ground in some places to provide proper sorting 
of people who need treatment help, rehabilitative help in 
appropriate settings, rather than the long-term incarceration.
    But I also have been candid in saying I don't believe the 
frequently stated argument that there is a lot of people who 
are simply users who are serving extremely long jail terms 
because the system, I think, already makes a sorting effort in 
this regard and it is a disservice to the people working there 
to suggest otherwise.
    Can we do a better job? Do we need to do a better job? Yes, 
but it is not also going to be the ``silver bullet'' answer 
that if we get a proper mix of diversion programs we are not 
going to have to still enforce the law, because we are going to 
have to enforce the law, obviously.
    Senator Durbin. Thank you, Mr. Chairman.
    Senator Biden. Thank you.
    John, you and I have been doing this a long time. I have 
changed some of my views. Is there any change in your thinking 
about how to deal with this drug problem that has occurred 
since we began this trek back in the first years of the Bush 
administration?
    I know we began it, both of us, earlier than that, but--I 
am sorry, Sam. I beg your pardon. It was just pointed out you 
haven't questioned yet. I apologize. I yield to you. I 
apologize. I am sorry. I didn't see you there.
    Senator Brownback. Thank you, Mr. Chairman. You are very 
kind.
    Mr. Walters, welcome to the committee. I am delighted you 
are up for this office. You have got an impressive background 
and impressive resume. I have got two questions areas that I 
want to focus on, if I could. One is on teen drug use and the 
other is on methamphetamines, which is a big problem in my home 
State.
    In teen drug use, I was looking back through the record of 
when you were in the drug czar's office before and there was a 
very impressive reduction in teen drug use that took place 
during that period of time. People are pointing out that most 
adult users and virtually all adult addicts of illegal drugs 
experimented with them as teens. So if somehow you can get them 
through those teen years without experimenting, you are 
limiting your group of people that is likely to use drugs for 
the rest of their lives, or worst still, even addicted to them.
    Your record in the drug czar's office between 1985 and 1992 
showed that teen use of all drugs dropped by 60 percent and 
regular teen use of cocaine dropped by 78 percent, which I 
found an extraordinary achievement and a cause for hope that 
Federal policies really can have a difference and have an 
impact.
    As you look at that number and as you contemplate going 
into this office, what are the key areas of policies and 
practices that you think contributed to those numbers that I am 
hopeful, if approved, you will use in the office this time 
around?
    Mr. Walters. Thank you, Senator. I think the basis is the 
establishment and maintenance of a consensus about the danger 
and the unacceptability of drug use in society. I think the 
bringing together of key institutions so that that is not just 
empty rhetoric, that we have both national leaders but also 
that our institutions of health care, education and law 
enforcement are working together, and supported in the effort 
to convey that in the environment that young people feel is 
happening.
    They are acutely aware and sensitive to adults saying one 
thing, but not meaning it, or saying one thing and doing 
something else. What we had was a period of time when there 
was, I think, a greater visibility of adult leadership in the 
Nation, as well as in communities, making clear that young 
people should not, and adults did not use drugs, and that it 
was unacceptable. We need to rebuild that.
    I also think that there was more support, as I have said 
earlier, for the people working in this field effectively. I 
think we have more people working in the field, frankly, now. 
They are more organized. We have learned a lot over those 
years, with parents groups, community coalitions, law 
enforcement and treatment providers working in teams with 
critical institutions. We need to do more on this.
    I do think there is a lot more to build on, but what we 
have to do, and what I have heard from people in the last 
several months is a great desire to have a clear and consistent 
voice from our national institutions that makes this more of a 
clear priority for young people.
    There has been some drift. There has been talk about should 
we legalize drugs. There has been a greater fashion and kind of 
joking about drug use in the media and in entertainment. No one 
wants to be humorless here, but I do think it is grossly 
misleading to target this kind of message on young people and 
to therefore not make clear to them the real dangers of 
addiction. We see them in everyday in everything from child 
abuse, to broken families, to crime, to lives that are wasted, 
to kids dropping out of school.
    There is a tendency to want to pretend as if, I think by 
the people who make the joke, that that is not a reality. And 
that is really educating kids with a misguided view that this 
is not a serious matter when they start flirting with, 
experimenting with, or walking down a path that for all too 
many of them can get them in an situation of dependency and 
destruction.
    Senator Brownback. That just seems to me to be such a key 
issue to really set that standard clear for teens because if 
you could catch it at that point or stop it at that point, we 
can stop our problems from being magnified so much more later 
on.
    In my home State, methamphetamine is a major issue and a 
major problem. Last year, law enforcement seized over 700 labs 
in the State of Kansas. This year, we are on track to do even 
more when this year is completed.
    Have you given much thought to this problem and how you 
would be addressing it?
    Mr. Walters. Not as much as I would like to and would be 
able to do after consulting with folks, if the Senate sees fit 
to confirm me. I think the extent of this problem obviously has 
emerged since I left office, and the severity we see today.
    I have been encouraged, though, in the conversations I have 
had that I do think that again the HIDTA program, which was 
small when we started the Office, has been a helpful program in 
bringing Federal, State and local law enforcement resources 
together to respond more quickly to some of these, especially 
in rural areas or in areas where the resources both for cleanup 
of toxic chemicals as well as simply law enforcement and 
treatment resources in some cases have not been available when 
small areas get overrun.
    This is incredibly fluid. It is obviously capable of being 
a market and manufacture that can have very small, very quickly 
moved, very quickly developed suppliers. And I think we also 
need to do a better job of explaining the scope and dangers of 
the problem to the American public that it has now grown, it is 
now visible.
    There is a tendency, I think, here to be a little bit slow. 
I also think there is a sensible tendency to not make every new 
drug or trend the top danger because people get weary of that, 
and I think it is calling ``wolf'' when you shouldn't. But I do 
think that is not the case here and I don't believe we have the 
understanding yet in the public mind of exactly how extensive, 
dangerous, what the growth has been and it is more serious.
    So we need to put more attention on it, but the specifics 
of how you would address it I would reserve to the kind of 
conversations--I mean, I would intend to have them with members 
of the committee and Congress, as well as with State and local 
officials that are dealing with both supply and demand issues 
out there.
    Senator Brownback. It is a key issue for us. I hope we are 
able to move the nomination forward aggressively and I think 
you are going to do a wonderful job in that position, given the 
past record of the successes that you have had there. We need 
to really redouble this effort of drug use and getting on top 
of that in this country.
    Mr. Walters. Thank you, sir.
    Senator Brownback. Mr. Chairman, thank you very much.
    Senator Biden. Thank you, Senator.
    John, would you move HIDTA out of ONDCP?
    Mr. Walters. My inclination now would not to. I don't think 
that is a likelihood. I do think that as we expand some of 
these programs--and I would like to be able to consider, with 
the consultation of Congress if I were confirmed, expanding 
some of these programs perhaps significantly as a way of 
delivering resources, not only the HIDTA program in the Office, 
but, of course, we have the ad campaign, we have the community 
coalitions, we have some other programs that are run by the 
Office.
    And there have been, as you know, GAO investigations and 
reports about the proper management and staffing of these and 
whether the Office has the expertise or should have the lead 
for some of these. I do think that with--again, I don't think 
this is something where there is any need for any kind of 
conflict over, but I do think that we need to improve the 
staffing of some of these programs and maybe either create a 
cooperative arrangement with other agencies or expand those 
that already exist for contract and grant management, or in 
some cases look at other ways of delivering the resources and 
monitoring and managing them so that we don't have some of the 
problems of the past.
    In some ways, it has grown. When I left the Office, it was 
roughly 145 people. It essentially had the HIDTA program, which 
was smaller, but it did policy, budget and the coordination 
job. Now, it is $500 million in discretionary funds, as you 
well know, and it still has about 140 people and it is supposed 
to be doing what it did before, plus all these discretionary 
grants.
    I know people work hard there. I am actually more of a 
champion of bureaucrats, I know, than is common. I have worked 
well with career Federal civil servants for most of my career 
in Government and I admire them and they work very hard. But I 
think we have got to look at whether we are going to need 
relief, especially if we are going to expand some of those.
    Senator Biden. Well, prior to this you have had a rational 
position that said, I assume, because there were so few people 
relative to the grant authority, that, without reading all your 
quotes back to you--I hope they don't read my quotes back to me 
someday, but you did at one point think that the grant 
authority should be turned back to the appropriate agencies not 
within the shop that may become your shop.
    Are you saying now, which is a legitimate thing, either we 
should turn these programs back or we are going to increase 
your staffing, one of the two? Is that realistically what we 
are faced with from your perspective?
    Mr. Walters. It may be possible to expand the support 
provided by other agencies for a part of the grant program. I 
want to be clear on this point because I think these programs 
are central to the mission of the Office and the overall 
effort. It is not a substitute for what is done in HHS or 
Justice. You understand what I am saying here, but the 
integrity and fidelity to purpose and effectiveness of the 
program is first and foremost. Any change in staffing, I think, 
has to be obviously and rationally designed to make those work.
    Also, they are all programs that provide resources to 
people out in the country to do the real work. We have to 
consult with them. You created the Office. You know it is not 
just a requirement or a hoop. The Office can't work without 
that kind of consultation because it can't sit back and think 
of things and tell other people to do them. It has to be able 
to work with the knowledge that people in the field have of 
what is going to work.
    Senator Biden. Well, that is one of the reasons we have the 
shop. I have been maybe chairman or ranking member of the 
Foreign Relations Committee too long, but you are sounding like 
a State Department guy in that answer.
    It seems to me, and I think this is logical, you point out 
that the amount of the grant authority, the responsibility 
given to ONDCP for programs like drug-free community support, 
the youth anti-drug media campaign, HIDTA programs, counter-
drug technology assessment, all programs that the Congress 
rightly or wrongly--I think rightly--thought should be funded, 
like HIDTA for dealing with the problem in your State, which I 
might add when we were back in those days I wrote a report 
saying ice is coming and it was coming in your way, and no one 
wanted to listen to it at the time--it wasn't made a priority 
because guess what? They were doing it in vans, mixing the 
stuff in vans on the thoroughfares and the freeways in 
California and it got too hot for them, so they moved to areas 
where it would work. They went and polluted Montana, and then 
Montana came down on them and they moved into the Midwest, Iowa 
first and then your State. And it is all predictable.
    I have got more bad news for you: heroin is coming to your 
high school like you have never seen before in your life. I 
wrote a report two years ago. No one paid any attention to it, 
no one wants to hear it, but it is coming. It is so pure they 
can now smoke it. It is the way in which crack got introduced 
in those communities. And John is right about it.
    It was two guys, a guy named--I won't mention his name 
again, but a guy, a senior black Congressman in the House and a 
senior white Senator here, me, who were the guys that came up 
with that crack penalty. The intention of the crack penalty was 
to try to save African-American communities. All the experts we 
consulted told us that this was what we had to do.
    The reason crack multiplied so greatly is that you found 
that prior to crack, there were more male addicts than female 
addicts. That became a great equalizer; it became one-to-one. 
Why? Women didn't have to snort that stuff and distort their 
nostrils and have their eyes blurry and all those things they 
didn't like to have happen to them. They could smoke it, and 
they could do it real quickly and get a high. All of a sudden, 
we had within a matter of five years as many women addicts as 
we had men addicts.
    Now, the same thing is happening with heroin. They are 
going to get these high school kids using heroin because, guess 
what? You can smoke it. It is over 90-percent pure. It is what 
they called chasing the dragon back in the 1910-1920 era. It is 
so pure you can smoke it and you literally follow the smoke and 
inhale it. It is that pure. During the Nixon administration 
when I first got here, we were talking about heroin from Mexico 
with 6-percent purity.
    So it is coming and they are giving it to these high school 
kids. They are giving it to them to get them going. And if you 
think you have got a problem getting someone off of these other 
drugs, you get a poly-abuser who is a heroin abuser and you are 
talking a long time.
    My point, John, is I know you know all that. My point is 
that we have these programs now and you have made an accurate 
observation about them. So what are you going to propose as a 
solution?
    The solution can't be I am going to keep the same number of 
people I have and I am going to be able to administer it very, 
very well. It is either going to be I have got to increase my 
administrative capacity or I have got to move the programs out. 
So what are you saying? That is what I am trying to get to.
    Mr. Walters. Senator, I understand, but I also want to be 
fair to the consultation issue here. I have not been able to 
talk to the program people. I have not been able to talk 
systematically to the people who receive these grants and work 
with them. I have talked to some people in those regards, but 
to be fair I would need to have--my intention would be the 
following.
    I have no intention at this point in time, nor do I know of 
one in the administration, to move these programs out of ONDCP. 
I would like, though--I think it is incumbent upon the Office 
to deal with some of the management issues that have been 
raised in past GAO reports and in other committee reports about 
the management of these programs; also, as a part of a review 
of the drug strategy, to look at the shape of the future of 
these programs that we would like to propose.
    But to do that, I also need to be able to talk to the 
program people, the people outside and inside Government, you 
and your staff and other members of Congress and their staff 
that are relevant here. These are very effective, very 
important programs, and not just because somebody says they are 
effective.
    But I believe that the media program, the community 
coalitions program, the HIDTA program, the CTAC program are all 
programs that have produced front-page results, as you know, 
and not always recognized for the effort. So I am not, and I 
don't think I have ever indicated that I would be willing to 
damage the programs. But in order to maintain the integrity of 
the programs and the proper management, you are right, 
something has to give. There has to be some different people or 
structure.
    Senator Biden. No, I am not suggesting you would damage the 
programs. I suggest we have a difference of point of view as to 
where the programs are most likely to get the most attention 
and be administered with the greatest efficacy.
    When we wrote this law, one of the reason we put some of 
these programs with your office is so that you would have 
control because we lacked the faith that other institutions, 
great institutions, would have the time or interest. It is not 
among their highest priorities.
    You are going to cure cancer at NIH. At HHS, you want to be 
able to have an anthrax vaccine. That is going to trump HIDTA. 
Over at the Justice Department, putting the program in the 
Justice Department that relates to--and I am not sure you think 
it is a good program--relates to reaching out to teens about 
not using drugs--if you put that over in Justice, it is going 
to get trumped by task forces to go after the Mafia and it is 
going to get trumped by other things.
    So the reason they were put in your office was that it 
would be the only thing on your agenda. So let's not make--I 
know you don't mean to, but I want to make sure there is a 
philosophic reason they were put there. I don't have any doubt 
you support the program, or some of the programs, HIDTA, for 
example. I don't doubt you support it. My argument would be if 
you transfer it, you dilute it because no one is going to take 
as good care of it and view it as high a priority as it is 
within your shop. So that is where we may have a philosophic 
difference.
    So, understand, if you are confirmed and if you go to 
transfer it, you are going to have me all over you. That 
doesn't mean I will win, but this is going to be holy war if 
you want to do that because I think the best way for it to be 
effective in the Midwest is if it is administered by you, not 
administered by Justice, not administered by HHS, not 
administered by anybody else.
    I know you know this, but a lot of people don't know this 
who don't spend as much time in this as you or I do where the 
philosophic ground maybe doesn't meet here. That is the reason 
why I was asking you about whether or not you would transfer 93 
percent of your budget out of your budget, because 93 percent 
of your budget is this grant authority. That is 93 percent of 
your budget.
    I don't know what heft or clout you have. Once you transfer 
that, I am not quite sure where you go from there. That is the 
only point I want to make. I understand about efficacy and 
efficiency, but it also goes to who has the greatest interest 
in making sure that the programs, in fact, function well.
    Anyway, I don't want to argue with you about it, just so 
you understand my view.
    Mr. Walters. Senator, let me just say I don't believe we 
have a philosophical difference about this.
    Senator Biden. Okay. Now, one of the things that I have 
thought--and I may be wrong about this; obviously, I may be 
wrong. My sense is that one of the reasons why the tone you 
take when talking about treatment--let me just put it that 
way--is different than the tone that Kleber takes--and it is 
different, by the way--or that I take or that other people 
take--and there are a lot of people who agree with you on tone 
as well as substance--is that I get the sense that you think if 
we talk too much about treatment working, we are going to 
provide a front-end crutch to the non-user who is considering 
using who can say to himself or herself, well, you know, they 
tell me this is dangerous and they tell me this could become 
addictive and they tell me this is bad, but, you know, if I try 
it and if I get addicted, I know I can get cured because I can 
get treatment.
    Is that part of your thinking? I don't mean is that the 
dominant theme, but I mean does that play in anywhere when you 
talk about this liberal society that views the--I forget the 
phraseology, but you know it better than I do. Is that part of 
it at all?
    Mr. Walters. Thank you for letting me respond to that. That 
is not my view. I have in the course of my writings, as your 
staff may have seen--I don't expect anyone to read all my 
writings--not even my mother--but I have been critical in the 
course of discussing policy of all aspects of drug control 
policy. And I haven't met anybody who works in these fields, 
frankly, that doesn't think we can't do a better job and has 
their own recommendations for reform.
    I support treatment. We had a little bit of a discussion of 
this when you were out of the room, so I want to be fair. My 
recollection of the fights, as I understood them, both inside 
the executive branch and with the Congress about funding and 
about resources was that we weren't bashful, and that I 
recognized that we did not always meet the proposals that you 
had. I still have a complete collection of your drug control 
strategies.
    Senator Biden. By the way, I am not suggesting I was right 
about it all, okay? So let's make that clear.
    Mr. Walters. I want to be clear, and this is something that 
has been frustrating in the period of nomination when I can't 
speak publicly, and I appreciate this opportunity to do so.
    I support treatment. I have supported treatment. I have 
worked hard to make programs like the capacity expansion 
program work, to build the initial--at a time when, quite 
honestly, Senator, I think we actually were in more agreement, 
when there were big parts of the Federal Government that wanted 
to talk about treatment but not really deliver the resources, 
or didn't really want to implement the programs effectively or 
wanted to implement them, apropos of your comment about where 
the programs are in ONDCP, and say, oh, yes, sure, give us the 
money over here and we will put it in another part of the 
department where we want the resources to go. That is why I 
said I don't think we have a philosophical difference on that 
issue.
    I support treatment. What I have partly tried to write 
about, and obviously not clearly enough in some ways or we 
wouldn't be having this discussion, is everybody says we are 
for treatment, prevention, law enforcement and research. But as 
you know, because we sat in a room like this with less people 
behind us and talked about this in hearings, they don't work 
that way.
    They believe there is one thing, or they don't really care 
about the other thing. I genuinely, and I know you do, believe 
that you have to make the parts work, and the hard part of the 
job is to maintain that coherence between the parts that have 
to work here, to get the law enforcement system to divert 
people into treatment, to help sort the treatment system to 
help go out and work with people that need the resources. If 
they need outpatient, that is one thing. If they need 
residential treatment or if they need after-care, that is 
another, or need mental health services.
    You and I understand that the tendency to talk about this 
for shorthand that we have to have in a public debate masks the 
very serious problem in managing and apportioning and 
regulating the resources so that we get people treated and 
don't just walk away and say, well, we are for treatment, so we 
have solved that problem. The same is true of, I think, some of 
the other parts of this problem.
    But if I have left the impression that I don't believe in 
efficacy or don't support treatment, I did not intend to mean 
that. That is not my view, and I think my work inside the 
administration, and frankly my work, the limited amount I have 
with donors now in the private sector--most of that is in 
regard to treatment programs, frankly.
    Senator Biden. Well, it is not only me, as you know, that 
has wondered about your notions about treatment. I will ask 
unanimous consent--it is easy to do, since I am the only one 
here--that a letter from the president of the Betty Ford Center 
be entered in the record.
    I will just read one partial paragraph from it. It says, 
``Mrs. Ford and I are convinced that Mr. Walters may not have 
the confidence in the treatment and prevention strategies that 
we believe are necessary for the creation and implementation of 
a balanced and thoughtful to U.S. drug policy.''
    I am not going to question you on it, but I will make a 
copy available to you.
    There are other folks you have worked with who--well, let 
me put it this way. One of the things that we used to debate 
and I wonder if we could raise it--we debated it lot with Bill 
Bennett as well--in the days when you guys were running the 
show under Bennett and I used to raise this issue of treatment, 
you all kept talking about diverting people to treatment.
    I used to always point out that there are enough people in 
every city in America who walk in voluntarily every single day, 
not having been diverted at all, who are committing crimes, 
because they have to commit crimes to maintain their habit--it 
doesn't justify the crime--who walk in, raise their hand and 
say take me. You know, like ``take me before I kill again.'' 
Take me. And they are told in New York City and my little city 
to come back in a week, a month or six months.
    So this notion that we have to divert people into 
treatment--we do; it is a good thing to divert people into 
treatment. That is what the drug courts do. That is what we are 
doing with in-prison treatment programs, et cetera. We used to 
have this debate that, well, our effort has to be to divert.
    Don't we have to just make available the good treatment 
because there are so many people out there seeking it?
    Mr. Walters. In many places, yes, I think that is true.
    Senator Biden. Can you name me a big city in America over 
300,000 people that is able to handle those who voluntarily 
walk in the door on the basis that if they come, there is 
treatment available for them? For the record, check it out. I 
would be surprised and pleased if you could name me a single 
city in America that can do that. I sure can't think of a rural 
area.
    The rate of increased drug use is greater in rural America 
than it is in the inner city. And there is a simple reason for 
that. I mean, Aromingo Avenue is already occupied in 
Philadelphia. All the drug dealers have it. You go and try to 
get a corner there and you got shot dead. I mean, literally, 
you get shot dead.
    So why not go to Harrington, Delaware? You know, you don't 
have to compete with anybody. Why not go to Aberdeen, Maryland? 
Why not go to these small cities and towns? And there is no 
treatment available in those places. All my friends and your 
friends behind you are cops. If you ask them if they could 
increase their law enforcement force by 5 percent or they could 
increase the number of treatment facilities they had in the 
district they cover by 25 percent, which would they take, I 
will lay you 8 to 5 they would all take the increased treatment 
facilities. That is all I get from my cops in rural areas: Joe, 
I got no place to put these folks. There is no place for them 
to go.
    So talk to me about that. I mean, what about that? Are we 
short on treatment facilities for people?
    Mr. Walters. Sure. I think that is part of the reason why 
the President proposed as an initial start the increase in the 
treatment program and directed the assessment for both the 
delivery of those resources, but also the shaping of a more 
comprehensive system, with the Federal Government taking a lead 
here that I believe is unprecedented from any President at the 
beginning of this term with that kind of commitment.
    Now, is that going to solve all the problems? Of course, it 
is not going to solve all the problems, but it is a start that 
we can begin to work with. I think the conversations I have had 
with some of the people behind me that are not cops but are 
working in treatment-providing--they support that and they 
support the desire to deploy those resources with the necessary 
focus on needs and to work on the problem of providing those 
resources in rural areas or widely diffused areas where it is 
much harder to get the kind of especially multi-modality 
treatment and other kinds of services in tandem when you have 
people that need them and their recovery is going to depend on 
a multiplicity of modalities, from mental health to different 
kinds of treatment, whether it is outpatient or residential or 
assistance with recovery in the community. So we have to also 
do this in a way that looks at the contours of the need and 
tries to provide resources that are deployable by the people 
that are facing these needs.
    Senator Biden. Can we talk about what constitutes 
successful treatment for a minute? I have really spent a lot of 
my adult life trying to figure this out. My observation has 
been that we hold as a measure of success the treatment 
community to a standard that we hold very few other people.
    For example, we don't hold the education system in America, 
notwithstanding all our new focus on education and testing, to 
a success rate that requires a 90-percent success rate. In a 
number of inner-cities, the graduation rate of people when they 
start school and finish school is less than 50 percent. We 
don't go shut the schools down. In most schools in America, it 
averages about 70 percent. We don't shut the schools down.
    Yet, when I talk about treatment and measure success on 
that they have been drug-free for 5 years, and you get numbers 
that are in the 40-, 50- and 60-percent range, that program is 
declared a failure. I bet most of the audience out there would 
think it is a failure. If I said you have got a drug treatment 
program that 50 percent of the people stayed drug-free for 5 
years, they would say, oh, that is a failure, shut it down. Why 
waste taxpayers' money on that?
    Yet, if I said that about schools in your area, shut it 
down, and by the way, have those kids go to no school, just 
have them wander the streets, I wonder how many of the folks 
out in the audience would say, yes, I guess we should do that. 
Or on Defense Department over-spending, you know, if you go 
above 30 percent of your budget, shut down the operation. We 
wouldn't go very far.
    So I am confused by what people mean by and what you mean 
by--I am not confused by you. I am confused by what you would 
view as a successful treatment program. Is success only 
measured in that once the person goes through the treatment 
program and finishes it, they never again encounter an illicit 
substance, or is there some other measure?
    One other point I will make to you and then I want to hear 
your general response. I have argued for years that a program 
that keeps someone in treatment for six months--and I used to 
know this stuff cold when I did it every single day; I don't do 
it every single day anymore. Back 5, 6 years ago, the numbers, 
if my memory serves me correctly, were if you are in a 
treatment program for 6 months--by the way, the average 
addicted person in America--and we are talking about roughly 4 
million hard-core users.
    If you have got those 4 million hard-core users--and you 
hear numbers that vary--they have to commit somewhere between 
90 and 150, depending on whose number you pick, offenses a 
year, mostly felonies, to keep their habits going.
    The way I have kind of looked at this, in addition to 
whether or not we cure people of their problem, is that if you 
have someone in treatment--and I forget the exact numbers now, 
but my recollection was that they were committing while in 
treatment 85 percent fewer crimes than they would if they were 
out of treatment, even though they weren't cured.
    Now, I used to always say to my cop friends, how many cops 
do you need to calculate the ability to reduce the number of 
crimes committed by an addict by 85 percent? And if, in fact, 
you put that addict in jail, you are talking about a $30,000-a-
year bill to keep them in jail. Isn't it just smarter, even if 
it is having them tread water, to have all these folks in 
treatment?
    While they are in treatment, it is about one-fifth the cost 
of putting them in prison and they are committing only--I will 
correct the record on this, but considerably fewer crimes. So 
doesn't it just make sense, even if you didn't want to do 
anything else, to just put them all in treatment and vastly 
increase the treatment programs, even the ones that aren't 
working so well, and get everybody into treatment who is out 
there, everybody who puts their hand up and says I want to be 
in treatment?
    I mean, if the numbers are correct, it is well over 50 
percent fewer crimes they commit while in treatment and it 
costs considerably less than--I think it is a fifth of what it 
costs to put them in jail. So why doesn't that just make sense 
even if we weren't curing them? Why wouldn't that make sense as 
public policy?
    Mr. Walters. I think expanding treatment does make sense.
    Senator Biden. I mean, significantly expanding treatment.
    Mr. Walters. I am not even opposed to significantly 
expanding treatment. You know, what level we are talking about 
I am not precisely sure, but--
    Senator Biden. I am not either.
    Mr. Walters. One reservation about what you have said, and 
I think this is consistent with most of the people I have 
talked to, from Dr. Kleber, to Dr. Barthwell, the President's 
nominee to be the new deputy, demand reduction, to some of the 
people I introduced at the beginning that are here.
    I think success rates, to get to the first part of your 
question first, ought to be measured, and we tried to do this 
when we were in office, by a scale that looks at the condition 
of the individual when they come into treatment so that we are 
comparing people with similar problems when we look at the 
results of the treatment they are receiving.
    Secondly, I think that partly to sustain this--you know how 
hard this is in Congress and you know how hard it is out in 
localities for the contribution--that our goal is always going 
to have to be we would like to get people in recovery and keep 
them in recovery.
    But we are also a country, I think, that does believe in 
this case not only in second, third and fourth chances, but 
fifth and sixth chances. What we don't want is a demoralizing 
of the system where it can be characterized as, well, we cycle 
them through a program where the quality is low and the 
resources aren't there, when we should be putting them in the 
best program we can have, which is not to say unless you have 
the top of the line you shouldn't give treatment.
    We have to be able to make prudent judgments about this, 
but I think now the criminal justice system, and more the 
public health system, wants to put more people into treatment. 
It does not want to incarcerate drug addicts, and I don't think 
the system does as much of that as some of the critics say. 
Now, I have been involved in the Office and privy to all the 
discussions.
    Senator Biden. I am not even making the argument, John. I 
am not making the Durbin argument here. I am not making the 
argument that we are incarcerating people who shouldn't be 
incarcerated. That is not what I am saying. I am just making an 
argument about my physical safety and the safety of my wife in 
the parking lot of the Acme tonight, in Wilmington, Delaware, 
when she finishes teaching school. That is what I am talking 
about.
    I am talking about when you have somebody, there is one of 
two things. You are either going to be in prison or in 
treatment, because when they are on the street they are a 
menace to my wife, they are a menace to my daughter, they are a 
menace to my sons. So even though it may be a disease of the 
brain, it doesn't matter. If they hit my wife in the head to 
take her purse, whether their brain is diseased and/or their 
morals are non-existent, I don't give a darn. They hit my wife 
in the head, so I have got a problem, I have got a problem. So 
how do we deal with that?
    One of things that I think we waste a lot of time on here--
not you and I, but we in the community that debates all this--
is we waste a lot of time on looking for this silver bullet. We 
are recycling people through the prison system. We say, well, 
we have no problem with that. We recycle them through.
    If I am not mistaken, the number used to be somewhere in 
excess of 250,000 people a year walk through a gate with a $10 
bus ticket coming out of a State prison to get back to where 
they came from after having served their time addicted as they 
walk out the gate, as they walk out the gate. In other words, 
they have served their time, but they had drugs available in 
prison. They are addicted as they walk through the gate. They 
get on the bus and they are an accident waiting to happen.
    So I just wonder why we don't broaden the discussion here 
about treatment in terms of the efficacy of even the bad 
programs relative to what the cost of the alternatives are and 
relative to how it increases my safety.
    If God came down and sat in the middle of the table and 
said, Joe, what would you like, I would say, well, I would like 
you to take that piece of the brain out that allows people to 
be addicted, that gets them hooked. But, second, God, I will 
tell you I have another one. I have got just a little request 
for you. Take every single drug addict in the State of Delaware 
right now and tomorrow morning have them go into treatment, 
every single one, the hardest hard-core. I know by that act 
alone I have reduced crime in my city by a lot.
    Even, God, if you are going to recycle everyone that has to 
be recycled in 6 months, it is cheaper for me. I don't have to 
spend as much money in the prison system. I eliminate some of 
my social problems, creating this class distinction that exists 
now, because more blacks are in prison than whites relative to 
their use, and so on.
    I wonder why we don't ever talk about it that way, why this 
is the only area--and I am going to yield to my friend from 
Alabama now, but the only area where we apply a moral judgment. 
I tried to figure for the longest time why people wouldn't be 
willing--if God could absolutely come down and guarantee to 
everyone what I just said was absolutely true, we would still 
have resistance. And I think the resistance is sort of our 
Protestant work ethic kind of notion, which is not a bad thing. 
It is a good thing; it has made this country.
    But it is sort of like, you know, why should I take my 
money out of my pocket to help that guy over there who made a 
conscious decision before his brain was affected by the drug to 
go ahead and use this drug, causing him to do bad things to me 
and my family? I come back and say, well, because he will do 
fewer bad things.
    But I want to punish him. I can't blame people. I want to 
punish him, I want to punish him. I say, well, the punishment 
part isn't working too well. It is costing you a lot more money 
and it is not working too well. Do you know the reason why 
those long sentences work? Guess what? When they are in jail, 
they can't hurt anybody. That is not a bad thing. So with these 
long sentences, you are in jail.
    So I used to always say you do one of two things with these 
4 million addicts, or one of three things. You go out and shoot 
them, shoot them dead, so they are gone and they can't do 
anything bad to anybody anymore, including themselves. You lock 
them up forever, or you figure out how to reduce their 
dependency. You try to cure them or reduce their dependency.
    I don't know what other options we have. These folks are 
already beyond the pale. There are 4 million of them and they 
are committing a couple hundred crimes a year. That is a lot of 
crimes. So to me, in a sense, John, the more I deal with this, 
the simpler it gets to me. I don't know if that is the first 
sign of real ignorance that it is getting simple to me, but I 
don't know why we never discuss treatment in the context of 
when you are in treatment, you are not committing crimes, or at 
least as many. Isn't that all by itself a rationale?
    You can respond if you would like. You don't have to, to my 
little diatribe here, and I yield to my friend from Alabama, 
who engages in diatribes like me and that is why I like him.
    Mr. Walters. If I can just say one thing in that regard, 
and it is not at all to capture everything that you were 
getting at here, but what my goal was, and I think the 
colleagues I was honored to work with when I was in the Office, 
was to try to bring some structure to tying what we did and 
what the results were to central principles--I think the 
central principle here is use; crime is obviously related to 
this, and the costs--and to tie these back to what we are asked 
to put in the system, how people can make a legitimate judgment 
about is the system producing real results and what are they.
    That is why I said earlier what I did about over-promising. 
I think there is a tendency even in treatment to not be 
realistic. In my experience, a 50-percent success rate for a 
random treatment program is outstanding. Five years drug-free 
is outstanding. If we even had the existing number of programs 
that were able to perform at that level, I think we would be in 
a different situation now. I would be happy to check that.
    So I don't have unrealistic demands here, but I do think 
that part of the support for this is to gain the public support 
and the support of national leaders at all levels. And I know 
private people have done this, but I think we still have a lot 
to do about what is really being achieved, what is realistic, 
and what are the results.
    And if we can make that case, I think everybody wants 
solutions to this. They don't want to see people continually 
addicted. They know that drugs and crimes are the central 
destroyer of innocent and disadvantaged people's lives in this 
country. What they want to know is, is it really making a 
difference?
    And you are right. Maybe it is and they don't understand 
that, but that is where we have to try to reach a consensus and 
then stand together, I would hope, and make that a matter of 
common public understanding and support. If we can do that, I 
am not saying we can just revolutionize everything overnight, 
but we will make headway that is most important.
    But we have to tie what we do in supply, what we do in 
demand, what we do in prevention and treatment to standards 
that people say--too many times, as you know, these discussions 
come down to are you really personally committed to this as an 
objective, and everybody's personal commitment doesn't 
necessarily easily transfer to other people.
    We want to be hard-headed and pragmatic about this. This 
produces results. These are the consequences of these results. 
You ought to have more confidence in the people that are 
delivering these services than we currently do, and this is how 
we can help them and this is what we can expect as an outcome.
    Senator Biden. Well, if you do that, that is great. As you 
will observe, with all the documents I have thrust upon you 
over the years, you have never once heard me use the phrase 
``war on drugs,'' not one single time, because it is over-
promising when you talk about a war on drugs.
    Number two, I would make the observation that I bet none of 
you know anyone who is over the age of 25 who doesn't have a 
family member, a neighbor, a friend or a coworker who has a 
son, daughter, husband, wife, nephew, niece that doesn't have a 
drug problem. I have never known one single one of those 
persons who hasn't said to whomever they are talking to, their 
friend, or to me how can I get my child, my friend, my neighbor 
in treatment?
    Whether they are blue-collar or they are white-collar, 
whether they are princes or whether they are princes, they all 
immediately say I have got to get my kid to treatment. So I 
think there is more of a consensus out there than you think.
    And the last point I will make, and I promise I won't say 
another thing on this, is the good news for both of us when we 
started this little undertaking back in the 1990s was when you 
asked the American people what was the single biggest problem 
they faced, they said drugs. So that communicated to every 
member of the Congress, every member of the Senate, and I could 
have gone out, and I did, and asked for more money than you 
wanted, forced money on you you didn't want and was able to get 
everybody to vote for it and the President would sign it.
    The same with the crime bill. When I wrote the crime bill, 
that was the number one thing on everybody's mind. Then violent 
crime went down 6 to 8.5 percent per year the last 7 years 
during, I might add, the Clinton administration. You know, you 
give him credit for the other stuff going up and you have got 
to give him credit for the crime going down. You can't pick and 
choose. Do you know what I mean? It is called the principled 
rationale for something. So, you know, they are responsible for 
drugs going up and violent crime coming down, okay?
    Now, do you know what the problem here is? This guy and I 
disagree, but we agree on law enforcement stuff. We have 
trouble getting them to fund crime on the floor now. These 
don't understand that it is like cutting grass. They think 
because we have got crime down now, we don't have to spend as 
much money. What it really means if we have got to spend more 
money, not less, to get it down.
    It is like cutting grass. I cut my grass in the middle of 
the summer and it looks great. These guys around this shop that 
I work in say the grass is cut, get rid of the lawn mower; you 
don't need it anymore. Crime and drugs are like cutting grass; 
you have got to do it every single day. You have got to keep 
spending money on it. But around this place where we work, and 
among Presidents, former and probably future Presidents, that, 
hey, we have got that problem taken care of, let's move on. And 
it is the exact opposite.
    So part of our problem we are going to have here is we are 
going to even have trouble getting money, I suspect, for what 
you agree we need more money for, what the President says we 
need more money for, and what most experts say we need more 
money for. It is going to be a battle. By the way, we cut the 
COPS program. We cut the funding for these other programs now 
because I guess the grass looks good now. But I want to tell 
you a lot of weeds are on their way.
    I just think we have got to have a better consensus among 
those of us who stay in this, like the Senator from Alabama and 
myself and you and others, day in and day out about what we 
mean by success, what we mean by an adequate treatment, and 
what we mean when we say that we are committed to the idea of 
increased treatment.
    The thing I am not even going to ask you about now and I am 
going to submit questions to you on is how do we stop people in 
the first place. I haven't figured that one out. Moral 
disapprobation is a big, big deal, and societal attitudes a big 
deal, the single biggest reason why I think drug consumption 
goes down.
    By the way, even in the last administration we were down 
from 25 million users to 15 million users. That is 10 million 
down; up with teens, down overall. That happened in the last 8 
years, I might add. So that is down, but how do we get it down 
further? I support DARE, but DARE is not enough. As I matter of 
fact, I dare say we have got to do a heck of a lot more with 
DARE to make it work better.
    So I have questions about what your ideas are. I don't 
expect an answer, a silver bullet. I expect an opinion or view 
as to what you think those things are to keep these kids from 
getting into the crime and drug stream in the first place. It 
is pretty tough stuff, but I think part of it is, day in, day 
out, keeping the pressure on the entertainment industry, 
keeping the pressure on ourselves, keeping the pressure on 
parents and educating parents.
    Again, I tried for six years to get date rape drugs moved 
up a class. This committee stopped that, by the way. They 
wouldn't go for that. The last administration didn't push it.
    I wrote a report on Ecstasy a little over a year ago saying 
we have got a big problem with Ecstasy.
    Parents were happy their kids were using Ecstasy and said, 
well, at least you are not using this. Ecstasy actually kills 
the brain cells. We have got a problem, but parents don't 
understand it.
    Do you know what I tell parents when I go to speak at all 
these schools at these parent-teacher meeting things? I say 
look for two things, extra bottles of water in your kid's car, 
pacifiers next to their bed, and funny little decals that have 
like Mercedes and things on them. They say, well, that is in my 
house. No one told them.
    You have got a 15-year-old or a 19-year-old kid with a 
pacifier in his room and you know the boy is on Ecstasy. You 
don't have to be a rocket scientist to figure it out. Parents 
don't know that. All of a sudden everybody is carrying around 
bottled water. Yes, part of it is a trend. You go in the back 
of your kid's car and he has got four empty water bottles. You 
ought to start thinking about it.
    At any rate, I yield to my friend the rest of the time.
    Senator Sessions. [Presiding.] Thank you, Senator Biden. 
You have indeed throughout this whole drug war for the most 
part been one of the champions of doing something and improving 
our effort. As a Federal prosecutor for many years, a lot of 
things that you passed here I can assure you were very, very 
helpful.
    I think it is appropriate for us, Mr. Walters, to look much 
more intensely at treatment because we do have a lot of people 
that are addicted. We do have some good treatment programs in 
prisons and some good treatment programs around the country. 
They are very, very expensive, but not a hundred-percent 
successful. We can debate how much, but a lot of people are 
just not able to stop drug use.
    An Assistant United States Attorney called me into the 
conference room and said I would like you to meet this 
individual. He was being prosecuted for armed robbery. He had 
been in jail, he had gone through treatment, he had gotten 
religion and had married. He got out, got a job.
    This is what she told me; she said I just want you to hear 
this story. He said, I got out, I worked for two weeks, I got 
my first paycheck. I was going down the street to get some 
clothes, and he said I just kept right on going and I ended up 
back buying crack, getting addicted all over again, getting 
arrested for armed robbery, probably serving 15 or 20 years in 
jail. It just brings tears to your eyes. I mean, it was really 
sad.
    I guess having spent an extraordinary amount of my time for 
12 years as United States Attorney dealing with these issues, I 
am a little berserk on them, a little intense about them. We 
met for one year once a week every Thursday afternoon to 
discuss it. I was active in the Drug Coalition for a Drug-Free 
Mobile, the Partnership for Youth. We built those 
organizations. It was all part, I think, of a cultural climate 
against drugs.
    My first comment is that we ought not to be too tough on 
ourselves. I think if we recapture some of the things that 
worked to see these numbers go down, I think we can see them go 
down again.
    Do you agree with that?
    Mr. Walters. I agree.
    Senator Sessions. You are cautiously optimistic, could I 
say?
    Mr. Walters. Absolutely.
    Senator Sessions. Well, we are going to look at that. 
General McCaffrey and I had cross words, but his numbers later 
on went down. They weren't going down for a while when he 
started. But I think ultimately we will judge you on whether or 
not you can reverse some unhealthy trends.
    Let me ask this: Eric Holder, the former Deputy Attorney 
General, was a Federal judge here in D.C., and as a result they 
drug-tested everybody that was arrested. As I understand it, 
whether it is shoplifting, whether it is petty theft, whether 
it is armed robbery or drug dealing, you get about the same 
percentage of people testing positive for drug use when they 
are arrested, no matter what the crime is.
    Usually, it is about two-thirds, is that correct?
    Mr. Walters. It has varied over time, but, yes, a high rate 
of people are testing positive for drug use.
    Senator Sessions. I guess my question would be isn't that a 
good way to find out those people whose criminality has been 
accelerated by drug use by testing them upon arrest? Therefore, 
then the judge has certain powers over them, such as I will 
release you on bail, but I want you to be drug-tested every 
week, or I will give you probation, but I want you to continue 
to report to the probation officer and be drug-tested because I 
want you to stay free of drugs.
    Is that a good strategy for reducing recidivism and drug 
use?
    Mr. Walters. Absolutely. In most systems, for many more 
minor crimes, the person would not face any incarceration and 
you could use the authority of the criminal justice system to 
test, to refer them to treatment, to check on whether they are 
looking for a job or continuing in their education. I think 
this is a pretty proven method.
    It needs to be managed. It is not cost-free, but there are 
many dedicated people, some of whom are represented in this 
room, or at least they were here when we started, who are 
making those programs work. We have got to tell more of that 
story, and I think everybody agrees we ought to find ways to 
expand that effort.
    Senator Sessions. Well, drug courts are sort of on that 
model, although you don't have to have a drug court to do that.
    Mr. Walters. That is right.
    Senator Sessions. D.C. did that in the district right here 
in Washington, D.C. The Federal court system tests everyone 
that is arrested, and I think that ought to be done nationwide 
because I don't see how a judge can make a decision about 
whether to release somebody or to impose a sentence if they are 
blithely unaware of whether or not the criminality is driven by 
drug use, do you?
    Mr. Walters. I agree.
    Senator Sessions. That is what Eric Holder said. He thought 
it was invaluable to him in analyzing that. So I am a big 
supporter of that.
    You will be able to work with the Department of Justice, 
will you not?
    Mr. Walters. I hope so. I mean, I don't have any reason to 
believe I can't. I have worked a little bit before with 
Attorney General Ashcroft when he was in this body. I know a 
number of the people who are there, including the current head 
of the FBI and some of the other folks working for Attorney 
General Ashcroft.
    Asa Hutchinson asked to see me prior to his confirmation 
and we had a good conversation. I have not engaged in more 
consultation because I thought it would be inappropriate until 
I was confirmed, but I am quite optimistic about the 
relationship between the Office and the Justice Department.
    Senator Sessions. Now, they have a lot of money they spend 
on research. In my view, it is astounding how many important 
programs that we spend a lot of money on have not been properly 
peer-reviewed and good data hasn't been done.
    Do you think we could do a better job of getting quality 
research on drug prevention, drug courts, and other kinds of 
treatment programs?
    Mr. Walters. Yes, with the caveat that I haven't reviewed 
their programs. I think across the board, from my past 
experience, we can do a better job both of focusing research in 
many cases--I am not criticizing them, but we also need a 
better job frequently of picking out the successful research 
and following up or disseminating it because sometimes there is 
a tendency not to be as aggressive in finding preliminary 
solutions to problems people really have in the field and 
getting it out to them and following up.
    I think sometimes people can be in a program that has a 
particular focus and they are doing things in a broad way, and 
it is through no ill will or bad management, but when you look 
at it from the point of view of the drug office, some things 
look compatible with other programs on community support or 
education or even other areas of law enforcement that will be 
interesting.
    So part of the idea of having people work together is not 
just a cliche. It is a matter of--you are right--we are 
spending a lot of money on Federal research across the board in 
these areas and we need to be able to capitalize on that 
investment, I think, more effectively.
    Senator Sessions. It strikes me that the Federal Government 
does not need to take over State and local law enforcement and 
drug treatment. I mean, it has been done at that level. Ninety-
five percent, 97 percent of criminal cases on drugs are State 
and local, I am sure. What we do has little overall impact in 
the Federal courts.
    But one of the great roles I think you can do is provide 
good information to a community that is desperately trying to 
improve its criminal justice system, its treatment programs and 
its prevention programs, and put out the best-quality 
information. I have talked to the Department of Justice about 
this, the Office of Justice Programs and the research branch, 
and I am still not sure it is practical enough for the people 
who need to use it.
    So would you consider it one of your responsibilities to 
make sure that you are analyzing the research that is being 
done, finding out what works and getting that information to 
the local cities and counties and States that are actually 
doing most of the anti-drug work in America?
    Mr. Walters. Absolutely. I think we need to expand even the 
direct connection between the drug office and people in States 
and localities so that we are talking to them and they are 
talking to us. But that also allows us to harvest valuable 
results from Federal agencies and be aware of what we can 
convey effectively.
    So if confirmed, I would look forward to being even more 
aggressive than we were when I was there last time in making 
that kind of connection through the Office, because you are 
right; it is a lot of potential and a lot of resources, and 
sometimes actually a fairly good collection of valuable 
material that we could convey, partly looking at ways in which 
we can do it through clearinghouses, electronic print means.
    Also, there are, as you know, a myriad of organizations 
that are sensitive to the needs of providers in different areas 
and people working in treatment or law enforcement or community 
programs now that have been nurtured and developed partly with 
Federal support, and with a lot of State and local and private 
support as well.
    We need to use those resources because they know what the 
people in the field want. They are the people in the field and 
they talk to them regularly. We should be more connected to 
those people than we have been in the past.
    Senator Sessions. You began working on drug matters with 
the Department of Education in the mid-1980s. You were the 
principal author of the Education Department's handbook 
``Schools Without Drugs: A Guide for Effective Education and 
Prevention Programs for Parents and Educators.'' Over 1 million 
copies were distributed. You designed the Education 
Department's recognition program, giving national attention to 
local schools for effective drug programs. All of that, I 
think, is excellent.
    The funding that began a decade or so ago through drug-free 
school programs, and so forth, are continuing today, are they 
not?
    Mr. Walters. Yes, sir.
    Senator Sessions. But I have a sense that maybe the sense 
of urgency that was there in the schools 15 years ago to really 
make sure kids got a negative message about drugs or knew the 
truth about drugs and the consequences may have slipped a bit.
    Do you have any idea as to how you might reinvigorate the 
education system nationwide and county school boards, over 
which you have no direct control? How can you motivate them, 
reenergize them to create this cultural consensus against drug 
use?
    Mr. Walters. I think, one, we need to sit down in a more 
systematic way with our colleagues at the Department of 
Education and bring in some of the representatives of 
principals, teachers, administrators, school board, parents. I 
think some of those people, from my limited contact, feel they 
have been--in some cases, the programs have worked well. In 
other places, people have felt disenfranchised. They are not 
sure where the resources are in their school district.
    Parents frequently mentioned, and have mentioned over the 
years that they feel they are not involved; that the money goes 
into a bureaucracy and either a trivial amount seems to come 
down to the school or they are not sure what happens to it when 
it comes down. So I think to examine what is really happening 
with those resources, and also to better help the organizations 
nationally that are trying to knit together these local efforts 
so people are still going to do a good job, but they don't feel 
they are alone, and to give them the resources.
    The President has proposed an effort to try to do some 
additional training of parents in drug prevention. He has 
proposed additional support for community coalitions. I think 
all those things have proven to be incredibly valuable and we 
need to work with them. But we also should be able to work 
effectively with leaders in the education community because I 
don't believe anybody who works in an educational institution 
today fails to understand the importance of protecting kids and 
the consequences of not protecting kids in future crime and 
addiction and lost lives.
    Senator Sessions. Wouldn't you agree that perhaps a lot of 
the schools are really not following through on programs today 
as they were when they initially were funded the money and 
probably need to be encouraged to reevaluate where they are?
    Mr. Walters. Yes. I don't want to--
    Senator Sessions. I am not being critical. It is just the 
natural cycle of life.
    Mr. Walters. Yes. My personal view is yes.
    Senator Sessions. And how you energize them is a challenge 
for you.
    Mr. Walters. Yes, but I think that is partly the kind of 
national leadership and cultural challenge of trying to say, 
while this is not the only issue the Nation has to face today, 
this remains an important issue. It remains one where you have 
to rebuild the consensus, where you have to push back on the 
cultural forces that have tended to trivialize or to undermine 
the effort, and to have people stand together--national 
leaders, State leaders, local leaders--to help parents.
    The most common thing I hear from parents is I want people 
to stop working against me in the culture. I want people to 
stop sending messages over the entertainment media or not 
wanting to talk about this at a PTA meeting or suggesting to my 
kids when this comes up in the context where they are 
supervising them that this isn't relevant.
    Some of that is bad behavior by other parents sometimes, 
but I think we need to guide people in establishing what 
everybody wants, which is let's be responsible, let's be 
serious, let's face this. This is an ongoing problem. As 
Senator Biden said, it is like cutting the grass. Every 
generation has to be educated. So you can't say, well, we have 
done that and now we have got drug use down.
    My great regret about leaving Government--and I frankly 
didn't expect to return to Government--was that we didn't get 
as far as I wish we could have and we didn't seem to be able to 
institutionalize as much of it as I would have liked to 
continue it. So it is a rare chance you get to come back and 
perhaps do a job again and learn from your mistakes.
    So I would like now both to drive the drug use down and the 
consequences of it, but also to look more seriously at 
sustaining the institutions that contribute to this so that the 
long-term need can be dealt with and it doesn't have to become 
a crisis and come back up to some kind of national crisis level 
in order for us to get serious again.
    Senator Sessions. Now, I trust that you support a law 
enforcement role in fighting drugs. But from what I hear, the 
way you are just discussing the overall campaign against drugs, 
you believe that is just one part of the overall effort. Is 
that correct? You are not here to say send me over there and I 
am going to see how many people I can prosecute. You have got a 
whole panoply of ideas for reducing drug abuse in America.
    Mr. Walters. Yes, Senator. One of the annoying things about 
some of the discussion in public of my record has been as if 
the work I have done or the commitment I have made or the issue 
I have pushed in regard to prevention and treatment didn't 
exist. I have worked diligently, I hope, on law enforcement and 
national security issues as part of my job as well.
    As I think I know you agree from our conversation prior to 
this hearing, the parts have to work together. We can't tell 
young people not to use drugs and have open-air drug markets, 
look the other way in our schools, not prosecute drug dealers, 
and make clear that the law enforces the attitudes we are 
teaching them and we say we care about.
    That is why, despite some of the critics, I don't believe 
my views are draconian on this. But I do believe that if you 
think that law enforcement doesn't send an important 
educational message, you are wrong. So we don't need draconian 
law enforcement, but we need not to, in reaction to being 
accused too harsh, say it doesn't make any difference at all.
    Senator Sessions. I agree one hundred percent, and if you 
live in a neighborhood where people are selling drugs quite 
openly on the street corner and nobody ever arrests them or 
nothing is ever done about it, the community is sending a 
message to the young people in that neighborhood, aren't they?
    Mr. Walters. Yes, sir.
    Senator Sessions. They have basically, de facto, legalized 
drugs.
    Mr. Walters. Yes, sir.
    Senator Sessions. So I wish putting people in jail could be 
avoided, but I think the overall picture of this thing has got 
to be focused on challenging city police departments and 
Federal agents and others not to allow open sale of drugs, 
don't you?
    Mr. Walters. Absolutely.
    Senator Sessions. I know Bill Bennett was strong about 
that, and I always felt that was critical. It takes a little 
effort, but you can drive it underground. You can really make a 
difference in the sale of drugs with effectively utilizing law 
enforcement, in my view.
    Mr. Walters. I agree.
    Senator Sessions. Well, I think you have a balanced and 
mature and experienced view of the drug effort. I hate to see 
the phrase ``war against drugs'' eliminated. Maybe it is time 
to do so. It has been out there since the early 1980s, but I 
saw it that way as a prosecutor and as a leader in my community 
for prevention programs and education programs. I saw teachers 
really become energized about it and my children coming home 
from school extremely hostile to drugs and smoking and 
unhealthy habits. So I know we made some progress, and the 
numbers showed it; the numbers went down.
    I believe that you are one of those rare people that as a 
young person got to see it firsthand and be in the pit of all 
this. You have been out for a while and now you are asking to 
come back in, and that maturity and experience is going to 
stand you in good stead and I believe you will do a great job.
    Is there anything you would like to share before we finish 
up?
    Mr. Walters. No, Senator. Thank you for the chance of being 
heard. And if the Senate sees fit to act favorably on the 
nomination--I am not just mouthing platitudes--I need, for all 
the reasons we have discussed here, to be able to work in a 
bipartisan way with the members of this committee. I think I 
have done that in the past and I hope that we can do that again 
because there are a lot of opportunities and I am very 
optimistic.
    But I know this job requires enlisting people's support up 
here, as well as out in the country, to do well. And there was 
no reason to come back in if I didn't think you could do the 
job well because I have been blessed with a lot of other 
opportunities. So I came back to do the job and I hope to be 
able to do the best job possible, with the help of people like 
yourself and your colleagues.
    Senator Sessions. I certainly intend to support you, and 
believe that you have a unique ability to bring us together in 
a coherent focus against drugs that will result in reduced drug 
use. The fewer that use, the fewer people that are going to be 
addicted, the fewer people that are going to commit crimes as a 
result of their addiction and their use. So this prevention, 
all of which encompasses a lot of different efforts, is a key 
thing.
    Senator Biden has asked that I close out the hearing and 
state that the record will remain open for a week for 
additional questions and statements.
    Senator Thurmond and Senator Grassley have asked that we 
include their statements in the record and we will do so at 
this point.
    [The prepared statement of Senator Thurmond follows:]

  Statement of Hon. Strom Thurmond, a U.S. Senator from the State of 
                             South Carolina

    I am pleased that we are holding this hearing today on John 
Walters, the President's nominee for Director of the Office of National 
Drug Control Policy.
    Mr. Walters is extremely qualified to serve in this capacity. He 
has 15 years of experience in drug policy, working as Chief of Staff 
and later as Deputy Director for Drug Interdiction at the ONDCP under 
Bill Bennett. Prior to his service at ONDCP, he served in the 
Department of Education, where he spearheaded drug prevention efforts.
    It is essential that we fight the war on drugs on all fronts, 
including prevention, treatment, prosecution and interdiction. Mr. 
Walters understands that all of these aspects are critical to America 
one day winning this war. Any criticism that he does not appreciate the 
importance of treatment and prevention is misplaced.
    This is a very important time in the war against drugs, not only at 
home but abroad. The recent terrorist attacks have highlighted the role 
illegal drugs plays in funding terrorism. Terrorists, including Osama 
bin Laden's organization, use the proceedings of drug trafficking to 
support and expand their efforts to promote death and destruction 
around the world. We must do all we can to disrupt these operations.
    The President needs his choice to be in place at ONDCP at this 
critical time, and Mr. Walters is a proven leader who will do a fine 
job for the President and for America. I look forward to his quick 
confirmation.

    [The prepared statement of Senator Grassley follows:]

Statement of Hon. Charles E. Grassley, a U.S. Senator from the State of 
                                  Iowa

    Mr. Chairman, I want to make a brief statement in support John 
Walters as the President's nominee to be the nation's drug czar.
    I have known and worked with John for many years and know him to be 
a man of great integrity and passion. If confirmed, he will serve the 
country well as drug czar.
    Mr. Chairman, you and I know only too well just how daunting a task 
he faces, now more than ever. Not only do we as a nation have a major 
drug use problem, we are increasingly facing a well-funded legalization 
lobby. Legalization groups oppose John's confirmation and they have 
organized a lobbying effort to block it. I can think of few things more 
damaging to this country and the welfare of its citizens than 
legalization of dangerous drugs, no matter what kind of benign face 
legalizers try to put on their efforts.
    John will oppose those efforts, a fact that has made the legalizers 
even more determined to stop his nomination. It is a pressure we would 
do well to resist.
    That effort aside, I would like to comment briefly on why John is 
more than qualified to lead the nation's counter drug programs.
    As you and members of this committee know, he has a long and 
distinguished record of engagement on this issue. He began working on 
counter drug issues more than 10 years ago when he was with Bill 
Bennett at the Department of Education. While there he did a lot to 
promote prevention efforts. He then went with Secretary Bennett to the 
newly created drug office, where first as chief of staff and then 
Deputy Director for Supply Reduction, he helped frame and implement the 
nation's first comprehensive counter drug strategy. That strategy saw a 
major increase in the counter drug budget, including a near doubling of 
the demand reduction budget.
    Although some in their zeal to block his nomination skip over this 
point, that strategy also helped to promote a major reduction in drug 
use among the nation's young people. After leaving the Drug Czar's 
office, he remained engaged on the issues. There are few people more 
familiar with what needs to be done, here or overseas, by ourselves or 
by our allies.
    We need his experience, his integrity, and his toughness in these 
trying times. We need his contribution whether we are talking about the 
need to bolster our efforts in neighborhoods in Iowa, or Delaware, or 
any of our communities ravaged by drugs. We need his toughness as we 
engage our enemies, who use drugs to attack our well being from afar or 
fund their international operations with drug money. Whether we are 
talking the renewal of the Andean Trade Preference Act or the renewal 
of the Drug Free Communities Act, we need someone whose experience and 
commitment covers this wide range of issues.
    John's background and his acknowledged expertise on the drug issue 
make him an ideal choice to carry out the President's agenda and our 
nation's agenda. We need the kind of tough advocate on the drug issue 
that John will be in the Administration. I strongly endorse John and 
want to thank the Committee for the chance to introduce him.

    Senator Sessions. If there is nothing else, we stand 
adjourned.
    [Whereupon, at 5:05 p.m., the committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

                         QUESTIONS AND ANSWERS

   Responses of John Walters to questions submitted by Senator Biden

    Question 1: In your March article in the Weekly Standard, you 
stated that thinking of addiction as a disease is an ``ideology.''
    You have also written that ``the mantra that the root causes of 
drug use are poverty, racism and `low self esteem' '' and ``the more 
general view that therapy by a team of counselors, physicians and 
specialists is the only effective way to reduce drug use'' are 
``myths'' and ``serious obstacles to reducing such drug use.''
    In an article written with former drug czar Bill Bennett, you 
asserted that:
    at their core these myths deny individual responsibility and assume 
that drug use is not the product of an individual's decision, and that 
decisions are somehow made in a vacuum where things like fear of 
getting caught, public disgrace, and punishment are never 
considerations.
    The top scientists at the National Institute on Drug Abuse believe 
that addiction is a disease of the brain. Your writings lead me to 
believe that you do not share that view.
    Your core views on this matter are important because the drug czar 
has the loudest voice on drug policy issues. He sets the tone. 
Statements like those you have made questioning whether or not 
addiction is in fact a disease turn back the clock in this country and 
could potentially reverse a number of the gains we have made in recent 
years--the increased public support for drug treatment, the growing 
awareness among doctors, nurses, and other health care professionals 
that they need to look for signs of addiction among their patients, 
etc.
    Do you believe that addiction is a brain disease?
    Answer: I am familiar with, and understand the expanding body of 
research demonstrating the biological and neurological effects of drug 
use, including that continued drug use adversely affects brain 
chemistry and structure. The research also demonstrates that, for a 
significant minority, drug use can lead to the compulsive drug craving, 
seeking, and taking behavior we characterize as addiction.
    I also recognize that the treatment and management of drug 
addiction are in some ways similar to the treatment and management of 
chronic diseases like diabetes, hypertension, and cancer. For instance, 
adherence to a treatment plan is critically important in addressing 
chronic conditions. Whether a person becomes a drug addict or is 
afflicted with diabetes, he or she must take personal responsibility 
for obtaining and following through with treatment. Much like a 
diabetic must monitor blood sugar levels in the bloodstream, maintain a 
healthy diet, and take insulin, overcoming drug addiction can require 
the commitment to taking medication that is a part of specific 
treatment programs, working to change behavior and accepting other 
services necessary to foster recovery.
    I am not a physician, but I believe the consideration of addiction 
as a disease has wide application. I also believe that a full 
understanding should not obscure the nature of the onset of drug 
addiction which policy cannot ignore. The repeated, willful use of an 
illegal, psychoactive substance is behavior we must seek to effectively 
discourage even though drug use, not drug addiction, is the intent of 
the user. A comprehensive prevention policy should assist youth in 
recognizing their responsibility to avoid drug taking behavior and the 
threat of addiction that comes with it.
    Do you believe that--as Dr. Leshher at the National Institute on 
Drug Abuse often says drug use after a time causes a change in the 
brain that is like the flip of a switch? That is to say, before the 
switch flips, drug use is a voluntary behavior and after it flips it is 
not?
    Answer: The mechanisms underlying brain activity and addiction are 
still imperfectly understood. I find Dr. Leshner's work interesting and 
provocative, and he may well be right, but in my recent conversations 
with Dr. Herbert Kleber, of Columbia University's Center on Addiction 
and Substance Abuse, he does not fully concur with the ``switch'' 
description, preferring instead the view that addiction ``erodes, but 
does not erase'' individual capacity for voluntary action and 
responsibility. Since I am not a trained research scientist in this 
field, I am reluctant to make a precise judgment on this matter. If 
confirmed, I would like to discuss this issue directly with Dr. Leshner 
and others.
    Do you still believe that the ``view that therapy by a team of 
counselors, physicians and specialists is the only effective way to 
reduce drug use `` is a ``myth `` and a ``serious obstacle to reducing 
such drug use'' ? If so, what are other effective ways to reduce drug 
use? Do you have any peer-reviewed, published studies to back up your 
claim?
    Answer: I support drug treatment and I believe my record in 
government when I had the greatest opportunity to support treatment 
through federal programs and policy illustrates my commitment to 
treatment. The point of the article you quote was not to deride drug 
treatment so much as to argue that there are a range of strategies that 
can be effective in discouraging drug use-the four-legged stool you 
cited in the hearing, in other words. The article goes on to discuss 
the importance of prevention, law enforcement, and supply reduction:
    Drug enforcement and individual responsibility are important 
because drug use can be intensely pleasurable. The desire for drugs 
must be countered by certain moral precepts: drug use is wrong and 
those who use and traffic in illegal drugs deserve to be punished. A 
responsible community teaches these things by what those in positions 
of authority-parents, religious leaders, teachers, friends, employers, 
and political officials-say about drugs and how they act toward drug 
use and sale. If those in authority do not address the issue seriously, 
they teach that drug use is not a serious matter. And if they say drug 
use is intolerable but fail to act effectively to stop and punish those 
who sell and use drugs, their actions convey a much more powerful 
lesson than their words.
    Reducing the supply of drugs is important because drug use-whether 
by non-addicts or addicts-is fueled by the desire to use and by the 
ease with which those who want drugs can obtain them. A nation that 
permits wide availability of dangerous drugs is sending its citizens, 
particularly its youngest citizens, an unwitting message: We are 
indifferent to drug use. The harsh reality is that drug use begins with 
experimentation, with a substantial portion escalating to addiction, 
which often ends in death. A free, democratic society ought to display 
a special intolerance for those things that destroy people's virtue and 
eventually, destroy people's lives.

    Question 2: Given the recent tragedy and the need to spend more 
combating terrorism, there will undoubtedly be difficult budget 
decisions to be made in the future.
    In terms of the drug budget, the President, the OMB Director and 
other top government officials are going to be looking to you for 
guidance about what programs can be cut and what programs should be 
preserved in full.
    What are the top three specific programs that you would fight for? 
Where would you cut if you had to?
    Answer: The current constrained fiscal environment will indeed 
require dedicated efforts within ONDCP and support within Congress to 
defend the Administration's budget requests for drug control program 
agencies. New programs and program increments are understandably the 
most difficult to fight for, and in that regard, if confirmed, I hope 
to be able to call on you and your colleagues for support in securing 
passage of the President's initiative to increase drug treatment 
spending by $1.6 billion. Other such initiatives include: establishment 
of a Parent Drug Corps, to mobilize parents and families; increased 
funding for local anti-drug coalitions; increased funding for the 
National Institute on Drug Abuse; resources to support a strong 
commitment to drug courts and other criminal justice diversion 
programs; increased support to law enforcement for methamphetamine lab 
cleanup; reimbursement for border county prosecutions; and technology 
support to local law enforcement officers. With regard to your question 
about cutting programs, at the present, I am not aware of any specific 
cuts that will be forced upon us as a result of budgetary constraints, 
as opposed to conscious policy decisions. If confirmed, I would make 
any such decisions only after a complete review and consultation.
    What would you say to those who would try to convince you to cut 
funding for treatment? The media campaign? Plan Colombia? Federal law 
enforcement?
    Answer: Each program element of the President's National Drug 
Control Strategy must serve in some manner to support the overarching 
goal of reducing drug use. That contribution is also the basis of our 
budget justifications for these programs. If confirmed, I will resist 
any attempt to cut programs that are making a demonstrated contribution 
to that goal.

    Question 3: In a March 2001 article in the Weekly Standard, you 
wrote:
    Newsweek makes much of the promise of new wonder drugs for 
treatment, but what new anti-drug drug is likely to work substantially 
better than the drugs we have to block tobacco craving (``the patch'' 
and ``the gum '') and the medication we have to make alcohol 
consumption a sickening experience for alcoholics? These are useful 
tools, but there are still many smokers and alcoholics. If anything, 
the trend of anti-drinking and anti-smoking efforts today is to 
criticize certain aspects of use and to attack availability.
    That is far from a ringing endorsement or adequate understanding of 
anti-addiction medications.
    Because I believe that addiction is a brain disease and must be 
treated as such, I have been a strong supporter of pharmacotherapies, 
believing that they are effective and that we should be investing more 
to develop new anti-addiction medications. I have worked through the 
years to increase access to these medications. For example, last year I 
worked with Senator Hatch, Levin and Moynihan to pass legislation to 
allow qualified doctors to prescribe certain anti addiction medications 
from their offices rather than requiring patients to go to specialized 
clinics.
    One of General McCaffrey's most important accomplishments, in my 
opinion, was not only working to increase access to methadone, the 
oldest and most widely used pharmacotherapy, but also breaking down 
some of the old misconceptions about medication. Having the drug czar 
praise methadone did wonders to move this form of treatment out of the 
shadows and into the mainstream.
    As drug czar, would you fight for increased use of 
pharmacotherapies to treat addiction? Would you push for drug courts or 
prison-based drug treatment programs to use these medications in 
treatment?
    Answer: I support research and development into appropriate 
pharmacotherapies. Nor is this support new; the President's 1991 
National Drug Control Strategy, which I helped write, stated that 
``Advances in the neural and biomedical sciences can enhance and hasten 
the development of effective prevention and treatment strategies for 
drug use. Biomedical research into brain mechanisms involved in drug 
use continues to hold great promise for development of new addiction 
medications and treatments.'' What was true in 1991 is still true. 
Indeed, please note that in the Weekly Standard article you cite, I 
described emerging pharmacotherapies as ``useful tools.'' Some 
pharmacotherapy backers go beyond that assessment, as do supporters of 
various elements of an effective drug control program. In my view, they 
don't fully appreciate the very real challenge they face in inducing 
addicts to use such medications, and it is in this, not any inherent 
limitation of pharmacotherapies, that lay my reservations.

    Question 4: Last month marked the seventh anniversary of the 
signing of the Violent Crime Control and Law Enforcement Act of 1994. I 
worked for years to make that bill a reality, and its sweeping 
provisions have played a major role in the drops in crime we have seen 
over the past several years.
    Title I of the Crime Act of 1994 was the Public Safety Partnership 
and Community Policing Act--the legislation that created the Department 
of Justice's Office of Community Oriented Policing Services. Seven 
years later, COPS has awarded over $8 billion to fund over 115,000 
officers--73,600 of them on the beat today. Grants have gone out to big 
cities and small towns, from Dover, Delaware to Carlsbad, California, 
to more than 12,400 law enforcement agencies in total.
    Seven years ago, we made a common-sense decision: let's put more 
police on the street to reduce crime in our neighborhoods. Let's create 
a program that moves our police departments away from the reactive, 
wait-for-the-crime-then-deal-with-it approach of old and towards a new, 
proactive plan that promotes community partnerships, decentralized 
command, and innovative strategies.
    The plan worked. New officers on our streets have made America a 
safer country. The FBI recently reported that violent crime has dropped 
for eight straight years. And in its most recent survey, the Department 
of Justice reported that the rate of violent crime victimization in the 
U.S. has dropped a full 46 percent since 1994, the year the COPS 
program began.
    You have repeatedly disparaged the COPS program, writing that ``it 
is almost inconceivable that the program has made a measurable 
contribution to reducing crime.''
    You have also called the 1994 crime bill which authorized the COPS 
program ``irrelevant.''
    As drug czar, you would play an important role in federal law 
enforcement matters.
    Do you still believe that additional cops on the beat won't do 
anything to reduce crime?
    Answer: No, I do not.
    If you have changed your mind on this matter, what caused that 
change? Walk me through how your philosophy has evolved.
    Answer: The article you quoted above challenged President Clinton's 
claim that the ``100,000 police,'' among other programs, had ``led to 
drops in violent crime and murder and rape and robbery,'' and it 
challenged it for the simple reason that the COPS program had hired a 
tiny fraction of its current complement by 1995, when the relevant UCR 
data was collected. You and I may have differences about the COPS 
program, but they are not principally about its effectiveness.

    Question 5: You have repeatedly pointed to Rep. J.C. Watts' 
Community Renewal Act as an innovative way to allow faith-based 
providers to treat addicts. That Act makes the following findings:
    (1) establishing formal educational qualification for counselors 
and other personnel in drug treatment programs may undermine the 
effectiveness of such programs; and
    (2) such formal educational requirements for counselors and other 
personnel may hinder or, prevent the provision of needed drug treatment 
services.
    I do not think that this was just an instance where you had not 
read the fine print of the legislation, because it is consistent with 
other things you have written. You have decried what you call ``the 
McGovernite ideology that has dominated American liberalism for the 
past 25 years''--an ideology that views drug abuse and other social 
problems as so complicated that traditional institutions such as 
churches and voluntary associations cannot possibly address them. Only 
policy specialists trained in the delivery of social services-
therapeutic-state elites-are up to the task.
    Do you believe that training a health care provider to treat a 
brain disease may actually ``undermine the effectiveness of such 
programs'' or ``hinder or prevent the provision of needed drug 
treatment services''?
    Answer: I do not.
    Would you support allowing people without medical backgrounds to 
treat any other illness?
    Answer: As I stated in regard to an earlier question, I recognize 
that the treatment and management of drug addiction are in some ways 
similar to the treatment and management of chronic diseases like 
diabetes, hypertension, and cancer. I have the utmost respect for the 
medical professionals working to treat addiction. I do not intend to 
minimize their talent or expertise. Most of those professionals that I 
have worked with, however, also recognize that there are some dedicated 
individuals with other types of backgrounds who are providing important 
help to the addicted.

    Question 6: You have asserted that ``hard-core users are mostly 
beyond the reach of drug treatment professionals.'' But according to 
Psychology of Addictive Behaviors, a journal published by the American 
Psychological Association, this is not the case:
    given the chronic, relapsing course of drug dependence, multiple 
treatment episodes may be better understood as parts of a cyclical 
process of recovery than as categorical failures. . . .These findings 
suggest that clients. . .with extensive histories of prior treatment 
may be more dysfunctional in many domains, but this should not lead to 
an erroneous conclusion that treatment is not effective for them. 
Rather, clients may accrue incremental improvement with this additional 
treatment episode, and, among individuals with similar drug addiction 
careers, those with prior treatment may be more likely to be ready for 
change than those without prior treatment.
    You have also said that the Clinton Administration's focus on 
hardcore drug users was an ``ineffectual policy--the latest 
manifestation of the liberals' commitment to a `therapeutic state' in 
which government serves as the personal agent of personal 
rehabilitation.''
    I have long supported a strategy of treating hardcore addicts 
because I believe that is where you get the most ``bang for your 
buck.'' Hardcore addicts consume the majority of drugs in this country 
and are responsible for a great deal of crime. In fact, drug addicts 
commit somewhere between 89 and 191 crimes per year to sustain their 
habit.
    Do you still believe that treatment of hardcore addicts is 
ineffectual?
    Answer: No, I support it. I believe it enormously challenging, 
however. That is why I think it should be one of our most serious 
policy objectives, but that we should be careful not to over promise 
what the current state of the art can produce in results.
    What proof do you have to back up your assertion that treating 
hardcore addicts does not work?
    Answer: I did not write that drug treatment ``does not work.'' I 
believe it does work. I even believe that the treatment of hardcore 
addicts works. I believe it is difficult in the most difficult cases as 
the definition quoted above makes clear, getting addicted individuals 
to desist from drug use is a painstaking, long-term, and repetitive 
effort.
    What do you propose as an alternative that would deal with this 
problem in a more effective manner?
    Answer: I do not believe that there is a substitute for moving 
hard-core drug users into treatment, just as there is no substitute for 
strong prevention messages, aggressive interdiction programs, and 
effective law enforcement. My views on the subject are perhaps best 
summed up in the introduction to the 1990 National Drug Control 
Strategy, which I helped write, and which stated, in part, that:
    For reasons both political and institutional, much public 
discussion has been bedeviled by a persistent but sterile debate over 
``supply'' versus ``demand'' solutions. But to repeat what we have been 
saying for almost a year, the reality of the drug problem cannot be met 
through an exclusive ``law enforcement'' strategy on the one hand, or a 
``prevention and treatment'' strategy on the other. Most Americans 
recognize by now that we need both approaches. An effective criminal 
justice policy needs a good treatment policy; a successful treatment 
system is hampered by the easy availability of drugs and will 
ultimately be overwhelmed without a good prevention program; and good 
prevention programs are harder to carry out absent vigorous efforts 
directed at international and domestic drug traffickers who are largely 
responsible for making drugs so ubiquitous in the first place.

    Question 7: In February, I joined with Senator Hatch, Leahy, 
Thurmond, DeWine and Feinstein to introduce The Drug Abuse Education, 
Prevention and Treatment Act (S. 304). The bill provides about $900 
million a year for prevention and treatment programs including drug 
courts, prison based treatment, treatment in rural and economically 
disadvantaged areas, reentry courts, and treatment for women with 
children. The bill has the support of a large number of treatment and 
prevention groups, as well as law enforcement organizations including 
the National Crime Prevention Council, the Fraternal Office of Police, 
and the National Sheriff's Association.
    Do you support the bill that Senator Hatch, Leahy and 1 have 
introduced to invest additional resources in drug prevention and 
treatment activities?
    Answer: I am an ardent supporter of effective drug treatment. 
During my first tenure at ONDCP, I oversaw tremendous growth of the 
drug treatment budget, including the creation of the Targeted Capacity 
Expansion Program that remains a critical component of our treatment 
infrastructure. Furthermore, I highlighted drug treatment as a 
fundamental component when I helped draft the first National Drug 
Control Strategy. More recently, I have spoken with experts in the 
field such as Mark Parrino, Dr. Robert DuPont, Dr. Andrea Barthwell, 
and Dr. Herb Kleber. I look forward to reviewing the report President 
Bush directed Secretary Thompson to deliver concerning the areas of 
specific need for additional treatment services in America to assess 
our progress and understand what remains to be accomplished. While not 
prejudging the results of that review, areas where improvement may be 
warranted include making available the proper treatment modality to the 
individual in need, making available appropriate service linkages, and 
making available an adequate after care component. I am familiar with 
the bill, but before taking a formal position on a piece of important 
legislation, I believe I should review these matters with the full 
range of interested and knowledgeable parties. I intend to do this 
promptly, if I am confirmed.

    Question 8: Because Ecstasy is a partial stimulant, it energizes 
the user, allowing him or her to dance for hours at a time. As a 
result, the drug has become popular at all-night dance parties known as 
``raves.''
    Raves are usually sponsored by a promoter who organizes the venue, 
publicizes the event and hires security. The promoter then charges an 
admission fee of between $10 and $50. Though promoters indicate that 
they tell their security to crack down on drug use at the clubs, 
undercover investigations-including some conducted by the DEA-have 
revealed that, in fact, some promoters tell their security guards to 
look the other way.
    Because many raves are billed as alcohol-free events, parents often 
assume that they are safe places for their teenage sons and daughters 
to go to dance and be with their friends. Unfortunately, these events 
are often quite unsafe.
    At some raves, promoters will shut off the water faucets in the 
clubs, thereby forcing patrons thirsty from dancing and Ecstasy-induced 
dehydration to purchase bottles of water sold for $5 or $10 each. 
Shutting off the water faucets is a fire hazard and a health hazard, 
not to mention unethical and irresponsible. At some raves, club goers 
have to pay a fee before being allowed to go into an air conditioned 
``cool down room.''
    The U.S. Attorney in New Orleans used the so-called ``crack house 
statute'' to go after a major rave promoter in his city. The defendants 
cut a deal with prosecutors, agreeing to five years probation, paying a 
$100,000 fine and ensuring that future raves are free of Ecstasy 
paraphernalia--including pacifiers and glow sticks.
    These rave promoters are making money off of the drug trade at the 
expense of our kids. Have you thought at all about how you intend to 
work to crack down on Ecstasy or raves where it-and a number of other 
so-called ``club drugs''--are sold?
    Answer: I am deeply concerned not only by the proliferation of 
Ecstasy use but also by the inroads pro-legalization groups are making 
under the guise of Ecstasy ``harm reduction.'' Such groups use the 
dishonest and self-serving argument that kids are going to use drugs 
anyway, and they might as well do so ``safely.'' And they are getting 
their message across-a recent article in the New York Times was 
actually titled: ``For Partygoers Who Can't Say No, Experts Try to 
Reduce the Risks.'' I believe that Ecstasy use, and marijuana use, 
while less dramatic in their immediate consequences than the use of 
drugs like cocaine or heroin, represent the principal drug problem 
facing our children, and for that reason must be one of our principal 
areas of focus. With regard specifically to Ecstasy and ``raves,'' the 
use of special statutes such as 21 USC Sec. 856 sounds like one 
sensible way to address this problem. I would have to devote further 
study to the matter and, if confirmed, would want to consult with the 
Attorney General before making a final policy judgment.

    Question 9: The Director of ONDCP has a remarkable power over the 
federal budget-if he chooses to use it. This is known as the budget 
certification power. Bylaw, every federal department or agency involved 
in the National Drug Control Program Strategy must provide the director 
with the department's proposed drug control budget request.
    If the Director believes that the budget request is insufficient to 
fund the department's role in controlling drugs, then he must refuse to 
certify the budget. The department must then submit a revised budget 
that incorporates the funding levels suggested by the Director.
    When he was Director, General McCaffrey successfully used his 
budget certification power to force the Pentagon to add an additional 
73 million dollars to its fiscal 1999 budget in order to help combat 
drug trafficking in the western hemisphere.
    What are your thoughts on the budget certification process?
    Answer: ONDCP's governing statute provides, as you state, a very 
useful tool for maintaining an overall level of quality control and 
coherence over agencies' drug-related budget requests. When I last 
served at ONDCP we used this authority to increase and shape budgets 
for both supply and demand reduction programs. If confirmed, I would 
use this important tool again, when necessary, to carry out the 
responsibilities of the director.
    As Director, how aggressively would you wield your budget 
certification power?
    Answer: I recognize that the certification tool depends on a range 
of factors, including the fiscal environment, and the adequacy of other 
agencies' budget requests. If confirmed, I would take a close look at 
all agency budget requests, and work hard to ensure their adequacy-in 
this the certification power is crucial in my experience and I would 
use it.

    Question 10: The Federal Employee Health Benefits Program provides 
full parity for mental health and drug and alcohol treatment services 
in the insurance coverage that it offers federal employees.
    As drug czar, would you advocate for the Administration supporting 
passage of legislation providing full parity for drug treatment 
services covered by private health insurance?
    Answer: I believe that it is important for people with private 
insurance policies to have adequate coverage for themselves and their 
families concerning substance abuse treatment. I believe the parity 
issue is an important one. It has grown in prominence since the time I 
last served in government and, if confirmed, it would be my intention 
to consider the issues related to it seriously in wide consultation 
with knowledgeable individuals inside and outside government.

    Question 11: Since the mid 1960's, doctors have been using 
methadone to treat opiate addiction. Numerous studies have demonstrated 
the effectiveness of methadone maintenance treatment.
    As drug czar, would you work with other government agencies to 
implement regulations and programs ensuring the appropriate use of this 
effective drug treatment?
    Answer: Yes, as I did during my first my previous service at ONDCP.
    How would you work to promote the development of additional anti-
addiction medications?
    Answer: The President has already committed to increasing the 
budget of the National Institute on Drug Addiction, it would be my 
priority, if confirmed, to securing that expansion.

    Question 12: Because of the stigma associated with substance abuse, 
many people who need substance abuse treatment are reluctant to seek 
it.
    I'm not sure you are going to help this problem. After all, you 
have said ``The health people say `no stigma.' I'm for stigma.''
    As drug czar, how specifically would you work to reduce the stigma 
associated with addiction and encourage people who need treatment to 
seek it?
    Answer: It takes courage and strength of character to make the 
decision to enter a drug treatment program. If confirmed, I would like 
to explore ways of giving greater prominence to the stories of 
individuals who have been treated and are in recovery. I think the best 
way to overcome the stigma that may discourage some individuals from 
seeking treatment is to broaden the public respect for those who 
confront and work to overcome addiction and those who support them.
    With regard to your question about encouraging people to seek 
treatment, I should note that during my first tenure at ONDCP, I 
oversaw the largest increase in the growth of the drug treatment budget 
of any administration--before or after--including the creation of the 
Targeted Capacity Expansion Program and increases for treatment-related 
research that remain a critical components of our treatment 
infrastructure. Furthermore, I highlighted drug treatment as a 
fundamental component when I helped draft and implement the first 
National Drug Control Strategy. More recently, I have spoken with 
experts in the field such as Mark Parrino, Dr. Robert DuPont, Dr. 
Andrea Barthwell, and Dr. Herb Kleber. If confirmed, I look forward to 
reviewing the report President Bush directed Secretary Thompson to 
deliver concerning the ``treatment gap'' in America to assess our 
progress and understand what remains to be accomplished.
    Do you think that your past statements about addiction as a moral 
failing increase the stigma?
    Answer: I believe we can successfully defend the overwhelming 
consensus that it is wrong and harmful to use drugs and the 
overwhelming consensus that if you have a drug problem you should seek 
treatment and get into recovery. I do not believe that opposition to 
drug use leads to a lack of respect for drug treatment or those who 
have faced a problem of addiction and are seeking to overcome it.

    Question 13: It is, of course, important for the government to 
discourage the use of drugs, underage drinking, and other harmful 
illegal behavior. Sometimes this means criticizing and stigmatizing 
those activities. But in doing this, we need to be careful not to 
denigrate and alienate those who have suffered from the disease of 
addiction, particularly if they have sought treatment or are leading 
sober and productive lives. Unfortunately, Americans in recovery too 
often encounter prejudice and discrimination as they work to obtain or 
retain their jobs, homes, insurance and other necessities of life. The 
Americans with Disabilities Act, Rehabilitation Act and other federal, 
state and local laws prohibit this kind of discrimination against 
people in recovery who are otherwise qualified.
    As drug czar, would you work to reduce stigma and help the 
Department of Justice enforce the laws prohibiting discrimination 
against people in recovery from alcohol and drug addiction? If so, how 
does that square with your previous statements indicating that you are 
``for stigma''?
    Answer: I agree completely with the distinction you have drawn 
between the necessity of attaching stigma to drug use and the 
imperative that this stigma not spill over to adversely affect people 
who have made a commitment to turn their lives around through 
treatment. The federal government can and should play a powerful role 
in discouraging certain illicit behaviors and activities. This is the 
point I was emphasizing when I said that I am ``for stigma.'' It would 
be both counter-productive and wrong to stigmatize people who are 
working to escape from addiction. If confirmed I would of course work 
to uphold our laws regarding discrimination against people seeking 
treatment.

    Question 14: Addiction treatment programs and other agencies that 
serve people with alcohol and drug problems sometimes suffer from 
stigma or discrimination. For example, sometimes treatment centers are 
victims of the ``Not in My Backyard'' syndrome, meaning neighbors 
oppose attempts to establish treatment programs even when the area is 
zoned for such a purpose. And some insurance companies and health 
management organizations resist approving adequate payments, levels of 
care, or length of stay for treatment of addiction.
    As drug czar, would you use the ``bully pulpit'' to ensure that 
treatment programs and other agencies that assist people with alcohol 
and drug problems are protected from these types of discrimination?
    Answer: Yes. The citing of treatment and other public health 
facilities has too often led to unwarranted and unnecessary 
controversy. I believe that decisions about where to locate such 
facilities work best when there has been an effort made to educate 
people in the affected communities about the effectiveness and methods 
of modern treatment, and I would, if confirmed, use the persuasive 
powers of the office to help educate Americans in this regard. I 
believe that it is important for people with private insurance policies 
and in health maintenance organizations to have adequate coverage for 
themselves and their families concerning substance abuse treatment. I 
am pleased that insurers who participate in the pool from which federal 
employees select coverage have parity for substance abuse treatment. 
While insurers are not required to provide coverage for substance abuse 
treatment, if they choose to offer that coverage it must be at the same 
levels as other conditions requiring medical attention. I believe the 
parity issue is an important one. It has grown in prominence since the 
time I last served in government and, if confirmed, it would be my 
intention to consider the issues related to it seriously in wide 
consultation with knowledgeable individuals inside and outside 
government.

    Question 15: As drug czar, would you anticipate having a role 
helping the President to implement his faith based initiatives, 
especially in light of the recent departure of John Dilulio--someone I 
expect that you know well, having co-authored a book with him--who had 
served as the Director of the White House Office on Faith-Based and 
Community Initiatives?
    Answer: Through my experience as president of the Philanthropy 
Roundtable I have learned first-hand how effective and transformational 
faith-based programs can be. To the extent that these programs can help 
people overcome addiction to alcohol and drugs, I believe they are 
worthy of our study and, where constitutional and appropriate, 
consideration for some possible support.
    Before giving money to faith-based treatment programs would you 
want to make sure that these programs have been proven effective in 
peer reviewed published scientific studies?
    Answer: I believe that federal programs must have objective 
measures of accountability. The best measure of accountability for drug 
and alcohol treatment programs, whether they are faith based or not, is 
their success at freeing their participants from addiction. I have 
worked in the past, and if confirmed will work in the future, to build 
in standards of accountability that help individuals get into, and stay 
in, treatment that works.
    Would you insist that treatment professionals--such as the 
scientists at the National Institute on Drug Abuse or the Substance 
Abuse and Mental Health Services Administration--have a leading role in 
the formulation of faith-based treatment programs?
    Answer: If we are going to create opportunities for effective 
faith-based programs that help people get into and stay in treatment, 
we need to have effective standards to evaluate those programs. We must 
have objective standards of success and measurement that are 
empirically based and evaluated. In establishing those standards, I 
would, if confirmed, draw upon the expertise of many sources, both 
inside and outside government, and would include scientists and other 
staff from NIDA and SAMHSA.

    Question 16: I am sure you have heard people express concern about 
the number of people who have been sent to prison under mandatory 
minimum sentencing laws for drug-related offenses, citing statistics 
about the disproportionate number of minorities.
    What are your views on mandatory minimum sentences?
    Answer: My understanding of the legislative history is that 
Congress adopted the current twotiered mandatory minimum sentencing 
structure as part of a larger effort both to incapacitate and punish 
mid- and senior-level drug dealers. While I believe that these 
sentences have been in many ways effective, I also recognize that there 
has been some disagreement about their fairness. If I am confirmed as 
ONDCP director, I would initiate a review of mandatory minimum 
sentences as they relate to illegal drugs, working in close 
consultation with the Attorney General. President Bush has expressed 
his openness to such a review, as has Attorney General Ashcroft. It 
would be my intention to conduct this review in consultation with 
interested parties in the executive branch, in Congress, the courts, 
and in the public.
    Do you believe that mandatory minimum sentences have led to a 
sentencing disparity for minorities?
    Answer: While I am not of the view that the U.S. Government, 
Federal, State, or local, is locking up innocent people for drug crimes 
in significant numbers, I do recognize that the mandatory minimum 
sentencing structure has fostered among some a perception of racial 
injustice within the criminal system. Clearly, the government must 
create and administer laws in a fair and equitable fashion, but it is 
equally important that the laws be seen as fair by the citizens.
    I believe it is critical that we examine the equity and fairness of 
the criminal justice system and have already stated my intention to do 
so in this regard, if confirmed. In such an examination I also believe 
we should consider those who are the victims of criminal acts. In the 
Weekly Standard article cited in question 3 above, I wrote: ``In 1998, 
of the 7,276 murders in the United States that involved a single 
offender and a single victim, 5,133 of the victims were male and 3,309 
were black. According to the FBI, 3,565 of the offenders in these 
murder cases were black, and 3,067 of the murders involved both a black 
victim and a black offender. In 1998, black males between the ages of 
14 and 17 were almost six times more likely than white males to be 
victims of murder or non-negligent manslaughter; black males between 18 
and 24 were over eight times more likely to be victims; and for those 
25 and over, black males were murder victims at a rate 7.6 times that 
of white males.'' As I sought to explain during the hearing, I believe 
we should work to reduce crime, drug use, and addiction as the best way 
to help reduce the number of individuals who enter the criminal justice 
system and the number who enter prison. I have spent a significant 
portion of my time while working at the Philanthropy Roundtable helping 
foundations and donors better support not only drug prevention and 
treatment programs, but the range of assistance to help disadvantaged 
communities improve schools, job training, housing, health care, and 
other elements necessary to stabilize neighborhoods and break the 
cycles of crime and addiction.

    Question 17: A recent report from The National Center on Addiction 
and Substance Abuse at Columbia University showed that of each 
substance-abuse related dollar that states spend, 96 cents go to 
dealing with the consequences of substance abuse (criminal justice, 
health care costs, etc.) and only 4 cents go to preventing and treating 
it.
    I believe that we need a drug czar who will push the states to 
spend more on treatment and prevention, thereby saving money on 
incarceration, health care and other related costs.
    Given all that you have written in the past questioning the 
effectiveness of treatment and prevention programs, what makes you 
think that you are the right man for the job?
    Answer: I have long recognized that the best approach to our 
nation's drug problem is a balanced approach. I agree with you that 
states should increase their spending in this area, and if I am 
concerned I will strongly encourage them to do so. I have written many 
times-indeed I have been criticized for writing-that state and local 
authorities should take more responsibility for treatment and 
prevention programs. This is not to say the federal government should 
do less, rather it is to say that government at all levels should join 
together to do more.

    Question 18: Some 83 percent of Americans support federal funding 
for the National Youth Anti-Drug Media Campaign. Specifically, 83 
percent favor continuing current funding or increasing funding for the 
campaign. The public clearly favors using $185 million each year--
equivalent to 1 % of the federal drug budget--to guarantee that anti-
drug ads reach kids and parents through the mass media.
    Can I count on you to support the media campaign? (Please respond 
Yes or No)
    Answer: Yes.
    Can I count on you to make sure that the campaign will continue to 
be administered by ONDCP and not shipped off to another agency? (Please 
respond Yes or No)
    Answer: Yes, I have no plans to change the current structure. I 
believe that the director of the Office of National Drug Control Policy 
has a critical role in assuring that the media campaign is not only 
effective, but also thoroughly evaluated.

    Question 19: The media campaign's budget is $185 million per year, 
which works out to $8 per teen in America. This is a lot of money, but 
in the world of advertising it pales in comparison to the General 
Motors of the world, who spend $800 million each year to sell their 
cars and trucks.
    In your opinion, given the influence media can and does have on 
youth each and every day in this country, should we be spending more on 
the media campaign or less?
    Answer: I strongly support the media campaign. I believe it can 
make a valuable contribution, and I believe it has already done so. I 
would be inclined to look at ways to increase its funding. But in 
fairness I do not think it is appropriate for me to commit to specific 
funding levels until I have had the opportunity, if confirmed, to 
consult with knowledgeable people inside and outside government about 
the campaign's effectiveness and strategy.

    Question 20: You have suggested that parents--not the federal 
government--should be taking the lead in preventing drug use among 
kids. While I agree that parents are the leading factor in drug 
prevention, research indicates that parents believe that it is everyone 
else's kids who are doing drugs, not their own. This includes good 
parents, good people, who just don't believe it is their kid.
    Can't we use the media campaign to persuade, enlighten, shake up 
and motivate parents to take action?
    Answer: Yes, I strongly believe that parents are a critical node in 
preventing drug use among their children, and that the media campaign 
can play an effective and productive role when directed at them. I 
believe it is doing this already.
    Do you think there is a more efficient way to reach parents on a 
daily basis with these types of messages than via the media and the 
media campaign?
    Answer: While I believe the media campaign is effective for this 
purpose, I also believe that we can reach parents through additional 
channels, like the Community Coalition, as well as through other 
programs that have direct ties to parents groups. Programs that can get 
the word about prevention out to parents at the local level-through 
service organizations, religious congregations, and workplaces-are also 
very promising.

    Question 21: You have questioned the effectiveness of the media 
campaign. Well, if I only looked at the ``official measurement'' I 
would too--because the study of the campaign did not get underway until 
18 months into the campaign. That means that the ``official 
measurement'' was not even underway when the campaign was making its 
dramatic changes--changes which are measured by other research 
instruments including the Monitoring the Future study and the annual 
tracking study conducted by the Partnership for a Drug Free America.
    For example, in February the American Journal of Public Health 
published a study, funded by the National Institute on Drug Abuse, 
which found marijuana use declined by more than 25 percent among 
sensation-seeking (high risk) kids who were exposed to heavy doses of 
anti-drug advertising.
    What are your thoughts on the research regarding the impact of the 
media campaign to date?
    Answer: I support the media campaign. I believe it is making a 
difference. If confirmed I would like to review the way we measure its 
effectiveness, both to revise the evaluative tools we now use and to 
ensure public support for the efforts we are making.
    Have you considered independent research on the effectiveness of 
the media campaign in your questioning of the effectiveness of the 
campaign?
    Answer: I support the media campaign. I have received general 
information about the media campaign and its effectiveness. I do not 
believe this information is in any way sufficient to allow a director 
of ONDCP to make an informed decision about the media campaign, or how 
to strengthen it for the future. If confirmed, I intend to conduct a 
thorough examination of the campaign and possible future improvements.

    Question 22: What is your view of drug dependence? Should it be 
viewed primarily as a public health problem?
    If not, why not?
    Answer: There are components of drug dependence that are undeniably 
best viewed and treated as public health problems, just as there are 
other aspects that are more effectively addressed as economic, law 
enforcement, medical, and social problems. As I have said before, a 
balanced approach is the most effective.

    Question 23: What are your views on the efficacy of methadone 
maintenance? Do you agree or disagree that some individuals may need to 
be treated with methadone for life?
    Answer: I support methadone maintenance as a legitimate treatment. 
I do not know whether some individuals need to be treated with 
methadone for life, and would defer on this point to the advice of 
qualified experts.

    Question 24: You have stated that you are supportive of treatment 
provided that it is ``good'' treatment.
    How do you define ``good'' treatment?
    Answer: I believe that all drug treatment programs, including 
faith-based ones, should be evaluated on the basis of how effectively 
they help the addicted stop using illegal drugs (and alcohol, if they 
are dependent on alcohol as well) and stay free from such use.
    What are the outcomes that you believe should be used to determine 
whether a treatment program is effective?
    Answer: Individuals in need of drug treatment vary tremendously, 
and one of the limitations of the present system has been in matching 
individuals with appropriate services. Precisely because of the 
heterogeneity of the population in need of drug treatment, it is 
difficult to make across-the board statements about what constitutes 
``good'' treatment and any measure must reflect the range of severity 
and related conditions clients present. All studies of treatment 
effectiveness also should be grounded in the obvious measure of how 
many users desist from drug use and for how long, but a sampling of 
other measures could include criteria such as participation in the 
workforce, cost effectiveness, appropriateness in matching the client 
with needed services, reduced criminal recidivism, and health 
indicators.

    Question 25: Treatment experts have stated that faith-based drug 
treatment programs should be held to the same effectiveness standards 
as secular programs.
    Do you agree with this view? Should they be evaluated differently 
than secular programs?
    Answer: I believe that all drug treatment programs, including 
faith-based ones, should be evaluated on the basis of how effectively 
they help the addicted stop using illegal drugs (and alcohol, if they 
are dependent on alcohol as well) and stay free from such use.

    Question 26: What is your viewpoint concerning court mandated 
treatment in lieu of prison?
    Answer: I support such diversion programs.
    If you support them, what has happened to change your mind about 
these programs?
    Answer: I have supported diversion programs in the past. My 
reservations in this area was focused on the need to be realistic about 
what costs and resources were needed for effective diversion programs, 
including sufficient staff for close supervision, the availability of 
multimodality treatment services and related support assistance such as 
mental health care, and recognition that very few first- or second-
time, nonviolent offenders who may benefit from treatment face actual 
prison sentences in many jurisdictions. My concern regarding this last 
point did not have to do with the desirability of mandated treatment in 
lieu of prison, rather my point was the potential group of first- or 
second-time, nonviolent offenders who may benefit from treatment was 
likely to be smaller than some believed in the early discussions of 
this approach.

    Question 27: There is an increasing recognition that drug abuse 
occurs in rural areas.
    What role, in your opinion, should ONDCP play in helping rural 
areas address this important problem in terms of law enforcement?
    Answer: While I have not been able to engage in detailed 
discussions with the involved parties prior to my confirmation, it is 
my impression that some of the HIDTAs are working to provide needed 
resources and coordination for drug-related law enforcement in rural 
areas. This was true to some extent along the Southwest Border when I 
was last in government and it seems to be the case in many more areas 
now that the program has grown. I also think that the other programs of 
state and local assistance provide by the federal government have been 
helpful and I would look to them and the HIDTA programs, in 
consultation with state and local leaders, to serve as a foundation for 
what needs to be done in the future.
    What about in terms of public health issues (i.e., AIDS, Hepatitis 
C) and treatment?
    Answer: If confirmed, my intention would be to review public health 
and treatment assistance related to drugs was a whole and include 
particular attention to rural areas. Such a review should involve 
current program personnel, knowledgeable state and local individuals, 
and consultation with the Congress. In addition, the assessment of 
treatment needs by Secretary Thompson as directed by the president 
should offer an important component to such a review.

    Question 28: What is your view of the role of science in policy 
making? In what areas would you use science to guide your decisions?
    Answer: Throughout my professional career I have been involved with 
public policy issues and sought to find and develop solutions to our 
common national problems on the basis of what works-which I believe is 
the fundamental empirical standard of science. I believe scientific and 
empirical analysis can-and should-be applied to all aspects of drug 
control policy from prevention and treatment to law enforcement, 
national security, and research programs.
    Who are the scientists or doctors on whom you rely most closely?
    Answer: In regard to treatment matters I have consulted with: Dr. 
Andrea Barthwell, Dr. Robert DuPont, Dr. Herb Kleber, Mark Parrino, Dr. 
Laurie Robinson, and Dr. Ian McDonald.

    Question 29: In 1995, the Supreme Court, in a case known as United 
States v. Lopez, struck down the Gun-Free School Zones Act, which 
Congress passed overwhelmingly in 1990--by voice vote in the Senate, 
and by a vote of 313 to 1 in the House--and which was signed into law 
by President Bush. Shortly after the decision, in an op-ed in the 
Washington Times, you hailed the invalidation of this bipartisan 
legislation as a victory against ``the intrusion of the federal 
government into an area of traditional local authority''--namely, ``the 
safety and functioning of our schools.'' As you know, both drug abuse 
and drug-related violence have a severe impact upon ``the safety and 
functioning of our schools.'' In fact, the Gun-Free School Zones Act, 
had it not been struck down by the Supreme Court, would have provided 
law enforcement with an additional tool in preventing the violence of 
the drug trade from gaining a foothold in our nation's schools.
    Given that you feel that the exercise of federal authority to keep 
guns out of schools is an ``intrusion'' into ``an area of traditional 
local authority,'' do you feel the same way about efforts to keep our 
schools free of drugs and drug violence?
    Answer: No and I believe my past work on the drug problem, both in 
and out of government, reflect my views on this issue. As I also 
discussed with Senator. Kohl during the hearing, I have changed my 
opinion on the Lopez decision. I believe federal assistance can be 
important in these cases--important symbolically as a means of setting 
priorities and important substantively in providing resources and 
assistance.
    Would you leave these problems to be handled by state and local 
governments?
    Answer: No, although state and local authorities will surely bear 
the brunt of the responsibilities for addressing problems of drugs and 
violence in our schools and neighborhoods.

    Question 30: I have long supported efforts--both at the National 
Institute on Drug Abuse and in the private sector--to develop 
medications to treat addiction. I am sure that you are aware that there 
are only a handful of medications that are currently approved for this 
purpose. I am frustrated that more pharmaceutical companies are not 
trying to develop additional medications, but I can understand why they 
are reticent to invest in this. First, there is the stigma involved 
with developing a drug to help addicts. But second--and perhaps more 
importantly--we do nothing to make this process easier for them.
    The Drug Abuse Advisory Committee--which is the body of experts of 
the Food and Drug Administration who have historically been consulted 
during the process to approve products to treat drug abuse--has been 
disbanded. There is now nobody who knows or cares about addiction 
involved in the approval process.
    Will you pledge to do everything you can to smooth the process for 
the approval of anti-addiction medications, including lobbying to 
reinstate the Drug Abuse Advisory Committee?
    Answer: I was not aware of the history of the Drug Abuse Advisory 
Committee. If confirmed, I will make a review of the approval process 
for anti-addiction medications a priority because I too think such 
drugs can make important contributions to our ability to help more of 
the addicted. I would like to have an opportunity to review this matter 
before making a commitment to a specific course of action.

    Question 31: When you served in the last Bush Administration, 
Director Bennett put together the ``Andean Initiative,'' which provided 
both economic and military assistance to the nations of the Andes.
    Last Year, Congress and the Clinton Administration worked together 
to provide U.S. support to ``Plan Colombia.'' This year, the Bush 
Administration's budget broadens that approach to provide increased 
assistance to the other nations of the of the region as well.
    So in a sense, we're back where we were a decade ago with a 
significant assistance program to the region, although I think we are 
in a lot better position today in terms of the commitment of the local 
governments to this effort.
    You have indicated to my staff that you are dubious about Plan 
Columbia. What exactly are your doubts? How would you address them?
    Answer: I am concerned that public understanding and support for an 
initiative the size of Plan Colombia and involving the risks it does is 
very limited. If confirmed, I would like to review this initiative with 
those implementing the programs, executive and legislative branch 
leaders, and some of those in the foreign governments that are a part 
of this effort.
    What are your views on the current direction of U.S. support for 
the Andean region as a whole?
    Answer: I believe that our drug control efforts should extend to 
our foreign and national security policy in appropriate ways. That does 
not mean that our interests in drug control should be considered more 
important than all other interests, merely that it should be one of our 
interests and its priority should be guided by the varying 
circumstances we face. If confirmed, I would seek full briefings on all 
aspects of our current policies and programs in the Andean region, but 
prior to such having such information, I cannot be sure of the specific 
strengthens and weaknesses of the current direction.
    Will you work to make sure that there is continued support within 
the Administration for Plan Colombia? If so, how?
    Answer: I know that many in Congress and in the current and the 
past administrations worked to develop Plan Colombia as it exists 
today. If confirmed, I will undertake to learn what they believe we 
need to keep in mind as we assess the programs and their future. Prior 
to such consultations and the completion of a review, I would not make 
decisions on how I would specifically proceed following such a review.
    What do you see as Plan Colombia's weaknesses and how would you 
address them?
    Answer: Stipulating that there are specifics related to this 
question that I will only be able to address if confirmed, I believe 
the chief weakness is in regard to public knowledge of the basic 
components of this effort, its objectives, its dangers and costs and 
why they are prudent, and, in addition, a foundation of basic public 
support. If confirmed, I would see it as my job to ensure that the most 
responsible measures were in place and that they were made as clear as 
possible to the public at large and supported by the broadest possible 
consensus.

    Question 32: Some analysts argue that we should provide direct 
counter-insurgency assistance to the Colombian military--not merely as 
part of the drug war but as a means of assisting a democratic ally. I 
don't think there is any enthusiasm for such an effort in the Congress 
or in the U.S. military.
    Do you have a view on whether the United States should provide 
assistance for counterinsurgency in Colombia?
    Answer: I believe that should be decided and justified on its own. 
I do not have a considered view on that matter.

    Question 33: In recent years, U.S. law enforcement have been wary 
of sharing intelligence information with their Mexican counterparts. 
Gaining the trust of U.S. law enforcement will be a slow process, but 
the Fox administration seems to be off to a good start.
    Last April, Mexican National Security Advisor Adolfo Aguilar Zinser 
met with Attorney General Ashcroft to discuss the United States being 
able to conduct security checks on their Mexican counterparts. Aguilar 
Zinser has suggested that there should be cooperative security 
clearances so that ``if they fool us, they fool all of us.''
    What are your thoughts regarding sharing of intelligence with 
Mexican police?
    Answer: We all want the best possible working relationship with 
Mexico and President Fox on matters of drug control. In announcing my 
nomination, President Bush stated that his administration will continue 
to work with nations to eradicate drugs at their source and enforce our 
borders to stop the flow of drugs into the U.S. He added that this 
makes working in close cooperation with Mexico a priority. The key to 
stopping flow is the disruption of major drug trafficking organizations 
and in order to accomplish this objective we need improved law 
enforcement information sharing with Mexico. It is clear that to work 
together in all important respects, we need to share sensitive 
information and to do so responsibly we will have to make successful 
steps that build confidence and solve the problems that inevitably 
arise in such a process, whether it involves two countries or two 
agencies. I do not know the specifics of the Mexican National Security 
Advisor's proposal, but I will seek to become better informed about it 
and any related proposals and plans if confirmed. I would hesitate to 
make pronouncements at this juncture that might affect the tactical 
activities of U.S. law enforcement.
    What kind of a role do you think the U.S. should play in conducting 
background checks for vetted law enforcement units?
    Answer: I am not an expert on the specifics of background checks 
although I know such checks are crucial to national security and law 
enforcement management in this country and that we help allies conduct 
them and train their personnel to do so. I support such measures that 
can help build trust among law enforcement agencies of both countries 
and protect judges and other foreign government personnel crucial to 
building and protecting democratic institutions and rule of law.

    Question 34: President Fox has recently extradited several Mexican 
nationals wanted in the United States on drug trafficking charges-
including Kitti Paez who is thought to be a member of the 10-person 
``Board of Directors'' for the Tijuana-based Arrellano-Felix 
organization. Historically, Mexico has not often extradited its own 
citizens-none before 1995 and only 11 before the beginning of the Fox 
Administration.
    In January, the Mexican Supreme Court handed down a precedent-
setting decision allowing the extradition of Mexican nationals.
    What--specifically--would you do to maintain this new level of 
cooperation with the Mexican government?
    Answer: If confirmed, I would like to support the new level of 
cooperation by keeping our two countries engaged on the broadest scale. 
In addition to fostering law enforcement and interdiction efforts, I 
would work to continue cooperation in reducing the demand for drugs in 
both countries. In this regard the fourth U.S.Mexico Demand Reduction 
Conference will be held in Mexico City in mid-November. I will 
seriously consider making this my first foreign trip. In addition to 
participating in the conference itself, the trip will give me an 
important opportunity to engage senior GOM drug policy officials. I 
believe this will provide a very useful context to enhance the mutual 
effectiveness of our work against major drug trafficking organizations.

    Question 35: As you know, since the mid-1980s we have had a process 
in place by which the President annually ``certifies'' the counter-
narcotics performance of other nations. I had a part in drafting this 
statute. It hasn't been perfect, but it has succeeded in getting the 
attention of foreign governments and the State Department.
    Last spring, the Foreign Relations Committee unanimously approved a 
bill sponsored by Senator Dodd to modify the process--on a temporary 
basis of three years. Under this bill, the President would 
``decertify'' those not living up to their commitments; the process of 
giving a formal grade of ``certification'' would end.
    What are your current views on the certification process and on the 
modification set forth in the Dodd bill?
    Answer: I have testified in support of the certification process in 
the past because I found it to be an important means of maintaining 
accountability in our foreign drug control efforts. I believe the 
statutory language which mandates that the executive branch certify 
annually that a country is taking ``adequate steps'' to combat drug 
trafficking is reasonable and reflects and important standard for 
maintaining support for the costs and risks of many of our programs in 
this area. I also think it is prudent for the certification process to 
include the current waiver so that in the event that the ``adequate 
steps'' requirement is not met, the secretary of state, as delegated by 
the President, may issue a national interest waiver holding sanctions 
in abeyance while still being candid about the limitations of a 
country's efforts.
    I also recognize that the certification process is intended to be a 
tool to help us achieve the best results from our international 
programs and policies. In this regard, I support the President's effort 
to work with Congress, including Senator Dodd and yourself, to make 
adjustments to the certification process to foster greater cooperation 
between Mexico and the United States on drug control efforts. If 
confirmed, I would like to have the opportunity to review the current 
situation and discuss with you, and other leaders in the Congress, and 
the key officials in the Administration the range of options in this 
area before stating a final conclusion.

    Question 36: As you probably know, the provision of U.S. 
intelligence for air interdiction to the governments of Peru and 
Colombia has been suspended since the fatal accident last spring in 
which a plane carrying U.S. missionaries was erroneously shot down 
after being suspected of carrying narcotics. The joint U.S.-Peruvian 
investigation of this accident revealed a tragedy of errors, including 
serious communication problems--both in terms of language (the key 
Peruvian on the tracking plane did not speak English) and in 
communications equipment.
    The Administration is still reviewing a separate report prepared by 
former U.S. Ambassador Morris Busby which assessed whether the program 
should be resumed.
    Do you have any views on whether this program should be resumed?
    Answer: I do not have settled views prior to discussing this issue 
with the knowledgeable executive and congressional individuals and 
reviewing the report of Ambassador Busby, if confirmed.

    Question 37: There has long been a debate in drug policy about the 
efficacy of source country programs and interdiction programs. The 
argument, by the economists at least, is that it is not cost efficient 
to devote significant resources to these programs, given the low prices 
of the products at that stage of the drug trade.
    There are reasons to conduct these programs other than economic 
efficiency--they do raise the cost of doing business and they also 
support foreign governments which are under siege. But the economists 
may not be completely wrong--there may be a point of diminishing 
returns in these types of programs.
    We devote a lot of money to the drug budget, but we don't have a 
lot of excess federal dollars to spend.
    What do you think is the appropriate amount of resources that we 
should spend--in terms of percentage--on interdiction and source 
country programs? Have your views changed as you have looked at these 
programs?
    Answer: My views on appropriate levels of spending for interdiction 
and source-country programs have changed over time, but they have 
changed in regard to the results produced by particular programs and 
their value in relation to the other programs they are in direct 
competition with for funding. We need programs here--as in all areas of 
drug control policy that work in reducing the use of illegal drugs. I 
favor rigorous evaluation of supply reduction programs and have worked 
to improve such measures in the past. If confirmed, I would review 
these programs with these criteria in mind.

                                <F-dash>

Responses of John P. Walters to questions submitted by Senator Bingaman

    Question: In September 2000, General Barry McCaffrey released a new 
organizational plan for the Southwest Border (SWB) HIDTA, redefining 
the current structure and consolidating authority for the SWB H1DTA in 
an executive committee based in El Paso, Texas. Currently, the SWB 
HIDTA functions as five partnerships--New Mexico, Arizona, California, 
West Texas, and East Texas--with administrative oversight based in San 
Diego. I am concerned that ONDCP's September 2000 plan would result in 
a considerable loss of autonomy and representation for my state of New 
Mexico.
    Under this plan, the Executive Committee ``shall be comprised of an 
equal number of state/local and federal law enforcement members with a 
minimum of 16 and a maximum of 20 members with voting authority.'' No 
mention is made of state distribution on the Executive Committee. For a 
small state such as mine, I find this troublesome.
    Moreover, the five current Regional Executive Committees ``shall be 
reconstituted as State Advisory Boards. . .representing the Southwest 
border designated HIDTA counties within the state of California, 
Arizona, New Mexico, and Texas.'' No mention is made of what purpose or 
authority these Boards would have relative to the newly comprised 
Executive Committee.
    Mr. Walters, how will you address these concerns that I have 
raised? What are your intentions with regard to the organization of the 
Southwest Border HIDTA? What steps will you take to ensure that the 
State of New Mexico continues to have a considerable voice in decisions 
affecting New Mexico HIDTA counties?
    Answer: I believe the most essential element of the HIDTA program 
is the collaborative management structure it can provide to Federal, 
State, and local authorities. This was a hallmark of the program when 
we launched it when I last served at ONDCP and we worked diligently to 
nurture that feature. The goal of the program is to create a genuine 
team effort and I recognize that this cannot be accomplished with 
uneven or token involvement by some participants. My past experience 
has been that the sheer size and the number of jurisdictions involved 
makes the Southwest Border HIDTA both unique and crucial to our drug 
control objectives.
    I understand the concerns you express and I would propose to 
address them by first meeting with the authorities in New Mexico and 
the others involved in the management of the Southwest Border HIDTA, if 
confirmed. My preference will always be to resolve such issues promptly 
and directly with the concerned parties.

                                <F-dash>

  Responses of John Walters to questions submitted by Senator Cantwell

    Question 1: At your confirmation hearing you expressed your support 
for the autonomy of successful regional and local programs. If 
confirmed, will you remain committed to structure that gives the local 
board of the High Intensity Drug Trafficking Areas (HIDTA) discretion 
over the use of those funds?
    Answer: Although I have not had an opportunity to meet with the key 
members of the HIDTA community, if confirmed, my inclination would be 
to keep the active state and local management participation as 
reflected in the program.

    Question 2: In my home state of Washington, we have seen an 
enormous explosion in the production and use of methamphetamine 
throughout the state. While we are fortunate to have the Northwest 
HIDTA to aid our local law enforcement communities in the fight against 
meth, the Northwest HIDTA currently includes only nine counties in 
Washington, and does not include the heavily affected counties in the 
eastern and southwest part of the state. The board of Northwest HIDTA 
is committed to expanding the HIDTA to include counties that meet 
specified criteria but is reluctant to increase the number of counties 
if they do not receive a comparable level of increased funding from 
ONDCP.
    As Director of ONDCP would you support an increase of funding for 
Northwest HIDTA that allows for the inclusion of counties with a 
demonstrated methamphetamine problem without a corresponding cut in the 
existing programs?
    Answer: I think an important strength of the HIDTA program is its 
ability to adapt to needs in the states and regions. If confirmed, I 
would like to discuss the issues you raise with the Northwest HIDTA 
board and others directly involved in the program. I would be inclined 
to help under the circumstances you describe, if the resources are 
available.

    Question 3: Northwest ROTA is unique because it is one of only two 
HIDTAs nationwide that incorporates a prevention and treatment 
component that is closely tied to the criminal justice mission of the 
HIDTA. The funding for the treatment and prevention components is 
limited to $1 million, pursuant to the FY 2000 Treasury Postal 
Appropriations report and ONDCP policy, and the monies are used to fund 
drug courts and to provide community prevention funding in conjunction 
with the local police departments. Assuming that the board of Northwest 
HIDTA continues to determine that these funds are best used for 
prevention and treatment purposes, would you maintain the current ONDCP 
policy of allowing $1 million to be used for these purposes?
    Answer: If confirmed, I would like to have an opportunity to review 
the work of the Northwest HIDTA with the board, and the community 
affected by its work. It
    has been my experience that programs designed to respect local 
authority and management are best preserved by including local and 
regional authorities in decisions regarding their work. My inclination 
would be to maintain current practice, however.

    Question 4: During your nomination hearing, a study by The National 
Center for Addiction and Substance Abuse at Columbia was referenced. 
That study found that eighth graders living in rural America are 104 
percent likelier to use amphetamines, including methamphetamine, 83 
percent more likely to smoke crack cocaine, and 34 percent more likely 
to smoke marijuana, than eighth graders living in urban areas. As 
Director of ONDCP, what specific efforts would you undertake to address 
the growing problem of drug use, particularly juvenile drug use, in 
rural communities?
    Answer: I think we can best meet the needs of rural areas by 
ensuring that our programs for prevention, treatment, and law 
enforcement are designed and managed with an awareness of those needs. 
From community coalitions, to school-based prevention programs, to 
meeting the treatment needs of rural communities, to providing law 
enforcement help that is adapted to rural circumstances, all of these 
programs provide some resources to rural America. If confirmed, I would 
like to work with appropriate Federal, State, and local authorities to 
make the assistance better match the need.

    Question 5: During your hearing you voiced support for the use of 
drug courts. In my state we have also begun to use comparable mental 
health courts. Do you also support the use of mental health courts as a 
means of dealing more appropriately with the vast number of mentally 
ill prisoners who are not currently receiving treatment?
    Answer: I am not familiar with mental health courts, but given what 
I know about the role of mental health problems among those individuals 
entering the criminal justice system and the way drug courts can help 
such individuals with drug addiction problems, I can see the promise in 
this approach. If confirmed, I would like to meet with some of those 
working in this effort and perhaps have them discuss their work with 
more of the ONDCP and federal program staff in other agencies.

    Question 6: In the past, you have strongly asserted the view that 
drug use and crime are largely a result of diminished traditional 
values in society.
    a. Do you continue to believe that diminished traditional values 
are a root cause of the drug problem?
    Answer: I believe the arguments against illegal drug use that must 
be the foundation of our prevention and treatment efforts can be 
supported by traditional views of right and wrong, of acceptable and 
harmful, but I also believe those arguments can stand on their own. I 
do not believe that drug control policy should be used as a vehicle to 
enforce traditional opinions and I know that many, many Americans 
holding diverse and untraditional views are opposed to drug use.
    b. What specifically do you suggest that parents do to protect 
their children from drugs?
    Answer: Be a good example. Be a good teacher and tell children that 
drug use is wrong and harmful, and why. Help children find constructive 
and healthy activities in which they can grow and learn. Ensure that 
children and young people are supervised by responsible adults, even 
when they sometimes resist such supervision. Make the effort to learn 
about the nature of drug problems in your child's school and the other 
parts of the community from which your child could face this threat. 
Help support community anti-drug efforts.

                                <F-dash>

 Responses of John P. Walters to questions submitted by Senator Durbin

    Question 1: When he nominated you to become Director of the ONDCP, 
President Bush stated that ``the most effective way to reduce the 
supply of drugs in America is to reduce the demand for drugs in 
America.'' In the past, you have taken the opposite view-that the key 
to solving the drug crisis lies in targeting drug suppliers. I believe 
you wrote: ``[T]he only way of reaching the vast majority of heavy drug 
users is to drive up the price of drugs. Addicts can only beg, borrow 
and steal so much.'' Since you have pledged to support the President's 
approach, please describe the evolution in your thinking.
    Answer: The article to which you refer, ``Destroyed by Drugs,'' was 
written in response to a report indicating a mounting number of drug-
related overdoses during 1995. The full quotation reads as follows: 
``For most addicts, the only hope of recovery is detox?. followed by 
repeated stays in a treatment facility. Some, sucked into the criminal 
justice system, can be coerced into treatment. But the only way of 
reaching the vast majority of heavy drug users is to drive up the price 
of drugs. Addicts can only beg, borrow and steal so much. Making drugs 
expensive forces addicts to spend their limited disposable income on a 
smaller quantity of drugs.'' I believe that to be an accurate 
statement. The article scored the ``Clinton Administration's imbalanced 
drug policy'' because of a reduction in the nation's interdiction 
structure, not because of an increase in treatment spending.
    I have long supported a balanced strategy involving drug treatment, 
prevention efforts, as well as enforcement and interdiction. My views 
on the subject are perhaps best summed up in the introduction to the 
1990 National Drug Control Strategy, which I helped write, and which 
stated, in part, that:
    For reasons both political and institutional, much public 
discussion has been bedeviled by a persistent but sterile debate over 
``supply'' versus ``demand'' solutions. But to repeat what we have been 
saying for almost a year, the reality of the drug problem cannot be met 
through an exclusive ``law enforcement'' strategy on the one hand, or a 
``prevention and treatment'' strategy on the other. Most Americans 
recognize by now that we need both approaches. An effective criminal 
justice policy needs a good treatment policy; a successful treatment 
system is hampered by the easy availability of drugs and will 
ultimately be overwhelmed without a good prevention program; and good 
prevention programs are harder to carry out absent vigorous efforts 
directed at international and domestic drug traffickers who are largely 
responsible for making drugs so ubiquitous in the first place.

    Question 2: In your written statement to the Committee, you spoke 
of ``the history of strong bipartisan commitment to our shared national 
goal of reducing drug use'' and the need to ``transcend traditional 
political and party boundaries.'' I could not agree more with these 
sentiments. I am troubled, however, by your record of frequent partisan 
attacks against the last presidential administration. Please describe 
the steps you have taken over the last eight years to transcend 
traditional political boundaries and support the Clinton 
Administration's anti-drug programs. How do you reconcile these efforts 
with the substance and tone of your public commentary during this time 
period?
    Answer: I have long believed that drug policy is an issue that 
knows no party affiliation
    and which, in fact, is harmed by any attempt to align it with a 
particular party or interest.
    I believe that there are serious students of drug policy in both 
houses and on both sides of the aisle, including Senators Biden, 
Feinstein, Grassley, Dewine, and Kyl, and Representatives Gilman, 
Portman, Rangel, and Levin, to name just a few. These are people who 
tend to agree on many matters including, with evident differences in 
emphasis, the need to pursue a strategy that addresses all aspects of 
this multi dimensional problem. With regard to the Clinton 
Administration, I should note that, particularly during his first term 
of office, I was joined in some of my criticisms by Members on both 
sides of the aisle.

    Question 3: I take you at your word that, if confirmed, you would 
support drug treatment efforts. At your hearing, you repeatedly lauded 
the President's commitment of $1.6 billion to close the ``treatment 
gap.'' But the job of ``Drug Czar'' goes well beyond doling out federal 
funds. As you know, the Director of ONDCP must employ diplomatic skill 
and moral persuasion to coordinate the anti-drug efforts of numerous 
federal and state agencies and not-for-profit institutions. I am 
concerned that some of your statements in the past have alienated 
leaders in the drug prevention and treatment community. For example, 
you have derided the ``notoriously under-performing drug-treatment 
system'' and described the ``therapy-only lobby'' as ``more dogmatic 
than ever.'' It does not come as a surprise to me that many proponents 
of drug treatment programs have written the Committee to oppose your 
nomination. Can you be an effective ``Drug Czar'' without the 
confidence of the drug treatment community? If confirmed, what steps 
would you take to heal the rift with those who promote drug treatment?
    Answer: I am grateful for the many treatment and prevention groups 
that supported me and even sent representatives to be at my 
confirmation hearing. They include Dick Bonnette, (Partnership for a 
Drug-Free America), General Arthur Dean and Sue Thau (Community Anti-
Drug Coalitions of America), Melody Heaps (Treatment Alternatives for 
Safer Communities), John Avery (NAADAC), Jennifer Collier (Legal Action 
Center), Linda Wolf Jones (Therapeutic Communities of America), Mark 
Parrino (American Methadone Treatment Association), Judge Karen 
Freeman-Williams (National Association of Drug Court Professionals), 
Betty Sembler and Calvina Fay (Drug-Free America Foundation), Judy 
Cushing, (Oregon Family Partnership), and Henry Lozano, of Californians 
for Drug-free Youth. In addition, to the extent that there has been 
criticism of my record from actual treatment providers and 
associations, I would seek to address that by correcting the record, 
and which has been one of strong support for drug treatment, fighting 
for increases in the treatment budget, and supporting improvements both 
in how we evaluate the effectiveness of our treatment programs and how 
we target needed expansions in treatment capacity.

    Question 4: As we discussed at your hearing, I believe that one of 
the greatest challenges confronting law enforcement today is restoring 
trust and confidence in minority communities. Whether intentional or 
not, the nation's prosecution of the so-called War on Drugs has 
disproportionably targeted racial and ethnic minorities. Consider the 
following statistics from the Substance Abuse and Mental Health 
Services Administration and the Department of Justice: African 
Americans represent 12% of the U.S. population, only 11% of current 
drug users, but 35% of those arrested for drug violations, 53% of those 
convicted in state courts for drug felonies, and 58% of those serving 
time for drug offenses in state prisons. Please explain in greater 
detail why you believe it is a ``great urban myth'' that ``the criminal 
justice system is unjustly punishing black men''? Why do you think that 
people of color are disproportionably represented among arrestees, 
convicts, and prisoners for drug crimes, when whites use illegal 
narcotics at roughly the same rates? Do you believe that the practice 
of racial profiling is an urban myth?
    Answer: I agree entirely with your statement about the importance 
of restoring trust and confidence in minority communities. Clearly, the 
government must create and administer laws in a fair and equitable 
fashion, but it is equally important that the laws be seen as fair by 
our citizens. I have stated my intention to conduct a review, working 
in close consultation with the Attorney General, of the current 
sentencing structure as relates to illegal drugs. In such an 
examination I also believe we should consider those who are the victims 
of criminal acts. In the same Weekly Standard article you cite above, I 
also wrote: ``In 1998, of the 7,276 murders in the United States that 
involved a single offender and a single victim, 5,133 of the victims 
were male and 3,309 were black. According to the FBI, 3,565 of the 
offenders in these murder cases were black, and 3,067 of the murders 
involved both a black victim and a black offender. In 1998, black males 
between the ages of 14 and 17 were almost six times more likely than 
white males to be victims of murder or non-negligent manslaughter; 
black males between 18 and 24 were over eight times more likely to be 
victims; and for those 25 and over, black males were murder victims at 
a rate 7.6 times that of white males.''
    As I sought to explain during the hearing, I believe we should work 
to reduce crime, drug use, and addiction as the best way to help reduce 
the number of individuals who enter the criminal justice system and the 
number who enter prison. I have spent a significant portion of my time 
while working at the Philanthropy Roundtable helping foundations and 
donors better support not only for drug prevention and treatment 
programs, but the range of assistance to help disadvantaged communities 
improve schools, job training, housing, healthcare, and other elements 
necessary to stabilize neighborhoods and break the cycles of crime and 
addiction.
    With regard to your question about urban myths, with all due regard 
for the data and claims that have been advanced on various sides of 
this issue, I am not of the view that the U.S. Government, Federal, 
State, or local, is locking up innocent people for drug crimes in 
significant numbers. I believe that our system is weighted toward 
avoiding wrongful convictions, and I hope that continues to be the 
case. I think most Americans believe in second and third chances, and 
most are profoundly sad at the waste of human potential when a person 
of any race is sent to prison for wrongdoing. I also believe that 
appropriate prison sentences can serve the greater societal purpose of 
punishment and incapacitation. I believe we must continually strive to 
balance these aims and insure that our laws and policies are just.

    Question 5: At your hearing, you expressed a willingness to 
reconsider the stark disparity between criminal punishments for the 
possession of crack and powder cocaine, a disparity which adversely and 
disproportionably affects racial minorities. Under federal law, those 
convicted of possessing only five grams of crack receive a mandatory 
five-year minimum sentence of imprisonment, while it takes 100 times as 
much powder cocaine to yield the same punishment. How will you go about 
reexamining this issue? Will you make a formal recommendation to the 
Congress? Will you make a commitment that, if confirmed, you will 
return to the Committee and explain your new conclusions?
    Answer: As I testified before the Committee, and as you are aware, 
the Congress created the current sentencing structure in response to 
the urban crack cocaine epidemic that was blamed for stimulating inner-
city violence and crime. The differential reflected the greater 
addictive potential of crack when compared to powder cocaine, the 
greater violence associated with the trafficking of crack, and the 
importance of targeting mid- and higher-level traffickers as opposed to 
smaller-scale dealers.
    I do recognize that the sentencing structure has fostered among 
some a perception of racial injustice within the criminal system. 
Clearly, the government must create and administer laws in a fair and 
equitable fashion, but it is equally important that the laws be seen as 
fair by the citizens.
    If confirmed, I would certainly work with the Department of Justice 
to review the current drug-related sentencing structure to ensure that 
it is fair and just. Before that review and broader consultations with 
knowledgeable and affected parties is complete, it would be premature 
to indicate either the nature of any recommendation and who in the Bush 
Administration would be charged with delivering it.

    Question 6: I am pleased you are now open to reducing the crack 
cocaine/powder cocaine sentencing disparity, especially because you 
have said in the past that it was ``irresponsible'' for the nonpartisan 
federal Sentencing Commission to make such a recommendation. You have 
denied undergoing what is known as a ``confirmation conversion.'' What, 
then, accounts for your change in position? Why did you think it was 
not only wrong headed but irresponsible for the Commission in the mid-
1990s to make its recommendation? Why are you open to that 
recommendation now?
    Answer: My comments above should be understood in light of my 
belief that it should be Congress' prerogative to determine whether or 
not proposed changes implicating mandatory minimum sentences should 
made by the Commission. Simply as a matter of good government, I am 
concerned at the potential for disruption that can occur when the 
Sentencing Commission passes a guidelines amendment that conflicts with 
a statutory mandatory minimum, since Sentencing Commission amendments 
take effect automatically after six months, unless blocked by Act of 
Congress. Indeed, the quotation you referenced continues that ``the 
Commission should be barred from proposing changes in criminal 
penalties where Congress has established mandatory minimum sentences, 
except in an advisory format that would require affirmative 
congressional action before taking effect.''

    Question 7: You had the opportunity during the last Bush 
administration to work in ONDCP with Judge Reggie Walton, a well-
respected jurist who was recently confirmed to the federal district 
court in the District of Columbia. As you know, Judge Walton was 
arrested several times as a teenager, and he has used his experiences 
to speak extensively about the need for rehabilitating juvenile 
offenders. You are on record in support of stringent mandatory minimum 
prison sentences, which have subjected youthful offenders, many of them 
only marginally involved in nonviolent drug transactions, to years and 
years of incarceration. You also have written that the principal aim of 
punishment should be to ``exact a price for transgressing the rights of 
others.'' How do you reconcile these positions with the life 
experiences and views expressed by Judge Walton?
    Answer: I had the privilege of working with Judge Walton, a fine 
public servant and a man who I am pleased to see has recently been 
confirmed for a federal district court judgeship. I visited him several 
weeks ago, before his confirmation, and spent time observing the 
juvenile-drug court that was a part of his calendar. His work there was 
impressive and based on strict supervision and prompt rewards for 
carrying out the directives of the court and prompt sanctions for 
failing to do so. Judge Walton was considered by many to be a tough 
judge and one who is on record as supporting tougher penalties for drug 
dealers and violent criminals alike. It goes without saying that 
justice must be tempered with mercy, which is why youthful offenders 
get the benefit of special sentencing and (where indicated) prison 
arrangements. I also believe that serious crime fighting approaches, 
which have had punishment and incapacitation as their principal aims, 
have contributed greatly to the sizeable reductions in violent crime we 
have seen over the past decade.

    Question 8: You are on record as opposing needle exchange programs, 
even on an experimental level, to combat the spread of HIV. You are 
also a strong proponent of federalism and limits on congressional 
power. As Director of ONDCP, would you act to restrict state and local 
authority to experiment with needle exchange programs? Would you use 
your office as a ``bully pulpit'' to campaign against such programs? 
Would you interfere with needle exchanges in the District of Columbia? 
Why or why not?
    Answer: The transmission of HIV/AIDS and Hepatitis C through 
intravenous drug use is certainly a serious problem, and is of course 
one of the dangerous and deadly consequences of IV drug use. Needle 
exchange programs have been and are likely to remain controversial, yet 
we can all agree that effective treatment and support that protect the 
IV drug user not only from disease but also from all the other 
consequences of drug use, is the place to put our effort. Certainly 
various locales and programs will continue with needle exchange 
programs, and I plan to carefully monitor and evaluate their 
effectiveness. I would prefer to focus Federal resources on outreach 
and treatment, because they best address the full range of problems 
facing IV drug users and those around them.

    Question 9: In 1996, you advocated for greater American involvement 
in the efforts of the Peruvian military to shoot down airplanes 
suspected of drug trafficking--the same efforts that resulted in the 
tragic death of an American missionary and her daughter this April. You 
wrote: ``This is an opportunity to save American lives by helping the 
Peruvians press their attack on traffickers.'' What lessons should we 
draw from the recent incident? Do you still believe that America should 
provide logistical support to Peru's program?
    Answer: Clearly, the situation on the ground in Peru (and Colombia, 
and Latin America in general) has changed considerably since I was in 
office, and if confirmed, I would plan to consult extensively with 
interested parties in the executive branch, the Congress, and outside 
of government to develop plans and budgets for the future of our 
international drug control program. My intention would be to conduct a 
thorough review of these programs. Prior to the conclusion of such a 
review, I do not have settled views on the shape and direction of our 
future policy with regard to Peru. With regard to the questions of what 
lessons to draw, I am not privy to any of the internal intelligence or 
deliberations of the Department of State team investigating the 
accident, and I await along with everyone else the findings of 
Ambassador Busby's inquiry in the causes of the incident. Based on what 
has been in the press, it appears that the flaw in the Peru operation 
was less in the agreed-upon procedures than in the failure to follow 
those procedures. I would conclude from the tragic events in Peru that 
continued, strong oversight of our foreign programs is vital to the 
continued success of those programs and to the political support that 
makes them possible.

    Question 10: Many people, including Former Attorney General Janet 
Reno, have advocated the creation of specialized drug courts for 
addicts. What are your views on drug courts? As head of the ONDCP, 
would you sponsor or support efforts to experiment with drug courts, at 
the federal or local level?
    Answer: I support making a strong commitment to funding Drug Court 
programs, with a focus on the State and local level. I am not aware of 
Drug Court programs that operate at the Federal level, but I intend to 
look into this matter if confirmed.

    Question 11: Last term, the Supreme Court ruled that the Fourth 
Amendment prohibits law enforcement from using thermal imaging devices 
to search for heat emissions from marijuana lamps, absent 
individualized suspicion. Do you agree with that decision, as a 
constitutional or a policy matter? How do you believe we as a nation 
should balance advances in law enforcement technology with the civil 
liberties of citizens?
    Answer: I am generally familiar with the Kyllo case, but would want 
to consult with relevant officials both inside ONDCP and at the 
Department of Justice before offering an opinion on this matter. I am 
not of the view that many investigative techniques of Federal law 
enforcement agencies inherently conflict with the civil liberties of 
citizens, but when an investigative technique does implicate a privacy 
interest, as is in the case with telephone wiretaps, the Congress has 
always been quick to establish a principled basis, guided by the Fourth 
Amendment and the way Supreme Court decisions have construed it, for 
ensuring that the use of the technique is strictly limited to 
appropriate instances.

    Question 12: Many people, including prominent conservatives like 
Congressman Henry Hyde, have taken the position that our asset 
forfeiture laws expand federal power at the expense of civil liberties. 
For instance, the standard of proof in civil forfeiture cases is 
considerably less stringent than the ``beyond a reasonable doubt'' 
threshold, and the government often seizes property without bringing 
criminal charges against the owner. Do you think our forfeiture laws 
need reform? What recommendations for reform, if any, do you support?
    Answer: Asset forfeiture laws are an indispensable tool in the 
effort to go after drug traffickers. One problem with regard to asset 
forfeiture laws has been the amount of misinformation suggesting that 
the Federal government seizes yachts as a result of finding a small 
amount of marijuana onboard. As you know, Federal agencies are not 
supposed to seize private property unless it is an instrumentality or 
proceeds of an illegal act, a standard that strikes me as reasonable. 
You are correct to note Congressman Hyde has expressed concerns about 
civil forfeiture. In the context of those concerns, then Chairman Hyde 
proposed, and the Congress passed, legislation raising the standard of 
proof required to effect an asset forfeiture, from one of ``probable 
cause'' to ``preponderance of the evidence,'' and placing the burden of 
proof on the government, not the defendant. I support those changes.

    Question 13: Recently, federal and local authorities have detected 
a disturbing rise in the non medicinal use of the prescription drug 
Oxycontin. According to data from the Department of Health and Human 
Services, abuse of Oxycontin rose over 80% between 1999 and 2000 alone. 
How do you propose combating the abuse of Oxycontin and other legal 
narcotics? What lessons should we draw from the rise of Oxycontin as an 
illicit substance?
    Answer: The growing abuse of Oxycontin is a disturbing trend and 
one that demands special attention. If confirmed, I plan to work with 
interested parties within the Department of Justice, the Food and Drug 
Administration, and the pharmaceutical industry, to seek to craft a 
solution that balances the legitimate need of patients to receive 
palliative care and the need to restrict the diversion of an important 
medication that, used inappropriately, is both dangerous and addictive.

                                <F-dash>

Responses of John P. Walters to questions submitted by Senator Feingold

    Question 1: You have been someone who has advocated strong criminal 
enforcement and supply interdiction efforts and downplayed the 
essential role of treatment programs. Yet, the President, the DEA 
Administrator Mr. Hutchinson, and Senate leaders are heading in a 
different direction. In fact, in President Bush's remarks announcing 
your nomination on May 10th, he essentially said that addressing demand 
should be our paramount concern. President Bush said:
    My administration will continue to work with nations to eradicate 
drugs at their source, and enforce our borders to stop the flow of 
drugs into America. . . .However, the most effective way to reduce the 
supply of drugs in America is to reduce the demand for drugs in 
America. Therefore, this administration will focus unprecedented 
attention on the demand side of the problem.
    President Bush continued by pledging $1.6 billion over the next 
five years for drug treatment and by asking Secretary Tommy Thompson to 
conduct a state-by-state inventory of treatment needs and report back 
to the President on how to close the treatment gap in the country most 
effectively.
    (a) Given your longstanding commitment to supply interdiction and 
law enforcement over treatment and prevention, how would you, if 
confirmed as Director, reconcile your views with the President's pledge 
to give priority attention to demand reduction? Would you seek to 
persuade him to adopt your ideas or would you simply carry out the 
President's plan?
    Answer: I am and I have long been an ardent supporter of effective 
drug treatment. During my first tenure at ONDCP, I oversaw tremendous 
growth of the drug treatment budget, including the creation of the 
Targeted Capacity Expansion Program that remains a critical component 
of our treatment infrastructure. In addition, I highlighted drug--
treatment as a fundamental component when I helped draft the first 
National Drug Control Strategy. More recently, I have spoken with 
experts in the field such as Mark Parrino, Dr. Robert DuPont, Dr. 
Andrea Barthwell, and Dr. Herb Kleber. I look forward to reviewing the 
report President Bush directed Secretary Thompson to deliver concerning 
the areas of specific need for additional treatment services in America 
to assess our progress and understand what remains to be accomplished. 
While not prejudging the results of that review, areas where 
improvement may be warranted include making available the proper 
treatment modality to the individual in need, making available 
appropriate service linkages, and making available an adequate 
aftercare component.
    As I stated in my testimony before the Committee, if confirmed, I 
will seek to highlight the importance of a balanced strategy for 
reducing our nation's dependence on illegal drugs. My views on the 
subject are perhaps best summed up in the introduction to the 1990 
National Drug Control Strategy, which I helped write, and which stated, 
in part, that:
    For reasons both political and institutional, much public 
discussion has been bedeviled by a persistent but sterile debate over 
``supply'' versus ``demand'' solutions. But to repeat what we have been 
saying for almost a year, the reality of the drug problem cannot be met 
through an exclusive ``law enforcement'' strategy on the one hand, or a 
``prevention and treatment'' strategy on the other. Most Americans 
recognize by now that we need both approaches. An effective criminal 
justice policy needs a good treatment policy; a successful treatment 
system is hampered by the easy availability of drugs and will 
ultimately be overwhelmed without a good prevention program; and good 
prevention programs are harder to carry out absent vigorous efforts 
directed at international and domestic drug traffickers who are largely 
responsible for making drugs so ubiquitous in the first place.
    (b) Can you assure this Committee that, if confirmed, you would 
fully endorse the President's pledge to increase attention to demand 
reduction?
    Answer: Yes, I will.

    Question 2: I believe it is time for a review of our federal 
mandatory minimum sentencing laws, which, in some cases, have resulted 
in unjust punishment of non-violent drug offenders. There are currently 
over 450,000 non-violent drug offenders serving time in a federal, 
state or local prison, accounting for almost one-fourth of all inmates. 
Almost 80% of drug arrests in 1998 were for possession-not sale or 
manufacture, but possession-of a controlled substance. In 1997, the 
average federal sentence for a drug offense was 78 months, over twice 
the average sentence for manslaughter (30 months) and almost four times 
the average sentence for auto theft (20 months). Possession of crack 
cocaine warrants five years in a federal prison with no possibility of 
parole. How can you criticize those who look at these numbers and pause 
and say that `there is something wrong here, we need a review of these 
mandatory minimum sentencing policies'? How do you justify such 
inequity in our criminal justice system?
    Answer: While I am not of the view that the U.S. Government, 
Federal, State, or local, is locking up innocent people for drug crimes 
in significant numbers, I do recognize that the mandatory minimum 
sentencing structure has fostered among some a perception of racial 
injustice within the criminal system. Clearly, the government must 
create and administer laws in a fair and equitable fashion, but it is 
equally important that the laws be seen as fair by the citizens.
    My understanding of the legislative history is that Congress 
adopted the current twotiered mandatory minimum sentencing structure as 
part of a larger effort both to incapacitate and punish mid- and 
senior-level drug dealers. While I believe that these sentences have 
been in many ways effective, I also recognize that there has been some 
disagreement about their fairness. If I am confirmed as ONDCP director, 
I would initiate a review of mandatory minimum sentences as they relate 
to illegal drugs, working in close consultation with the Attorney 
General. President Bush has expressed his openness to such a review, as 
has Attorney General Ashcroft. It would be my intention to conduct this 
review in consultation with interested parties in the executive branch, 
in Congress, the courts, and in the public.

                                <F-dash>

  Responses of John Walters to questions submitted by Senator Grassley

    Question 1: One of my continuing concerns is to ensure that rural 
communities receive more attention when it comes to resources for 
combating drug use and trafficking. Rural communities share many of the 
same drug use problems as big cities and the suburbs but they don't 
seem to receive much policy attention or resources. I would welcome 
your views on how we can have more effective programs for dealing with 
drug problems in rural communities.
    Answer: The best way to help rural areas derive appropriate 
assistance for the drug problems they face is to ensure they remain 
eligible for support within federal programs and that efforts are made 
to develop and disseminate approaches that are tailored to needs of 
rural areas. I believe the hIIDTA program is an example of assistance 
now provided in a range of settings. Some of the community coalition 
programs also seem to have adapted both support and strategies for 
urban and rural settings. I would like to review this issue more 
systematically with the knowledgeable and interested parties and build 
on the work that has been most successful.

    Question 2: The drug Ecstasy has made frequent headlines the last 
few years. We are now starting to see Raves in Iowa and efforts to 
market this drug to our young people. As Drug Czar, how do you think 
that we can more effectively deal with this type of club drug?
    Answer: Since my nomination I have spoken to many people who are 
particularly alarmed the trends in the use of Ecstasy and some of the 
other club drugs. While I would not make any final decisions prior to 
being able to consult more widely, my initial view is that we need to 
do a better job informing young people and the broader public of the 
dangers many already know are associated with these drugs-we need 
better prevention efforts. We also need to work with local, state, and 
federal officials to reverse the trend of normalizing and accommodating 
such drug use as a regular part of social gatherings in some areas. - 
Finally; I would like to examine what we can do to reduce the trade in 
Ecstasy and related drugs.

    Question 3: I am increasingly concerned that the Department of 
Defense is not pulling its weight on drug issues. One of the most 
important components of that commitment is the support provided by the 
National Guard. Do you support the National Guard's domestic demand 
reduction and interdiction counterdrug programs? Do you think that DOD 
has an active role to play in our national counter drug efforts?
    Answer: When I last served in the drug policy office, we made a 
particular-and successful-effort to expand the role of the Department 
of Defense, including the National Guard, in national drug control 
policy. DOD brings unique skills and resources to the effort and I 
believe we cannot do as good a job in our demand reduction and supply 
reduction goals with them. At this time of new and evolving demands on 
our military in connection with the terrorism, I believe we will need 
to work closely with DOD to help responsibly manage resources in the 
face of multiple threats.

    Question 4: I know that you share congressional concern on the 
current legalization movement in this country. Would you comment on the 
effort to legalized drugs under various guises?
    Answer: I have been a steadfast opponent of drug legalization for 
many years, both while in government and out. I have written and spoken 
on this issue many times. I believe-as do the vast majority of 
Americans-that legalizing drug use would be a disaster for our nation 
and particularly for our young people. This debate has shifted in 
recent years to involve a variety of issues and I believe there is no 
substitute for addressing those issues directly and the underlying goal 
of legalization. One of the prices of the free society we all love is 
that we must be willing to conduct free and open debate on important 
issues in whatever form those issues arise. But here too, I think that 
when the debate is joined and national leaders and others give voice to 
the realities of what legalization would mean-in short, when we push 
back-the legalization movement will recede.

    Question 5: Methamphetamine is a major drug problem, particularly 
in Western and rural States. While there has been talk of a strategy to 
combat this, I do not think a lot has actually been done. What are your 
thoughts on how we need to address meth production and use?
    Answer: I share your concern about the growth of methaphetamine use 
and its trafficking. It would be premature for me to make a judgment on 
the national efforts against this threat, prior to full discussions 
with key people working on the supply and demand side of this problem. 
Nonetheless, I would make such a review a top priority because I share 
your impression that we need to do much more against this threat.

    Question 6: I support the need to reauthorized the Andean Trade 
Preference Act to help the Andean Countries deal with the economic 
problems caused by drug production. Can you comment on your views on 
ATPA?
    Answer: I have long believed that expanding opportunities for 
legitimate trade with the United States is an important tool in working 
with the Andean nations to attack the drug problem, as well as the many 
other interests we have in the region. I believe our goal has always 
been to promote economic development along with democracy, stability, 
and rule of law. The ATPA was helpful in this effort in the past and 
should be in the future.

    Question 7: What is your position on the Tethered Aerostat Radar 
System (TARS)?
    Answer: I have not had direct experience with this program since I 
left government over eight years ago. For this reason I cannot give an 
informed position on the system at the present, but I will look into it 
and discuss it with you if confirmed.

                                <F-dash>

 Responses of John P. Walters to questions submitted by Senator Kennedy

    Question 1: In 1997, you criticized General Barry McCaffrey for 
sending ``the wrong message'' when he expressed concern about the high 
percentage of African Americans being imprisoned for drug offenses. In 
addition to General McCaffrey, many other persons have felt that the 
criminal justice system is unjustly punishing young black men. Yet as 
recently as last March, you called this view one of ``the great urban 
myths of our time.''
    The 2000 National Household Survey of Drug Abuse shows that 
African-Americans and whites use illegal drugs at the same rate. 
Nevertheless, according to a recent report by RAND, while drug-related 
admissions to U.S. prisons by whites increased seven-fold between 1983 
and 1998, admissions by AfricanAmericans increased twenty-six-fold. 
According to the Bureau of Justice Statistics, in 1997 black men 
accounted for half of all state drug prisoners, even though they 
comprised only 4% of the U.S. population. White men comprised 30% of 
the population, but only 16% of state drug prisoners.
    Given these flagrant disparities, how can you be so confident that 
there is no racial bias in the criminal justice system? Shouldn't the 
Director of ONDCP have an open mind about the possibility of racial 
injustice in the criminal justice system?
    Answer: Racial injustice is intolerable and has no place in our 
criminal justice system. I recognize that the statistics you cite 
create an appearance of unfairness, and as I said in my testimony, I 
believe it is critical that we examine the equity and fairness of our 
criminal justice system. I have stated my intention to conduct a 
review, working in close consultation with the Attorney General, of the 
current sentencing structure as relates to illegal drugs. It is my 
intention to conduct this review in consultation with people in 
government and law enforcement, as well as with interested parties and 
experts from outside government.
    In such an examination I also believe we should consider those who 
are the victims of criminal acts. In the same Weekly Standard article 
you cite above, I also wrote: ``In 1998, of the 7,276 murders in the 
United States that involved a single offender and a single victim, 
5,133 of the victims were male and 3,309 were black. According to the 
FBI, 3,565 of the offenders in these murder cases were black, and 3,067 
of the murders involved both a black victim and a black offender. In 
1998, black males between the ages of 14 and 17 were almost six times 
more likely than white males to be victims of murder or non-negligent 
manslaughter; black males between 18 and 24 were over eight times more 
likely to be victims; and for those 25 and over, black males were 
murder victims at a rate 7.6 times that of white males.''
    As I sought to explain during the hearing, I believe we should work 
to reduce crime, drug use, and addiction as the best way to help reduce 
the number of individuals who enter the criminal justice system and the 
number who enter prison. I have spent a significant portion of my time 
while working at the Philanthropy Roundtable helping foundations and 
donors better support not only for drug prevention and treatment 
programs, but the range of assistance to help disadvantaged communities 
improve schools, job training, housing, healthcare, and other elements 
necessary to stabilize neighborhoods and break the cycles of crime and 
addiction.
    With all due regard for the data and claims that have been advanced 
on various sides of this issue, I am not of the view that the U.S. 
Government, Federal, State, or local, is locking up innocent people for 
drug crimes in significant numbers. I believe that our system is 
weighted toward avoiding wrongful convictions, and I hope that 
continues to be the case. I think most Americans believe in second and 
third chances, and most are profoundly sad at the waste of human 
potential when a person of any race is sent to prison for wrongdoing. I 
also believe that appropriate prison sentences can serve the greater 
societal purpose of punishment and incapacitation. I believe we must 
continually strive to balance these aims and insure that our laws and 
policies are just.

    Question 2: There are more than two million people imprisoned in 
the United States. We have 5% of the world population, but 25% of the 
world's prison population. We have the highest per capita incarceration 
rate in the world--five times higher than that of the next highest 
Western nation. Nevertheless, you recently wrote in-the Weekly Standard 
that the war on drugs is losing out to ``the war on punishment and 
prisons.''
    Many experts across the political spectrum are concerned about this 
problem. For example, your one-time co-author and former Bush 
Administration official John DiIulio has written that ``two million 
prisoners are enough.'' He believes that we should ``aim for zero 
prison growth, repeal mandatory-minimum drug laws, release drug-only 
offenders, and mandate drug treatment both behind bars and in the 
community.'' Do you agree or disagree with those recommendations?
    Answer: All Americans lament the wasted potential represented by so 
many of their fellow citizens serving time in prison. But at the same 
time we are obligated to maintain a lawful society and to protect the 
innocent. So as long as people are committing real crimes, it will 
continue to be necessary to incarcerate those who break our laws and 
represent a threat to society. When considering the genuinely troubling 
number of people serving time, it is worth remembering that drug crimes 
are only part of the story. As I wrote in the same Weekly Standard 
article you cite, ``According to the most current data, in 1997 only 
8.8 percent of the 1,046,705 individuals in state prisons were there 
for drug possession. Drug trafficking offenses accounted for 11.3 
percent of those imprisoned; property offenses 22 percent; and violent 
crimes 47.2 percent. Throughout the 1980s and 1990s, violent crimes 
vastly outpaced drug offenses as the cause of the prison population's 
rapid growth. The situation at the federal level is even more lopsided. 
In fiscal year 1999, just 2.2 percent of federal drug convictions were 
for simple possession.'' I agree that it is important to keep reviewing 
the way that law and punishment are working in our society, but I 
believe it is not helpful to simply promise a certain level of 
punishment or imprisonment detached from the level of actual crime.

    Question 3: More than 40,000 people a year become infected with 
HIV, the virus that causes AIDS. Half of all new infections in the 
United States occur among drug users. In addition, approximately 4 
million Americans have been infected with the hepatitis C virus, and 
drug use is responsible for at least 60% of those infections.
    Numerous authorities, including:

        <bullet> the National Academy of Sciences,
        <bullet> the Surgeon General,
        <bullet> the Centers for Disease Control and Prevention,
        <bullet> the American Medical Association,
        <bullet> the Academy of Pediatrics, and
        <bullet> the American Public Health Association

    have concluded that needle-exchange programs reduce the 
transmission of HIV and hepatitis C without encouraging the illegal use 
of drugs.
    In a 1996 article, you endorsed the view that needle-exchange 
programs facilitate drug use and ``undercut[] the credibility of 
society's message that using drugs is illegal and morally wrong.'' You 
wrote that ``emotionalism and junk science'' surrounding the needle-
exchange debate has ``obscured the central fact that there is 
absolutely no hard evidence'' that these programs actually work in 
reducing HIV transmission.
    If you are confirmed, will you now support efforts by state and 
local communities to reduce I-RV and hepatitis C infection through 
needle-exchange programs? Will you support federal funding of such 
programs?
    Answer: The transmission of HIV/AIDS and Hepatitis C through 
intravenous drug use is certainly a serious problem, and is of course 
one of the dangerous and deadly consequences of IV drug use. Needle 
exchange programs have been and are likely to remain controversial, yet 
we can all agree that effective treatment and support that protects IV 
drug users not only from disease but also from all the other 
consequences of drug use is the place to put maximum emphasis. 
Certainly, various locales and programs will continue with needle 
exchange programs, and I plan to carefully monitor and evaluate their 
effectiveness. I would prefer to focus Federal resources on effective 
outreach and treatment because they offer the best means of addressing 
the full range of problems facing IV drug users and those around them.

    Question 4: In 1994, you criticized Attorney General Janet Reno for 
proposing reductions in mandatory-minimum sentences for certain drug 
offenses. Many of the people serving mandatory minimum sentences are 
drug-addicts. Some were convicted of drug possession offenses, while 
many others were convicted of low-level drug sales or non-violent 
property crimes committed in order to pay for their addictions. Are you 
still opposed to efforts to reform federal mandatory-minimum laws?
    Answer: I have stated my intention to conduct a review, working in 
close consultation with the Attorney General, of the current sentencing 
structure as relates to illegal drugs. It is my intention to conduct 
this review in consultation with people in government and law 
enforcement, as well as with interested parties and experts from 
outside government.

    Question 5: In 1996, you co-authored a book titled Body Count. In 
this book, you predicted that the United States was about to suffer a 
``new breed'' of remorseless ``juvenile superpredators.'' Even though 
juvenile crime rates had already begun to decline at that time, you 
wrote: ``Over the next decade or so, the number of young men in the 
population will increase substantially. And a large fraction of boys 
are likely to be raised in circumstances that put them at risk of 
becoming street predators.
    In short, America is a ticking crime bomb. . . .A new generation of 
street criminals is upon us--the youngest, biggest, and baddest 
generation any society has ever known.''
    Your ``juvenile superpredator'' prediction was widely publicized. 
But the rate of violent juvenile crime did not increase during the 
1990's. In fact, arrest rates for young people for homicide, robbery, 
and rape fell dramatically--by more than 70% after 1993.
    One of your co-authors, John DiIulio, has since expressed regret 
about his role in advancing the ``juvenile superpredator'' prediction. 
Do you regret your role?
    Answer: We are all pleased that juvenile crime rates have fallen. 
Of course, there is considerable disagreement about why they have gone 
down, but it seems beyond dispute that some of the factors included 
strengthening punishment of violent crimes by juveniles, increased law 
enforcement presence (supported by additional federal resources), and 
additional programs that divert young people from the paths that lead 
to violent crime and ruined lives, which I discussed in great detail in 
the book I coauthored with John DiIulio and William Bennett. We 
consider Body Count a book about prevention first and foremost, and to 
the extent that it may have provided people with tools to prevent 
crime, that was our foremost hope.

    Question 6: A 1999 report by the National Center for Juvenile 
Justice concluded that all of the increase in homicides by juveniles 
between the mid-1980's and mid-1990's was firearm-related. Similarly, 
the U.S. Surgeon General recently concluded that both the decade-long 
upsurge in homicides and the downward trend from 1993 to 1999 related 
to the use of firearms: ``It is now clear that the violence epidemic 
was caused largely by an upsurge in the use of firearms by young 
people. . . .Today's youth violence is less lethal, largely because of 
a decline in the use of firearms.'' Do you agree or disagree with these 
conclusions?
    Answer: I do not have detailed knowledge of the trends and rates of 
juvenile crime tied specifically to firearms, although I do believe 
that the drop in juvenile crime has many causes, as I detailed above. 
Certainly, keeping guns out of the hands of people who shouldn't have 
them should be a key law enforcement priority.

    Question 7: In a 2001 report on drug policy, the National Academy 
of Sciences found that ``neither the data systems nor the research 
infrastructure needed to assess the effectiveness of drug control 
enforcement policies'' exists. It concluded that it is ``time for the 
federal government to remedy this serious deficiency. It is 
unconscionable for this country to carry out a public policy of this 
magnitude and cost without any way of knowing whether and to what 
extent it is having the desired effect.'' Has this report changed your 
views regarding the effectiveness of federal enforcement and sentencing 
policies? As Director of ONDCP, what steps will you take in response to 
the National Academy's report?
    Answer: I have always believed that we need more precise and timely 
data to more effectively craft drug policy, both with regard to 
controlling demand and controlling supply. It is my intention, if 
confirmed, to take particular care in reviewing the Academy's report, 
which I have read, and to draw upon their expertise and that of other 
experts to create better means of data collection to facilitate more 
effective policy.

    Question 8: RAND's Drug Policy Research Center recently analyzed 
the federal government's increased sanctions and penalties ``applied 
specifically to drug felons in a manner consistent with a view of drug 
use as a moral problem rather than an illness.'' The report concluded:
    These sanctions disproportionately and cumulatively affect minority 
communities. While the effects of these polices are difficult to 
measure directly, it is not difficult to make the case that these 
sanctions serve to damage, rather than enhance, social cohesion in 
minority communities. Patterns of drug conviction and community health 
disparities appear to be mutually reinforcing. Without adequate 
resources to facilitate recovery namely, education, job opportunities, 
access to insurance, health care, housing, and the right to vote--the 
prospect of recidivism becomes more likely for minority drug abusers 
and increases the burden on their communities. We can thus expect the 
factors that fostered drug use in the first place to persist.
    What is your response to this analysis? Do you believe the federal 
government should continue to restrict released drug offenders' access 
to health benefits, housing benefits, access to higher education, and 
the right to vote?
    Answer: One thing that my work as the president of the Philanthropy 
Roundtable has shown me is that law enforcement alone cannot come 
anywhere close to providing everything that we need to provide to those 
communities that have been hardest hit by drug abuse and drug 
trafficking. I do not have a settled opinion regarding the specific 
restrictions you cite for convicted drug offenders, but if confirmed I 
would like to look at these questions in the broad context of an 
overall review, in consultation with interested parties and with 
experts inside and outside government.

    Question 9: In your response to the Committee's questionnaire, you 
stated that during your time at ONDCP during the first Bush 
administration, you were ``a principal author of a new drug strategy 
and federal spending plan that targeted more resources for treatment 
than any administration before or after.'' Isn't it in fact true that 
the Clinton Administration targeted substantially more resources for 
drug treatment than the first Bush Administration did? If you dispute 
this, please provide data in support of your position.
    Answer: My apologies for the confusion in regard to this issue. I 
have attached a table that provides detailed spending information and 
is what I relied on for the budget references in my written testimony 
before the Committee. I certainly recognize that during the eight years 
of the Clinton Administration funding levels devoted to drug treatment 
were higher than during the four years of the Bush Administration in 
which I served. The point I was making, however, was that the rate at 
which treatment spending increased for this important priority was 
significantly higher drug the Bush Administration than in the Clinton 
Administration. As the table indicates, overall treatment funding 
increased 74 percent or $1,041.4 million from FY 1989 to FY 1993 
($1,408.9 million to $2,450.3 million) in 1996 constant dollars. This 
compares with an increase over eight years for the Clinton 
Administration of 17 percent or $407.6 million from FY 1993 to FY 2001 
($2,450.3 million to $2,857.9 million) in 1996 constant dollars. It 
also compares to an increase over eight years for the Reagan 
Administration of 83 percent or $640.7 million from FY 1981 to FY 1989 
($768.2 million to $1,408.9 million) in 1996 constant dollars.

    Question 10: Please correct the percentage funding increases listed 
on pages 13 and 14 of your questionnaire response.
    Answer: Again my apologies for the confusion. Rather than the 
unadjusted five-year budget period referred to in my questionnaire, I 
would prefer to use the adjusted fouryear period in the attached table 
as reflected in my written testimony before the Committee. Thus:
    a) overall treatment funding increased 74 percent or $1,041.4 
million from FY 1989 to FY 1993 ($1,408.9 million to $2,450.3 million) 
in 1996 constant dollars;
    b) treatment funding excluding research increased 74 percent or 
$932.8 million ($1,255 million to $2,187.8 million); and treatment 
research funding increased or 71 percent or $109.6 million ($153.9 
million to $262.5 million).

    Question 11: In describing your accomplishments at ONDCP during the 
first Bush Administration, in both your statement and questionnaire 
response, you cite National Household Survey of Drug Abuse data for the 
period between 1985 and 1992. What is your basis for selecting this 
period? Isn't it true that more than two-thirds of the decline in 
illegal teen drug use between 1985 and 1992 occurred by 1988--before 
you began work at ONDCP? Weren't you responsible for setting federal 
drug policy for the year 1993?
    Answer: In my statement, I wrote that ``I firmly believe that the 
balanced policies and programs we established in that first Strategy, 
as well as the supporting budgets the Congress provided, helped make 
the efforts of millions of Americans more effective and contributed to 
real results.'' I would never claim personal credit for what was 
obviously a national effort to reduce drug use. The Household Survey 
was conducted every three years. There's a Survey for 1985 and one for 
1988.1 chose the year 1985 because it is the closest date to when I 
began working on drug policy, at the Department of Education. I chose 
1992 because that survey was inclusive of the last full year that I 
worked on drug policy for the federal government. While I am certainly 
proud of contributions I made to the government's drug policy in 1993, 
there were substantial changes made at ONDCP and in national drug 
control policy that year at the beginning of the Clinton Administration 
for which I was not responsible.
[GRAPHIC] [TIFF OMITTED] 81443.001


                                <F-dash>

   Responses of John Walters to questions submitted by Senator Leahy

          Crack-Powder Cocaine and Mandatory Minimum Penalties
    Question 1: Chief Justice Rehnquist and the Judicial Conferences of 
all 12 U.S. circuits have called for the repeal of Federal mandatory 
minimum sentences. The RAND Corporation found in a recent study of 
mandatory minimum drug sentences that ``mandatory minimums are not 
justifiable on the basis of cost-effectiveness at reducing cocaine 
consumption, cocaine expenditures, or drug-related crime.'' I have 
found that members of Congress on both sides of the aisle are 
reconsidering their prior support of mandatory minimum drug sentences. 
And Asa Hutchinson, the President's selection to head the DEA, has been 
supportive of revisiting our current use of mandatory minimums. (A) Do 
you believe that mandatory minimum sentences are effective and 
appropriate? (B) Are there any current mandatory minimum drug penalties 
that you would support eliminating? (C) Are there any current mandatory 
minimum drug penalties that you would support reducing?
    Answer 1A: If confirmed, I am committed to conducting a review, 
working in close consultation with the Attorney General, of the current 
sentencing structure as relates to illegal drugs. President Bush has 
expressed his openness to such a review, as has Attorney General 
Ashcroft. It would be my intention to conduct this review in 
consultation with interested parties in the executive branch, in 
Congress, the courts, and in the public.
    Answer 1B: As you certainly know, this has been an important and 
controversial issue and I would intend to address it by, first, 
allowing interested parties to present their views and concerns, and 
second, by seeking to build a consensus for an appropriate response. 
This approach requires openness to all points of view and a decision 
only after the conclusion of the review described above.
    Answer 1C: Any proposal to reduce the penalty associated with a 
mandatory minimum sentence would have to await the conclusion of the 
review described above. Broadly, with regard to mandatory minimum 
sentences for crack cocaine, which were discussed before the Committee, 
I recognize that the sentencing structure has fostered among some a 
perception of racial injustice within the criminal system. Clearly, the 
government must create and administer laws in a just and equitable 
fashion. It is equally important that the public perceive that the 
government is doing so. If some believe that a law discriminates 
against a certain population it hinders the ability of the government 
to enforce that law for the benefit of all society.

    Question 2: In an article you published in the Weekly Standard in 
March 2001, you wrote that the idea that we are imprisoning too many 
people for merely possessing illegal drugs was ``among the great urban 
myths of our time.'' According to a 1999 Justice Department report, 
over 100,000 people were in State or Federal prison in 1997 merely for 
possession of an illegal drug. (A) Do you believe the incarceration of 
over 100,000 people represents an ``urban myth?'' (B) Do you believe 
that it is an effective use of existing prison space? (C) Do you have 
any reservations about the use of mandatory minimum sentences against 
drug offenders?
    Answer 2A: No.
    Answer 2B: It is difficult to make generalizations about prisoners 
in 50 state prison systems absent complete information. As I noted in 
the Weekly Standard article you referenced, ``we do not know for sure 
how many of those sentenced for a drug possession conviction were 
actually traffickers who were allowed to plead guilty to a lesser 
charge, or repeat offenders whose record put them in prison for their 
most recent offense, or both ....'' Recent data from the Federal 
system, from the Bureau of Justice Statistics, is suggestive: fewer 
than half of those convicted for a possession offense were first time 
offenders 67.4 percent of Federal drug possession defendants had prior 
arrest records, and 54 percent had prior convictions. In addition, 28 
percent of possession defendants faced additional charges, and 
virtually all (98.5 percent) convictions resulted from pleas, 
suggesting bargaining down more serious charges. In addition, prison 
sentences for possession amounted to just 1.0 percent of Federal prison 
sentences. Nonetheless, if confirmed, I would intend to review this 
area as well and consult widely with knowledgeable and interested 
parties to determine how we can improve effectiveness and efficiency.
    Answer 2C: My understanding of the legislative history is that 
Congress adopted the current two-tiered mandatory minimum sentencing 
structure as part of a larger effort both to incapacitate and punish 
mid- and senior-level drug dealers. If I am confirmed as ONDCP 
Director, I would certainly intend to review the regime of mandatory 
minimum sentences as detailed in response to question one above.

    Question 3: Between 1983 and 1998, drug admissions to State and 
Federal prisons increased almost 16-fold, from over 10,000 drug 
admissions in 1983 to almost 167,000 new prison entries for drug 
offenses in 1998. During this time, white drug admissions increased 
more than 7-fold, Hispanic drug admissions increased 18-fold, and black 
drug admissions increased more than 26-fold. (A) Do you believe these 
increases are proportionate to increases in drug crimes among people of 
each demographic group? (B) What are your thoughts regarding the 
remarkable disproportion of black Americans entering prison for drug 
offenses? (C) Do you think the general increase in incarceration, 
leaving aside questions of race, is problematic?
    Answer 3A: I believe that the current state of our data collection 
is insufficient to support conclusions about the relative rates of 
increase in incarceration because I believe a complete view of 
incarceration rates should include information on offenses, original 
charges and final pleas, and criminal histories (since they too affect 
sentencing).
    Answer 3B: I believe it is critical that we examine the equity and 
fairness of the criminal justice system and have already stated my 
intention to do so in this regard, if confirmed. In such an examination 
I also believe we should consider those who are the victims of criminal 
acts. In the Weekly Standard article cited in question 2 above, I 
wrote: ``In 1998, of the 7,276 murders in the United States that 
involved a single offender and a single victim, 5,133 of the victims 
were male and 3,309 were black. According to the FBI, 3,565 of the 
offenders in these murder cases were black, and 3,067 of the murders 
involved both a black victim and a black offender. In 1998, black males 
between the ages of 14 and 17 were almost six times more likely than 
white males to be victims of murder or non-negligent manslaughter; 
black males between 18 and 24 were over eight times more likely to be 
victims; and for those 25 and over, black males were murder victims at 
a rate 7.6 times that of white males.'' As I sought to explain during 
the hearing, I believe we should work to reduce crime, drug use, and 
addiction as the best way to help reduce the number of individuals who 
enter the criminal justice system and the number who enter prison. I 
have spent a significant portion of my time while working at the 
Philanthropy Roundtable helping foundations and donors better support 
not only for drug prevention and treatment programs, but the range of 
assistance to help disadvantaged communities improve schools, job 
training, housing, healthcare, and other elements necessary to 
stabilize neighborhoods and break the cycles of crime and addiction.
    Answer 3C: I think most Americans believe in second and third 
chances, and most are profoundly sad at the waste of human potential 
when a person of any race is sent to prison for wrongdoing. I also 
believe that appropriate prison sentences can serve the greater 
societal purpose of punishment and incapacitation. I believe we must 
continually strive to balance these aims and insure that our laws and 
policies are just.
                        addiction and treatment
    Question 4: (A) You wrote in an article in the Weekly Standard 
earlier this year that the idea that ``addiction is a disease'' is an 
``ideology.'' What do you mean by that?
    Answer 4A: I am familiar with, and understand the expanding body of 
research demonstrating the biological and neurological effects of drug 
use, including that continued drug use adversely affects brain 
chemistry and structure. The research also demonstrates that, for a 
significant minority, drug use can lead to the compulsive drug craving, 
seeking, and taking behavior we characterize as addiction.
    I also recognize that the treatment and management of drug 
addiction are in some ways similar to the treatment and management of 
chronic diseases like diabetes, hypertension, and cancer. For instance, 
adherence to a treatment plan is critically important in addressing 
chronic conditions. Whether a person becomes a drug addict or is 
afflicted with diabetes, he or she must take personal responsibility 
for obtaining and following through with treatment. Much like a 
diabetic must monitor blood sugar levels in the bloodstream, maintain a 
healthy diet, and take insulin, overcoming drug addiction can require 
the commitment to taking medication that is a part of specific 
treatment programs, working to change behavior and accepting other 
services necessary to foster recovery.
    I am not a physician, but I believe the consideration of addition 
as a disease has wide application. I also believe that a full 
understanding should not obscure the nature of the onset of drug 
addiction which policy cannot ignore. The repeated, willful use of an 
illegal, psychoactive substance is behavior we should seek to 
effectively discourage even though drug use, not drug addiction, is the 
intent. A comprehensive prevention policy should assist youth in 
recognizing their responsibility to avoid drug taking behavior and the 
threat of addiction that comes with it.

    Question 4B: The American Medical Association classified alcoholism 
and substance abuse as a disease in 1957. Do you believe that the AMA 
came to that conclusion based on ideological rather than medical 
foundations?
    Answer 4B: No.

    Question 4C: Alan Leshner, the head of the National Institute on 
Drug Abuse, has said he believes drug addiction is a ``complex 
disease.'' Do you believe that Dr. Leshner is motivated by ideology 
rather than medicine? Do you believe that Dr. Leshner should retain his 
position?
    Answer 4C: I do not believe that Dr. Leshner is motivated by 
ideology. I would defer to Secretary Thompson regarding personnel 
questions related to those under his authority.

    Question 4D: Finally, do you believe that drug dependence should be 
viewed as a public health problem?
    Answer 4D: The problem of drug dependence has many dimensions, 
among them a significant public health component.

    Question 5: In a 1996 article you praised Freddie Garcia, a Texas 
man who ran the faith-based Victory Fellowship center. You praised 
Garcia for ``challeng[ing] the medical model of addiction head-on.'' 
You also approvingly quoted the following Garcia statement: ``We 
believe that sin is the reason why people take drugs. We believe that 
drug addiction is a spiritual problem, and that Jesus Christ is the 
solution.'' Now, I do not disagree that people must take responsibility 
for their actions, or that religion in general, or Christianity in 
particular, provides valuable assistance for many people looking to 
overcome addiction. (A) But do you believe that drug use is simply the 
result of ``sin?'' (B) Do you believe that environmental or any other 
factors play a role? (C) What does it mean to you to say that Jesus 
Christ is the solution to drug addiction? Do you believe that this is a 
generally applicable solution?
    Answer 5A: No.
    Answer 5B: Yes.
    Answer 5C: I believe that when Pastor Garcia said that, he was 
referring to the power of religious faith to provide valuable 
assistance in accomplishing the transformation represented by leaving 
behind a life of drug addition. While I have seen other treatment 
programs founded on religious faith that have helped individuals 
suffering from drug and alcohol dependence, I have also seen many, many 
more treatment providers who operate on secular principles while still 
obtaining positive client outcomes. I believe we need all these efforts 
and more and I do not believe religious programs should be viewed as a 
substitute or opponent of non-religious programs.

    Question 6A: You referred in a 1998 article to the nation's 
``notoriously under-performing drug-treatment system.'' What are the 
strengths and weaknesses of drug treatment in America?
    Answer 6A: First of all, I am an ardent supporter of effective drug 
treatment. During my first tenure at ONDCP, I oversaw tremendous growth 
of the drug treatment budget, including the creation of the Targeted 
Capacity Expansion Program that remains a critical component of our 
treatment infrastructure. Furthermore, I highlighted drug treatment as 
a fundamental component when I drafted the first National Drug Control 
Strategy. More recently, I have spoken with experts in the field such 
as Mark Parrino, Dr. Robert DuPont, Dr. Andrea Barthwell, and Dr. Herb 
Kleber. I look forward to reviewing the report President Bush directed 
Secretary Thompson to deliver concerning the areas of specific need for 
additional treatment services in America to assess our progress and 
understand what remains to be accomplished. While not prejudging the 
results of that review, areas where improvement may be warranted 
include making available the proper treatment modality to the 
individual in need, making available appropriate service linkages, and 
making available an adequate aftercare component.

    Question 6B: Senator Hatch and I have introduced S. 304, the Drug 
Abuse Education, Prevention, and Treatment Act. This bipartisan bill 
would aid treatment efforts nationally. Are you familiar with S. 304? 
Do you support the bill?
    Answer 6B: I am familiar with the bill, but before taking a formal 
position on a piece of important legislation, I believe I should review 
these matters with the full range of interested and knowledgeable 
parties. I intend to do this promptly, if I am confirmed.

    Question 7: You have said that you are supportive of treatment 
provided that it is ``good'' treatment.
    (A) How do you define ``good'' treatment?
    (B) What standard(s) do you believe should be used to determine 
whether a treatment program is effective?
    (C) In your opinion, what is the proper role of science in the 
development of effective treatments?
    Answer 7A: Individuals in need of drug treatment vary tremendously, 
and one of the limitations of the present system has been in matching 
individuals with appropriate services. Precisely because of the 
heterogeneity of the population in need of drug treatment, it is 
difficult to make across-the-board statements about what constitutes 
``good'' treatment and any measure must reflect the range of severity 
and related conditions clients present. All studies of treatment 
effectiveness also should be grounded in the obvious measure of how 
many users desist from drug use and for how long, but a sampling of 
other measures could include criteria such as participation in the 
workforce, cost effectiveness, appropriateness in matching the client 
with needed services, reduced criminal recidivism, and health 
indicators.
    Answer 7B: I have tried to address this question in the answer 
above to 7 A.
    Answer 7C: The role of science in developing effective modalities 
and techniques of drug treatment is a large one. The role of science 
includes, but is by no means limited to, accurately assessing the 
character of individuals' addictions, creating diagnostic standards for 
grouping like problems, establishing treatment protocols, measuring the 
relative effectiveness of resultant treatment programs and modalities, 
and developing promising pharmacotherapies.

    Question 8: Experts in the treatment field have argued that faith-
based drug treatment programs should be held to the same effectiveness 
standards as secular programs. Do you agree with this view, or do you 
believe that these programs should be evaluated differently than 
secular programs?
    Answer 8: I believe all drug treatment programs should be evaluated 
first and foremost for their ability to get their clientele to stop 
using illegal drugs and to begin the process of recovery.

    Question 9: You wrote in 1996 that ``Washington must get serious 
about promoting rehabilitation that works, such as religion-based 
programs.'' (A) Do you believe that religion-based programs are the 
most effective treatment programs? (B) What is the scientific 
evidence--or the effectiveness of religion-based treatment programs?
    Answer 9A: No. I do believe that we should encourage all effective 
treatment regimes that assist those afflicted to overcome their 
addiction. We should not close the door to an otherwise effective drug 
treatment program merely because it has a basis in faith or 
spirituality. I am not, however, suggesting that Federal funds should 
support proselytizing in the name of drug treatment and I do not intend 
by saying that religion based programs can do some good to denigrate 
secular-based programs.
    Answer 9B: The relevant evidence for faith-based drug treatment 
programs, while often quite impressive, has tended to be anecdotal or 
on a fairly scale small. As noted above, I believe all treatment 
programs should be evaluated on the basis of their ability to get their 
clientele to stop using illegal drugs and to begin the process of 
recovery. We need to find the efficient and inexpensive ways to better 
track treatment results in these terms for all forms of treatment.

    Question 10: Over 600,000 individuals leave State and Federal 
prisons every year. Many of those people were drug users before they 
were imprisoned. In prison, many of them had little access to drug 
treatment but ready access to drugs. As a result, they are poised to 
return to a life of crime when they are released, if for no reason 
besides a desire to support their drug habit.

    Question A: Would you support providing additional grant money to 
States and local communities for the purpose of providing drug testing 
and treatment in prisons and jails?
    Answer 10A: Yes.

    Question B: What else might we do to assist communities in dealing 
with the problem of convicts being released from prison with their drug 
problems intact?
    Answer 10B: Additional programs that bear further consideration in 
my view are those that seek to assist reintegration in society of 
former prison inmates with a history of substance abuse. I would like 
to look at this area with greater care and consultation, but I believe 
there is evidence that such reintegration programs in conjunction with 
treatment in prisons, substantially improves outcomes.

    Question 11: You have written that ``the culture of victimhood lies 
at the core of the therapeutic worldview.''

    Question A: What do you mean by this statement?
    Answer 11A: This passage was not especially clear in conveying my 
point, which was that there has been a tendency by some to describe the 
drug addicted as ``victims'' in a manner that minimizes the crucial 
role individuals play in their own recovery, including sticking with 
what can be an arduous treatment and aftercare regimen. Too often the 
hard work that individuals put into their recovery is ignored, and the 
process of drug treatment is described in a manner that suggests the 
participant's role is merely passive.

    Question B: Do you believe that drug treatment professionals are 
motivated by ``the culture of victimhood?"
    Answer 11B: The drug treatment specialists I have had the privilege 
of working with over the years have all been motivated by a sincere 
desire to help people.
         demand vs. supply reduction/interdiction/latin america
    Question 12: President Bush has said: ``The most effective way to 
reduce the supply of drugs in America is to reduce the demand for drugs 
in America. Therefore, this administration will focus unprecedented 
attention on the demand side of this problem.''

    Question A: Do you agree with the President's statement?
    Answer 12A: Yes.

    Question B: If so, why have you consistently argued that our 
fundamental Federal priority should be attacking the supply of drugs?
    Answer 12B: I have not made that argument. As I stated in my 
testimony before the Committee, if confirmed, I will seek to highlight 
the importance of a balanced strategy for reducing our nation's 
dependence on illegal drugs. My views on the subject are perhaps best 
summed up in the introduction to the 1990 National Drug Control 
Strategy, which I helped write, and which stated, in part, that:

        For reasons both political and institutional, much public 
        discussion has been bedeviled by a persistent but sterile 
        debate over ``supply'' versus ``demand'' solutions. But to 
        repeat what we have been saying for almost a year, the reality 
        of the drug problem cannot be met through an exclusive ``law 
        enforcement'' strategy on the one hand, or a ``prevention and 
        treatment'' strategy on the other. Most Americans recognize by 
        now that we need both approaches. An effective criminal justice 
        policy needs a good treatment policy; a successful treatment 
        system is hampered by the easy availability of drugs and will 
        ultimately be overwhelmed without a good prevention program; 
        and good prevention programs are harder to carry out absent 
        vigorous efforts directed at international and domestic drug 
        traffickers who are largely responsible for making drugs so 
        ubiquitous in the first place.

    Question 13: A recent National Academy of Sciences report 
recommended that the ONDCP work with law enforcement research agencies 
to develop a sustained program of research on how drug production, 
transport and distribution respond to interdiction and enforcement 
activities. What is your response to that recommendation?
    Answer 13: I agree, and if confirmed would seek to work the ONDCP 
staff, outside authorities, and other interested and knowledgeable 
individuals to develop such measures. In my view, the only 
justification for any program contained under the National Drug Control 
Budget is whether it ultimately contributes to reducing drug use.

    Question 14: You've argued that the market for drugs is highly 
price-sensitive and that increases in the price of drugs in the 
``vulnerable inner city'' reduce drug use, since addicts are unable to 
afford more drugs. This theory makes some sense to me as applied to 
casual drug users. It seems to me, however, that those who are addicted 
to drugs will generally find other means--often illegal means-to obtain 
drugs. To what extent do you believe that increasing the price of drugs 
by limiting supply will decrease drug use among addicts?
    Answer 14: While the evidence is not always as clear as one might 
like, there is precedent for observing that drug use--particularly 
among those most heavily addicted-is affected by changes in price. For 
instance, in 1990, an intense law enforcement crackdown on the Medellin 
Cartel by the Colombian government, combined with renewed U.S. 
interdiction efforts, paralleled a 43 percent increase in the price of 
cocaine (the first such increase in five years) and a 27 percent 
reduction in cocaine--related emergency room admissions (the first such 
reduction in twelve years). Similarly, in Detroit in 1988, disruption 
of the Chambers brothers' organization, which controlled many of 
Detroit's crack houses, resulted in a near--tripling of the street 
level price of cocaine in that city. Concurrently, there was also a 
reduction in indicia of cocaine use, such as emergency room incidents 
involving cocaine use.

    Question 15: You said in 1996 that ``we need to do more in Latin 
America'' in ``[f]ighting drugs at the source.'' You praised the anti-
drug efforts of former Peruvian President Alberto Fujimon and our 
policy of assisting the Peruvian government in its efforts to shoot 
down planes believed to be carrying drugs. As you know, President 
Fujimori has since had to flee Peru in scandal, and a Peruvian plane 
receiving CIA assistance shot down an innocent plane earlier this year, 
killing an American missionary and her daughter. The report on that 
tragedy is unbelievable-seemingly everything that could have gone wrong 
did go wrong, even though the pilots of the Peruvian plane had 
undergone training two weeks earlier.

    Question 15A: Has the Peru experience, or the civil war that is 
intensifying in Colombia, caused you to rethink our anti-drug strategy 
in Latin America?
    Answer 15A: Clearly, the situation on the ground in Peru, Colombia, 
and Latin America has changed considerably since I was in office, and 
if confirmed, I would plan to consult extensively with interested 
parties in the executive branch, the Congress, and outside of 
government to develop plans and budgets for the future of our 
international drug control program. My intention would be to conduct a 
thorough review of these programs.

    Question B: Do you believe the Bush Administration should engage in 
any new anti-drug efforts in Latin America, and if so, what do you 
recommend, at what cost, and what results would you expect as far as 
the amount of cocaine and heroin entering the United States?
    Answer 15B: Prior to the type of review described above, I do not 
have settled views on the shape and direction of our future policy.

    Question 16: You recently have been extremely critical of Mexico, 
calling it a ``narco state,'' and stating that it has become 
``thoroughly corrupted'' by drugs, and is a ``safe haven'' for the drug 
industry. You have even suggested that the US should impose sanctions 
on countries that do not reduce their drug production by 50 percent 
over five years, and you were extraordinarily critical of the Clinton 
Administration's decision not to employ the certification process 
against Mexico. This hard-line attitude seems to be in direct 
contradiction to President Bush's policies. President Bush, for 
example, has expressed support for a three-year suspension of the 
certification process for Mexico. President Vicente Fox, in his recent 
address to a joint session of Congress, supported President Bush's 
proposal.

    Question A: Do you agree with President Bush's position?
    Answer 16A: Yes, I support the President's effort to work with 
Congress to make adjustments to the certification process to foster 
greater cooperation between Mexico and the United States on drug 
control efforts.

    Question B: If so, how do you square that with your harsh criticism 
of the Clinton Administration's policy?
    Answer 16B: I believe all Americans are all extremely encouraged by 
the prospects of the new Administration of President Vicente Fox. With 
regard to my earlier comments, they should be viewed in the context of 
statutory language which mandates that the executive branch certify 
annually that a country is taking ``adequate steps'' to combat drug 
trafficking. In the event that this is not the case, the secretary of 
state, as delegated by the President, may issue a national interest 
waiver holding sanctions in abeyance while still being candid about the 
limitations of a country's efforts. In the comments noted above, the 
criticisms were prompted by my desire to see more such candor in 
assessing the performance not only of Mexico but our other allies in 
this fight.

    Question C: In light of your strong criticism of Mexico, how can 
you implement President Bush's policy of treating Mexico with respect 
and as an equal partner?
    Answer 16C: During my previous public service, a substantial 
portion of my responsibilities involved working with many foreign 
governments in the negotiation and implementation of international drug 
control efforts. This work also involved the preparation and resulting 
actions from two drug summits. I believe that my record of working with 
other governments, including the Government of Mexico, on contentious 
and sensitive diplomatic matters, is an indication of my ability to 
work effectively in this important arena.

    Question 17: You have strongly supported the military's role in US 
drug interdiction efforts. Do you believe the Bush Administration 
should increase the role played by the military? In what ways? In light 
of our current military commitments, do you think an increased role for 
the military is realistic?
    Answer 17: Pending a review of current programs, and the 
opportunity to consult with colleagues both inside and outside of 
government, I do not have settled views on this question. The 
Department of Defense has a major role to play in any interdiction 
structure--a role that is codified in law.

    Question 18: Asa Hutchinson, the head of the DEA, recently said 
that ``you cannot win the battle against drugs just through 
enforcement.''

    Question 18A: Do you agree with Mr. Hutchinson?
    Answer 18A: As we discussed at several points during my hearing, I 
believe in a balanced approach to drug control policy. I believe that 
we all agree that, while drug law enforcement is a crucial component of 
a successful drug control program, it cannot be the only component.

    Question 18B: What are some of the other steps you believe that the 
Administration and Congress need to take to reduce drug abuse and its 
consequences?
    Answer 18B: In addition to the funding enhancements already 
discussed with respect to treatment, programs/adjustments I support 
include, but are not limited to, establishment of a Parent Drug Corps, 
to mobilize parents and families; increased funding for local antidrug 
coalitions; increased funding for the National Institute of Drug Abuse; 
resources to support a strong commitment to drug courts and other 
criminal justice diversion programs; increased support to law 
enforcement for methamphetamine lab cleanup; reimbursement for border 
county prosecutions; and technology support to local law enforcement 
officers.
                           medical marijuana
    Question 19: As you know, a number of States, including 
conservative States such as Arizona, have adopted initiatives in recent 
years legalizing the use of marijuana for medical purposes. The Supreme 
Court recently affirmed the Federal government's power under the 
Controlled Substances Act to prosecute those who distribute (or 
manufacture) marijuana, including those who distribute marijuana to ill 
people in States that have approved initiatives. I oppose legalizing 
marijuana, and I have not taken a position on the initiatives that 
these States have passed. But I am concerned about the tension between 
State and Federal authority in those States.

    Question 19A: Given the many drug cases that Federal agents and 
prosecutors can bring, do you think the Federal government should make 
it a priority to prosecute people distributing marijuana to ill people 
in States with medical marijuana initiatives?
    Answer 19A: I support enforcing the law, but as the question notes, 
this is to some degree academic, since there are inherent and severe 
limitations in the ability of the Federal government to pursue small, 
retail-level drug cases that are normally the province of local law 
enforcement. The Los Angeles Police Department, for instance, is three 
times the size of the Drug Enforcement Administration, which must cover 
the entire country with that force.

    Question 19B: As head of ONDCP, would you or your staff take an 
active role in opposing proposals in other States to legalize marijuana 
for medicinal use? Would you advocate spending Federal funds for that 
purpose?
    Answer 19B: I, like you, oppose the legalization of marijuana. I 
expect, if confirmed, that I will asked about the various state 
referenda that have been supported by George Soros and others who are 
spending a great deal of their own money to advance an agenda of 
legalizing drugs. At this time, I do not have specific plans to expend 
Federal funds to oppose such initiatives.

    Question 20: In a 1996 article in the Weekly Standard, you 
advocated that the DEA use the ``public interest'' provision of the 
Controlled Substances Act to take away the ``registration'' license 
doctors need to prescribe or store controlled substances from 
physicians who prescribed marijuana in States that had passed medical 
marijuana initiatives. Do you still believe that would be the best 
policy? As head of the ONDCP, would you recommend that Asa Hutchinson 
employ this tactic?
    Answer 20: The Weekly Standard article to which you refer focused 
on the pro-marijuana ballot initiative effort in California, where a 
doctor's written prescription is not necessary. DEA is authorized by 
Congress to revoke the registration privileges of physicians for 
various reasons, but I would first want to consult with relevant 
officials including those in the Department of Justice. I do not have a 
settled view of what might be the best policy at the present, but would 
consult widely before recommending change.

    Question 21: In 1996, you testified before this Committee on the 
issue of medical marijuana. In that testimony, you referred to 
supporters of medical marijuana initiatives as ``potheads.''

    Question 21A: Do you believe that the majority of voters in 
California or Arizona are ``potheads?''
    Answer 21A: No.

    Question 21B: Do you believe that elderly pain sufferers who 
supported these initiatives are ``potheads?''
    Answer 21B: No.
                             miscellaneous
    Question 22: There is increasing recognition that drug abuse is a 
major problem in rural areas. For example, my State of Vermont is 
struggling with a serious heroin problem. What role, if any, would 
ONDCP play in addressing the particular problems of rural areas?
    Answer 22: It is certainly crucial that the Federal government 
focus greater attention on the underreported problem of rural drug use. 
Focusing attention on that area could include the High Intensity Drug 
Trafficking Areas (HIDTA) program, appropriate use of the ONDCP media 
campaign, the support of community coalitions, and assistance in the 
form of guides and other prevention resources.

    Question 23: You have been very critical of drug prevention efforts 
through public service campaigns and educational outreach, saying at 
one point that they were ``too little, too late.'' In fact, you have 
criticized Democrats and Republicans alike--including Newt Gingrich--
for supporting the Partnership for a Drug-Free America campaign during 
the 1990s. You wrote at one point that ``no serious person can believe 
that even the best ad campaign is an appropriate centerpiece for the 
effort to reverse current trends.'' Yet you were a strong supporter of 
First Lady Nancy Reagan's ``Just Say No'' program.

    Question 23A: Do you believe there should be a Federal role in 
public service campaigns to discourage drug use among the nation's 
children?
    Answer 23A: Yes, and I was involved in creating one at the U.S. 
Department of Education when I served there during the Reagan 
Administration.

    Question 23B: Do you support the Partnership for a Drug-Free 
America campaign?
    Answer 23B: Yes.

    Question 23C: Would you support increased funding for that program?
    Answer 23C: It would be premature for me to make commitments before 
consulting relevant program staff, Members of Congress, and other 
interested parties.

    Question 23D: If not, would you support that funding be maintained 
at current levels?
    Answer 23D: Again it would be premature for me to make commitments 
before consulting relevant program staff, Members of Congress, and 
other interested parties.

    Question 23E: Do you believe this campaign should continue to be 
managed by the ONDCP, or transferred elsewhere?
    Answer 23.E: My intention at this time is to continue to manage the 
program within ONDCP, mindful however of the need to address the 
management deficiencies that have been raised about the program's 
execution.

    Question 24: You have previously rejected the notion that federal 
funding is necessary to prevent drug use, stating that ``federal 
funding is neither necessary nor sufficient'' for teaching kids that 
drug use is wrong. You have also called for the replacement of existing 
individual grant programs with block grants to states, which would 
allow States to spend all their federal funding for pure law 
enforcement purposes, and none on prevention or treatment.

    Question 24A: What exactly is the proper role of federal funding?
    Answer 24A: As I testified before the Committee, I no longer take 
the position that the best way to support these programs is to convert 
them into block grants. I believe that funding should be based on one 
criterion: the extent to which it contributes to the overarching goal 
of reducing drug use in the United States. I also believe that levels 
of support and the shape of such funding should be done after 
consultation with the knowledgeable and involved parties in government 
and in our communities where most of the resources are put to work.

    Question 24B: Shouldn't the federal government impose some 
standards to insure that its money is used wisely, to address all 
aspects of the drug control problem?
    Answer 24B: Yes.

    Question 25: In 1996, you proposed that the U.S. Sentencing 
Commission be ``barred from proposing changes in criminal penalties 
where Congress has established mandatory minimum sentences, except in 
an advisory format that would require affirmative congressional action 
before taking effect.''

    Question 25A: Is that still your view?
    Answer 25A: I believe it should be Congress' prerogative to 
determine whether or not proposed changes implicating mandatory minimum 
sentences should made by the Commission. Simply as a matter of good 
government, I am concerned at the potential for disruption that can 
occur when the Sentencing Commission passes a guidelines amendment that 
conflicts with a statutory mandatory minimum, since Sentencing 
Commission amendments take effect automatically after six months, 
unless blocked by Act of -Congress.

    Question 25B: To be clear, do you believe the Sentencing Commission 
should be prohibited from adjusting sentencing guidelines for offenses 
that trigger mandatory minimums?
    Answer 25B: Again, simply as a matter of good government, I am 
concerned at the potential for disruption that can occur when the 
Sentencing Commission passes a guidelines amendment that conflicts with 
a statutory mandatory minimum, since Sentencing Commission amendments 
take effect automatically after six months, unless blocked by Act of 
Congress.

    Question 25C: Do you believe that Congress should eliminate the 
Sentencing Commission altogether?
    Answer 25C: No.

                                <F-dash>

 Responses of John Walters to questions submitted by Senator Wellstone

    Question 1: As Director of the Office of National Drug Control 
Policy, how would you work to reduce the stigma associated with drug 
and alcohol addiction and encourage Americans with the disease of 
addiction to enter treatment and begin their recovery?
    Answer 1: It takes courage and strength of character to make the 
decision to enter a drug treatment program. If confirmed, I would like 
to explore ways of giving greater prominence to the stories of 
individuals who have been treated and are in recovery. I think the best 
way to overcome the stigma that may discourage some individuals from 
seeking treatment is to broaden the public respect for those who 
confront and work to overcome addiction and those who support them.
    I believe in drug treatment as a central part of our national drug 
control efforts. During my first tenure at ONDCP, I oversaw the largest 
increase in the growth of the drug treatment budget of any 
administrationbefore or after-including the creation of the Targeted 
Capacity Expansion Program and increases for treatment-related research 
that remain a critical components of our treatment infrastructure. 
Furthermore, I highlighted drug treatment as a fundamental component 
when I helped draft and implement the first National Drug Control 
Strategy. More recently, I have spoken with experts in the field such 
as Mark Parrino, Dr. Robert DuPont, Dr. Andrea Barthwell, and Dr. Herb 
Kleber. If confirmed, I look forward to reviewing the report President 
Bush directed Secretary Thompson to deliver concerning the ``treatment 
gap'' in America to assess our progress and understand what remains to 
be accomplished.

    Question 2: Do you believe that drug and alcohol addiction is a 
disease, and, if so, how will you shape your policies to reflect this 
belief?
    Answer 2: I am familiar with, and understand the expanding body of 
research demonstrating the biological and neurological effects of drug 
use, including the fact that continued drug use adversely affects brain 
chemistry and structure. The research also demonstrates that, for a 
significant minority, drug use can lead to the compulsive drug craving, 
seeking, and taking behavior we characterize as addiction.
    The treatment and management of drug addiction are in some ways 
similar to the treatment and management of chronic diseases like 
diabetes, hypertension, and cancer. For instance, adherence to a 
treatment plan is critically important in addressing chronic 
conditions. Whether a person becomes a drug addict or is afflicted with 
diabetes, he or she must take personal responsibility for obtaining and 
following through with treatment. Much like a diabetic must monitor 
blood sugar levels in the bloodstream, maintain a healthy diet, and 
take insulin, overcoming drug addiction can require the commitment to 
taking medication that is a part of specific treatment programs, 
working to change behavior and accepting other services necessary to 
foster recovery.
    I am not a physician, but I believe the consideration of addiction 
as a disease has wide application. I also believe that a full 
understanding should not obscure the nature of the onset of drug 
addiction which policy cannot ignore. No one begins to use illegal 
drugs with addiction as a goal. However, the repeated, willful use of 
an illegal, psychoactive substance often leads to addiction, and so we 
should seek to discourage effectively any drug use. A comprehensive 
prevention policy should assist youth in recognizing their 
responsibility to avoid drug taking behavior and the threat of 
addiction that comes with it.

    Question 3: In your position as Director of the Office of National 
Drug Control Policy, would you advocate for the Administration passage 
of legislation providing full parity for drug and alcohol treatment 
services covered by private health insurance? Would you advocate for 
the Administration to establish parity for drug and alcohol treatment 
in other federal programs, such as Medicare and Medicaid. If not, why 
not?
    Answer 3: I believe that it is important for people with private 
insurance policies to have adequate coverage for themselves and their 
families concerning substance abuse treatment. I am pleased that 
insurers who participate in the pool from which federal employees 
select coverage have parity for substance abuse treatment. While 
insurers are not required to provide coverage for substance abuse 
treatment, if they choose to offer that coverage it must be at the same 
levels as other conditions requiring medical attention. With regard to 
federally funded programs such as Medicaid and Medicare, President Bush 
has pledged to increase the drug treatment budget by some $1.6 billion 
over the next five years, a step that will bring drug treatment 
resources closer to hand for many of the populations served by those 
programs.
    I believe the parity issue is an important one. It has grown in 
prominence since the time I last served in government and, if 
confirmed, it would be my intention to consider the issues related to 
it seriously in wide consultation with knowledgeable individuals inside 
and outside government.

    Question 4: Do you feel the U.S. provides adequate resources in the 
private and public health care systems to provide treatment for 
addiction? If no, what actions will you take to ensure that adequate 
resources are obtained? Do you believe that the ratio of dollars spent 
on supply side vs. demand side efforts to eliminate drug addiction in 
the United States is appropriate?
    Answer 4: With regard to the first part of this question, the 
answer is ``no.'' With regard to your question on what actions I will 
take, I should note that President Bush has directed Secretary Thompson 
to lead a state-by-state review of treatment needs and capacity to make 
sure that effective resources are available where the demand is. With 
regard to the question about the division of resources, I believe in a 
balanced approach to major areas of drug control policy: prevention, 
treatment, law enforcement, and national security, and the research 
programs related to these areas. This is why areas of demand reduction 
were the focus of much of our proposed increases in funding when I was 
last in government. I also believe that a full discussion of balanced 
spending for drug control needs to include non-federal spending, in 
state and local governments and the private sector. My experience is 
that the toughest obstacle to gaining additional funds for drug control 
programs is not competition between demand and supply efforts, but 
competition between particular domestic drug control programs and other 
domestic spending priorities. My approach to this problem would be to 
prepare the best case possible for the resources we need and present it 
to the President, the Congress, and the American people.

    Question 5: Do you feel there should be stronger safeguarding 
policies on the licensure and certification requirements for the 
personnel and the facilities that deliver addiction services?
    Answer 5: Answer: I am not conversant with the current issues 
related to licensure and certification requirements but intend to 
review these matters, if confirmed by the Senate, with the help of 
Andrea Barthwell, MD, a specialist in addiction medicine who has been 
nominated to--serve as Deputy Director for Demand Reduction, and with 
appropriate knowledgeable and interested individuals and groups.

    Question 6: President Bush announced he would provide additional 
funding for addiction treatment. Is this commitment from the President 
still valid? What do you believe are the best and most effective ways 
to spend that additional funding?
    Answer 6: Yes, the President intends to increase our nation's 
treatment capacity with a five-year commitment of $1.6 billion in 
additional resources. We anticipate dedicating some of that additional 
funding to areas such as targeted programs for teens and adolescents, 
as well as other areas where needs are identified in the review being 
completed by Secretary Thompson. If confirmed, I look forward to 
working closely with colleagues in the Executive Branch as well as 
those in Congress and in relevant groups outside of government as we 
refine those areas.

                                <F-dash>

                       SUBMISSIONS FOR THE RECORD

                            Betty Ford Center at Eisenhower
                                  Rancho Mirage, California
                                                    October 9, 2001

    TO: Senate Judiciary Committee Members

    RE: John Walters Nomination Hearing

    The Betty Ford center is pleased the Senate Judiciary Committee 
rescheduled the hearing to consider John Walters as Director of the 
Office of National Drug Control Policy. We know how difficult it must 
be to focus on, the nomination process in light of the demands placed 
on Congress by the tragedies of September 11, 2001.
    Mrs. Ford and I are convinced that. Mr. Walters may not have the 
confidence in the treatment and prevention strategies that we believe 
are necessary for the creation and implementation of a balanced and 
thoughtful approach to U.S. drug policy. Now, more than ever, with 
increased public criticism of U.S. Drug policies that rely heavily on 
interdiction and criminal justice solutions to the drug problem, we 
need a director with an unshakable, conviction in strategies to reduce 
the demand for drugs in this country. According to a 2000 poll 
conducted by Peter D. Hart, three in five adults said that drug abuse 
is ``more of a public health problem better handled by prevention arid 
treatment programs'' than by the criminal justice system. We believe 
that U.S. drug policy that reduces this demand, coupled with limited 
strategic initiatives on the supply side, are more likely to reduce the 
devastating economic and social consequences of untreated addition.
    2Many of our concerns about Mr. Walters first arose from a 1996 
paper he wrote for the Heritage Foundation, where Walters denounced 
[including addiction treatment in U.S. drug policy] as ``the latest 
manifestation of the liberals' commitment to a `therapeutic state' in 
which government serves as the agent of personal rehabilitation.'' In 
addition, despite Mrs. Ford's offer to longtime friend Dick Cheney to 
serve as an advisor on key drug policy positions in the Bush 
Administration, Mr. Walters' launched what some are calling a highly 
visible campaign this summer to court leaders of the drug treatment and 
prevention community to convince them of his ``balanced'' approach to 
the nation's drug problem, without placing a single call to Mrs. Ford, 
me or any of our allies in the nonprofit treatment field.
    While we applaud the announcement of the Administration's Intent to 
balance Mr. Walters' supply side experience with Dr. Andrea Barthwell's 
expertise in treatment, Mrs. Ford and I urge each member of the 
Committee to use the hearing to ensure your confidence in Mr. Walters' 
understanding of addictive disease, addiction treatment and individuals 
and families affected by the disease.
            Sincerely,

                                        John T. Schwarzlose
                                                      President/CEO

                                <F-dash>

                  Community Anti-Drug Coalitions of America
                                       Alexandria, Virginia
                                                      July 30, 2001

Hon. Orrin G. Hatch
United States Senate
Senate Judiciary Committee
224 Dirksen Senate Office Building
Washington, DC 20510

    Dear Senator Hatch:

    On behalf of Community Anti-Drug Coalitions of America (CADCA) and 
our more than 5,000 coalition members, I would like to express how 
extremely pleased we are that John P. Walters has been nominated to 
lead the Bush administration's anti-drug efforts as Director of the 
Office of National Drug Control Policy (ONDCP). Throughout Mr. Walters' 
decades of public service, he has demonstrated a high degree of 
dedication and passion when it comes to eliminating our country's 
number one public health problem--substance abuse.
    The President's proposal concerning drug policy makes us confident 
that he and Mr. Walters share our vision of a balanced approach to 
reducing drug abuse that greatly increases emphasis on education, 
prevention, research and treatment. We are pleased to see the proposal 
includes double funding for local anti-drug coalitions over five years, 
providing up to $3.50 million over that period, including an $11 
million increase in FY 2002, to support the Drug-Free Communities 
Program; adding $1.5billion over 5 years to close the treatment gap; 
substantially increasing the funding for research in prevention and 
treatment, and providing $25 million cover five years to create a 
Parent Drug Corps to mobilize parents and families. We are convinced 
that Mr. Walters will implement these programs in an outstanding manner 
using his vision and professional abilities.
    CADCA looks forward to working along side the President and Mr. 
Walters to build safe, healthy and drug-free communities throughout 
America. Therefore, we respectfully urge you to support Mr. Walters' 
nomination by holding a confirmation hearing and vote as soon as 
possible.
            Sincerely,

                                             Arthur T. Dean
                                  Major General, U.S. Army, Retired
                                                   Chairman and CEO

                                <F-dash>

                         Drug Free America Foundation, Inc.
                                    St. Petersburg, Florida
                                                  September 4, 2001

Hon. Patrick Leahy
433 Russell Senate Office Building
United States Senate
Washington, DC 20510

    Dear Senator Leahy:

    I am writing to encourage you to move forward without delay in 
holding the hearing to confirm John Walters as the new director of the 
Office of National Drug Control Policy. Our nation is drowning in drugs 
and we are rapidly falling to permissive drug policies. We desperately 
need the direction that would be afforded by filling this position. To 
delay any further in holding this hearing is a terrible disservice to 
the country.
    John Walters is a capable man who will serve his country well in 
this position. Our organization has worked with him for several years. 
We have found him to be knowledgeable and fair. he understands the need 
for a comprehensive, yet firm approach to the drug problem.
    National leadership on this problem has been lacking for far too 
long. Mr. Walters is an excellent choice for the position and fully 
capable of providing this leadership. It is now up to you to do the 
right thing for your country and move forward with the hearing and 
confirm him so that he can begin with this very serious problem that 
plagues our country.
            Regards,

                                             Calvina L. Fay
                                                 Executive Director

                                <F-dash>

                        Drug-Free Kids: America's Challenge
                                           Washington, D.C.
                                                 September 24, 2001

The Hon. Patrick J. Leahy
433 Russell Senate Office Building
Washington, D. C. 20510

    Dear Senator Leahy:

    It is now seven days past the fateful terrorism attack on America. 
On the day of the actual attack I was standing outside 216 Hart 
awaiting the beginning of the confirmation hearing for John Waiters, 
nominee for ONDCP Director. More specifically, I was standing outside 
216 Hart having a heated conversation with members of the pro-drug 
legalization Lindesmith Center which is funded by currency trader 
George Soros. These young people have been so misguided (I am reluctant 
to us the term ``brainwashed.''it is sad beyond belief. For more on 
Soros' pro-drug activities, see Reader's Digest, ``High On A Lie'' 
Exhibit I.
    Frankly, Senator Leahy, while I certainly understand the current 
delay, I am chagrined that Mr. Waiters' nomination has been languishing 
since last May when the only real opposition we have found are those 
who would legalize pot and other Schedule I drugs. Of course they don't 
want John Waiters to be approved. He understands the drug issue and he 
understands why we must not legalize marijuana or the other Schedule I 
drugs. I've known John for 15 years. He believes in a balanced approach 
with strong interdiction, clear ``no use'' messages and prevention 
programs, drug-free treatment, and law enforcement. There is no simple 
approach. I direct your attention to the October/November issue, (p. 
69) of Cannabis Culture, Canada's premier pro-drug publication which 
reports that ``NORML (national Organization for the Reform of Marijuana 
Laws) will be an integral part of the effort to challenge the 
nominations of John Walters and Asa Hutchinson for the office of drug 
czar and DEA head.'' Comment was made by Nick Thimmech, NORML 
spokesperson. Cannabis Culture is the Canadian version of High Times 
Magazine. A COPY OF THE MAGAZINE HAS BEEN GIVEN TO SENATORS LEAHY AND 
HATCH. (Cost is $4.95 prohibiting copies to each member) Please ask to 
see it.
    We're very concerned that our voices are not being heard, that 
we've lost-not the drug war-because parents and grandparents are with 
us. We're fearful we've lost the attention of some members of Congress 
because so many mothers are working that we cannot effectively visit 
and educate them to the fact that the legalizers have reportedly spent 
$20 MILLION in a campaign to change America from being a society that 
has disdain for drugs to legalizing them. We now have to depend on the 
good sense of our elected officials to do the right thing without 
constant reminders. We also know that the legalizers have been lobbying 
Congress and that some members seem to be listening to people like Eric 
Sterling, now with Soros' Lindesmith Center, who said during the Gulf 
War the our military should be ``home toking (smoking pot) in the US 
instead of cooking in the desert in Saudi Arabia.''
    Friends in the intelligence field have told us for years that 
terrorism is being funded by drug trafficking. Very recently on MSNBC 
an expert said, ``Drugs are now a primary means of funding the overall 
narco terrorism movement and its subcomponents worldwide--that is no 
longer a debatable or even debated proposition.''
    I have been involved in the drug fight for prevention and in 
opposition to legalization since 1977 when I witnessed a rock concert 
at the Capital Center. My own boys were 5 and 9 years old at the time. 
Why was I there? By a twist of fate a young boy in our neighborhood had 
recently been picked up for possession and distribution of marijuana. A 
thoughtful teacher who knew my husband from his volunteer baseball 
coaching called to tell us about it. We called the boy to talk to him 
and offered to help him in any way we could. He called a few weeks 
later to say he ``needed help.'' When I asked what it was, he said he 
had tickets to a ``Rock Concert and no driver.'' Having been home for 
several years raising my children and volunteering at their schools, 
Scouts, and as a board member of the Girls & Boys Club I knew nothing 
about ``rock.'' So, thinking I might turn him around, I agreed to 
drive. I was shocked to see 17,000 kids getting ``stoned'' before my 
eyes. I demanded and received his money back. (Later, Abe Pollin became 
a member of my board.)
    The very next morning I called the U.S. Drug Enforcement 
Administration and asked that they ``dean up the Capital Center.'' I 
was told, that was not their jurisdiction but that I ``had a much 
larger problem on my hands.'' When I asked ``What?'' He informed me 
that my own congressman was trying to legalize pot which would make it 
far more available to all kids. I asked, ``Who's my congressman?'' He 
told me. It was Montgomery County Republican, Newton Steers. I called 
him and stated my case. He refused to withdraw the bill. I called two 
more times. He refused again and I made him a promise. I promised that 
my congressman was not going to pass a bill that would endanger all 
children and that I was going to dedicate the next six months of my 
life to finding him a new job. With the help of two other mothers we 
set out to inform the public-especially senior citizens. They were 
shocked and promised not to vote for him.
    However, a few days before the election, a local paper predicted 
Congressman Steers would win by a landslide. We started a telephone 
chain asking mothers to ``paint a sign and come to Steers' campaign 
headquarters.'' Nineteen (19) mothers showed up with signs saying, ``A 
drug pusher cheers for every vote cast for Steers.'' The media also 
showed up and the evening news reported, ``This could change things for 
Mr. Steers.'' It did. We spent less than $30.00. He lost by a landslide 
and went back to selling insurance.
    Congressman Steers wrote an article for the Montgomery Journal 
saying he ``was wrong about marijuana.'' He called me to congratulate 
me on ``making democracy work.'' There are reams of other similar 
stories including dosing drug paraphernalia shops in Maryland and, with 
the help of folks like Carol Burnett, Alma Rangel, JoAnne Kemp, Carolyn 
Mattingly, Rosemary Trible, Kathleen Smith, Priclla Mack, Jo Zschau, 
Norma Lagomarsino, Debbie Dingell, Marilyn Quayle, Jean Lujan, Rosemary 
Boulter, Caroline McMillan, Gail Tauzin, Kim Seindall, Marcia Coats, 
Dolores Beilenson, Suzie Dicks, Marian Lewis, Joyce Chandler, Rhoda 
Glickman, Cece Zorinski, Christine DeLay, Doris Matsui, Laura Bateman, 
Catherine Stevens, Luwana Shumway Nancy Reagan and others, we closed 
them in all 50 states.
    We received the President's (station for Private Sector Initiatives 
``for outstanding service to the community and finding innovative 
private solutions to public problems.'' The only thing different today 
is that most of us are grandmothers and feel even more strongly about 
the issue. Well win but we need this Drug Czar and we need you and 
every member of Congress on our side.
    *****It was this battle against drug paraphernalia that brought us 
up against the narco network that includes the likes of Keith Stroup, 
Founder of the National Organization for the Reform of Marijuana Laws. 
(We have designated Stroup as the Father of the Adolescent Marijuana 
Epidemic in America and significantly responsible for the deaths of 
tens of thousands of teens who believed him when he wrote in High Times 
Magazine, ``. . .there is no particular evidence that even those few 
young people who smoke a great deal of marijuana necessarily hurt 
themselves or reduce heir level of performance, academic or 
otherwise,'' or, ``research very convincingly suggests that those who 
do smoke marijuana and drive shortly thereafter are in no way 
incapacitated to the degree as those are who drink alcohol and drive.'' 
(Exhibit II) NORML was investigated by two former congressmen, Robin 
Beans and Billie Lee Evans, and reported to be ``to a certain extent 
connected even to traffickers.'' (See letter enclosed dated September 
7, 1979.Exhibit III) We also met Eric Sterling, former Hill staffer, 
whose colleagues at the Drug Policy Foundation developed the ``Safe-
Crack Smoking Pipe'' described in the enclosed article (Exhibit IV), 
Kevin Zeese, long-time legalization advocate, Marsha Rosenbaum who 
received funding from the National Institutes on Drug Abuse and used it 
to produce a pro-drug brochure called, ``Just Say What?'' and yes, even 
George Soros. I met ``George'' soon after he gave $5.2 million to the 
Drug Policy Foundation (the safe-crack pipe boys). I was naive enough 
to think ``George'' didn't know who he was giving his $5.2 million to 
so I decided to help him understand. I confronted him at Georgetown 
University where he was speaking to 300 or so top American businessmen. 
I told him. the group he was funding had colleagues who testified 
before Congress that they wanted a ``completely open market (for 
marijuana) with no age controls and no street controls'' and regularly 
wrote letters to the editor in youth-oriented magazines telling kids 
there ``was no evidence marijuana would hurt them academically or 
otherwise.'' (See letter from High Times. Exhibit II) George left by 
the side door and the rest of the folks waiting to ask questions sat 
down. Given his track record of destabilizing national economies 
(Britain & East Asia), would this be the time to question George Soros' 
monetary activities and goals?
    Remember, those from the narco network are not considering children 
or the future of this nation. They are only interested in their own 
freedom to do drugs. We are asking for a unanimous vote confirming Mr. 
Walters. We have waited too long.
            Respectfully,
                                              Joyce Nalepka
                     President, Drug-Free Kids: America's Challenge
                                HISTORY:
    Following are some important historical facts that may be of 
interest. Senators Kennedy, Hatch, and Thurmond will remember, I'm 
sure, December 4, 1979 when the Senate Judiciary Committee voted to 
table a vote on the Federal Criminal Code Revision that erroneously, in 
my opinion, included a text to legalize pot. At our request, former 
Senator Charles Mathias had returned from a trip to lead the way for 
us. Some of the comments around that table would be shocking today. 
Senator Mathias asked for and was granted permission to table the issue 
and hold hearings about whether marijuana was harmful or not (Health 
Consequences of Marijuana Use, Committee on the Judiciary, January 16 
and 17, 1980, Serial No. 96-54)
    (IN FACT, SENATOR LEAHY, I JUST PULLED OUT THE HEARING RECORD AND 
NOTE THAT YOU, TOO, WERE A MEMBER OF THAT SENATE JUDICIARY COMMITTEE. 
YOU WERE LIKELY PRESENT FOR THE DECEMBER 4, 1979 MEETING AND HEARD 
SENATOR KENNEDY'S COMMENT THAT ``WE HAVE MORE PROOF OF THE TOXICITY IN 
MOTHER'S MILK THAN IN THE CASUAL USE OF MARIJUANA.'' I'm sure he knows 
differently today and we've all learned a lot since then.
    A MUCH YOUNGER SENATOR THURMOND COMMENTED TO SENATOR KENNEDY, AFTER 
READING OUR MATERIALS ``SAY, TEDDY, IT SAYS HERE MARIJUANA CAN HARM 
YOUR TESTICLES.'' This was followed by raucous laughter. We know today 
Senator Thurmond was more right than Senator Kennedy. The reproductive 
damage caused by marijuana is well documented. It is interesting to 
note that seven members of that Judiciary Committee are still in the 
Senate. (Leahy, Kennedy, Biden, Byrd, Baucus, Thurmond and Hatch)
    Senator Mathias chaired two days of hearings. Carol Burnett's 
husband and his son testified along with doctors and experts from 
across the nation. The marijuana that Senator Thurmond was reading 
about was probably only 2% THC content The marijuana that is available 
to our kids today is 25 to 30% THC content. In fact, the University of 
Maryland research shows more kids going into emergency rooms for 
marijuana problems than for--heroin.
    Later, Senators Mathias and Biden held two days of hearings for us 
in Baltimore on the drug paraphernalia issue. The paraphernalia 
manufacturers were summoned. They showed up with haircuts and three-
piece suits, some with the price tags still dangling from under their 
arms. They told the Senators, ``There's no point in closing us down, 
you can make a bong from an apple, a toilet paper roller and aluminum 
foil or ``THE BEST COCAINE SPOON IN TOWN IS FREE. IT COMES WITH EVERY 
CUP OF COFFEE AT MCDONALD'S.'' He pressed the spoon against his nose to 
show how well it fit I didn't get to testify until the next day; 
however, I was outraged with their tactics. I rushed home, tracked down 
the headquarters for McDonald's. Fortunately, McDonald's was in 
Illinois giving me an extra hour. I called the office of Ed Schmidt, 
President. His secretary was off for the day and her replacement 
naively put me through to him. I told him my story and what the 
paraphernalia pushers were saying. He replied, ``What do you want from 
me?'' I said, I want you to redesign that spoon and let me go back 
tomorrow and announce it to the Senate committee, proving you will not 
allow them the privilege of using a legitimate business for their narco 
scheme.'' He said, ``Lady, we have 4,500 stores.'' I asked, ``How many 
children do you have? He told me and I said simply, ``Don't do it for 
me. Do it for them.'' He asked me to call him back in 15 minutes. I 
did. He said, ``We'll do it.'' The incident got media coverage around 
the world. It didn't stop the drug epidemic but it was testimony that 
the good guys will do anything to stop drugs.
                                FUTURE:
    We plan to keep on winning starting with getting John Walters 
approved as Drug Czar.
    We plan to pass an Express Preemption bill to 1011 the effort to 
pass the medical marijuana cigarette scam. We have already distributed 
information on the Express Preemption bill to EVERY member on four (4) 
different occasions. Senators Hatch and Feinstein have actual copies of 
the bill. Congressman Mark Souder, who introduced the bill last 
session, has a copy of the new version. Please contact them for a copy 
and help lead the effort to protect the future of this nation's 
children.
    We plan to work for school drug testing.
    We plan to stop all forms of illegal drug legalization.
    We plan to do major fundraising to empower us to fight back against 
the multimillionaires mentioned in the enclosed Reader's Digest 
article.
    We plan to continue organizing especially parents who have lost 
children and the tens of thousands of grandparents who are forced out 
of retirement to raise their grandchildren because their parents 
believed the legalizers. They are focused and determined that other 
parents don't have to walk down that road. Wait till this group gets 
moving.
    We invite all members of Congress to walk with us.

                                <F-dash>

                          Drug Free Schools Coalition, Inc.
                                       Flemington, NJ 08822
                                                 September 10, 2001

Senator Kyl
Senate Judiciary Committee
Dirksen Bldg. Room 224
1st and C Sts. NE
Washington, DC 20510

    Dear Senator

    The Drug-Free Schools Coalition is an organization of parents and 
schools dedicated to helping schools become drug-free. We have members 
in over 21 states.
    We strongly urge you to support the nomination of John Walters to 
the Director of ONDCP. We believe that he has the experience and the 
skill to do an outstanding job as our Drug Czar.
    We know that he will support strong drug-free school programs 
including treatment, education and drug testing.
    Please do all you can to support him.
            Sincerely yours,
                                       David G. Evans, Esq.
                                                 Executive Director

                                <F-dash>

                    Drug Prevention Network of the Americas
                                        Alpine, Texas 79830
                                                  September 7, 2001

The Hon. Patrick Leahy
Senate Judiciary Committee
433 Russell Senate Office Building
Washington, D.C. 20510

    Dear Senator Leahy:

    I am writing to highly recommend John Walters as Director of the 
Office of National Drug Control Policy. Our nation needs a strong, 
experienced, Drug Czar as never before. Drug use by America's youth is 
too high, pressure from the drug legalization lobby to make harmful 
drugs legal and available is mounting and the dangers from 
narcotrafficking threaten U.S. borders and our international neighbors. 
John Walters has the experience, vision, and leadership necessary to 
marshall the forces and to turn the tide against this insidious scourge 
to society. He has a proven track record with his leadership at ONDCP 
and with the anti-drug movement, which resulted in such dramatic 
declines in drug use in the 1980's and early 1990's.
    Mr. Walter's approach to the drug problem is solution-oriented, 
balanced, and centered on the prevention of drug us. He recognizes the 
need for a well-coordinated strategy invloving education, treatment, 
enforcement, and cooperation with the international community. He was 
one of the authors of ``What Works? Schools Without Drugs'' which 
inspired the nation and the drug-free schools and communities 
initiative. He is recognized and well-respected by substance abuse 
professionals and community anti-drug leaders and grassroots 
organizations across the nation.
    The Drug problem can be dramatically reduced, as has been proven; 
it is not hopeless and inevitable. America needs the leadership, 
wisdom, and inspiration which Mr. Walters will provide. I respectfully 
urge you and all Senate Judiciary Committee members to strongly support 
John Walter's nomination.
            Respectfully,
                                           Stephanie Haynes

                                <F-dash>

                                Jeanette McDougal, MM, CCDP
                                        St. Paul, Minnesota
                                                  September 7, 2001

Hon. Joseph Biden
Members of the Senate
Judiciary Committee
United States Senate
Washington, DC 20510

    I am asking that you SUPPORT JOHN WALTERS as the Director of the 
Office of Drug Control Policy (ONDCP) for the following reasons:
    First of all, for his stellar record in support of policies which 
promote and support a drug-free America.
    Next, I am assuming that you and your Committee are interested in 
promoting the good health and welfare of all US citizens, and therefore 
oppose the use of illegal drugs, especially by youth.I would further 
assume that you would disassociate yourself from those who would ``push 
a drug-use philosophy,'' again, especially to youth.
    I direct your attention to the latest issue (Oct/Nov 2001 pg 69) of 
Canada's premier pro-drug publication, CANNABIS CULTURE (their version 
of USA's HIGH TIMES) which reports that ``NORML (National Organization 
for the Reform of Marijuana Laws) will be an integral part of the 
effort to challenge the nominations of John Walters and Asa Hutchinson 
for the office of drug czar and DEA head.'' This comment was made by 
Nick Thimmesch, NORMAL spokesperson.
    It is telling that NORML is opposed to John Walters--and should be 
revealing to this Committee.
    NORML has promoted and lobbied for the legalization of marijuana 
and other drugs for over 30 years. I trust that the members of this 
Committee will not align themselves, either philosophically or by vote, 
with those who aim is to weaken and undermine our protective drug laws.
    It is also telling that NORMAL scheduled their annual conference 
this year on the 4/20 to coincide with 4:29 which is recognized by the 
drug culture all over the world as the ``time to make marijuana''. In 
fact, the normal conference opening date was described in many prog-
drug publications as ``National Get High Day.''
    Some might say, ``Guilt by association, that's not fair.'' I would 
remind this Committee that:

        ``We are known by the company we keep''--a more delicate way of 
        saying--``When we lie down with dogs we get up with Fleas.''

    I am confident that when the members of this Committee and the 
members of the U.S. Senate carefully review the evidence, you will vote 
to confirm John Walters.

                                <F-dash>

                                                Grand Lodge
                                  Fraternal Order of Police
                              Albuquerque, New Mexico 87109
                                                      July 25, 2001

Hon. Orrin G. Hatch
Ranking Member
Cimmittee on the Judiciary
United States Senate
Washington, D.C. 20510

    Dear Senator Hatch:

    I am writing to inform you of the strong of the Fraternal Order of 
Police for nomination of Mr. John P. Walters to serve as the Executive 
Director of the Office of National Drug Control Policy (ONDCP).
    The F.O.P. first got to know John in 1989 when he served as Chief 
of staff to William Bennett, the first ``drug czar.'' As the Deputy 
Director for supply reduction from 1991 to 1993, he helped law 
enforcement, in 1992, achieve the lowest levels of drug use in the past 
twenty-five years.
    As a nation, we need to recommit ourselves to winning the drug war. 
The F.O.P. supports a balanced approach to the insidious drug epidemic. 
Prevention, effective treatment, and diligent and aggressive 
enforcement are necessary elements of any national drug control 
strategy. The strategy must include the high Intensity Drug Trafficking 
Area (HIDTA) and the Edward Byrne Memorial funding programs. These two 
programs are essential to a comprehensive and coherent attack on drugs.
    2We must also be aware that some in this country believe the war on 
drugs is a failure. Governor Gary Johnson in my home state of New 
Mexico has, in the past three years, become a high-profile spokesman 
for those who believe that we have failed and the ``war'' is unwinnable 
and not worth fighting. I agree with Mr. Walters, the war is winnable 
and worth fighting.
    Like the Fraternal Order of Police, he recognizes that we must have 
a balanced attack--prevention and treatment for addicts along with the 
interdiction of drugs by law enforcement. John's success at ONDCP was a 
result of his balanced approach to our nation's problems with crime and 
drug use. In his tenure at ONDCP, funding for drug prevention programs 
increased three hundred and thirty-five percent (335%) and funding for 
treatment programs increased two hundred and fifty-nine percent (259%).
    John Walters has the experience, the leadership and the knowledge 
to lead our nation's anti-drug efforts. Also, he is highly respected by 
those of us on the front lines of the drug enforcement effort. He will 
be an asset to law enforcement at the local, state and federal level.
    I have every confidence in his qualifications and believe he will 
make an outstanding Executive Director at ONDCP.
    Please do not hesitate to contact my Executive Director Jim Pasco, 
or me at 202-547-8189 if you need further information.
            Sincerely,
                                        Gilbert G. Gallegos
                                                 National President

                                <F-dash>

                              Congress of the United States
                                     Washington, D.C. 20515
                                                  September 6, 2001

The Hon. Patrick J. Leahy
Chairman
Senate Judiciary Committee
Washington, DC 20510

The Hon. Orrin G. Hatch
Ranking Member
Senate Judiciary Committee
Washington, DC 20510

    Dear Mr. Chairman and Ranking Member:

    We write as members of the Speaker's Task Force for a Drug Free 
Force for a Drug Free America to express our strong support for the 
President's nomination of John P. Walters to be Director of the Office 
of National Drug Control Policy (ONDCP). In the area of drug policy, we 
are at a crucial time in our nation's history. As such, we applaud the 
President's nomination and the President's decision to maintain the 
ONDCP Director as a member of his Cabinet.
    There is substantial consensus among members of the U.S. House of 
Representatives that we must pursue an aggressive counter drug strategy 
``balanced'' among demand reduction and supply reduction to adequately 
address our nation's illegal drug problem. The President and his 
nominee are committed to such as approach. As former Deputy Director 
for Supply Reduction and former Chief of Staff to the ONDCP Director, 
there is no question that John Walters knows the inner workings of the 
office. This coupled with his extensive work at the Department of 
Education give him the experience he needs to tackle this most 
difficult assignment. But beyond his background, we believe John 
Walters brings renewed energy, Vision and the right approach to this 
critical position.
    We appreciate your Committee's leadership on narcotics control 
programs in the past and we respectfully urge your Committee's 
expeditious confirmation of John P. Walters as our nation's next ONDCP 
Director.
            Sincerely,

                                          J. Dennis Hastert
                       Speaker of the U.S. House of Representatives

    Signatories:
Speaker J. Dennis Hastert,
Representative Mark Souder,
Representative Rob Portman,
Representative Mark Kirk,
Representative Sue Myrick,
Representative John Peterson,
Representative Ben Gilman,
Representative J.D. Hayworth,
Representative Joe Barton,
Representative Porter Goss,
Representative Kay Granger,
Representative Bob Barr,
Representative John Mica,
Representative Frank Lobiondo,
Representative Anne Northup,
Representative Doug Ose,
Representative Mike Rogers,
Representative Henry Bonilla,
Representative Howard Coble,
Representative Dan Burton,
Representative Hal Rogers,
Representative Frank Wolf,
Representative Melissa Hart,
Representative Nathan Deal,
[GRAPHIC] [TIFF OMITTED] 81443.002

[GRAPHIC] [TIFF OMITTED] 81443.003

[GRAPHIC] [TIFF OMITTED] 81443.004

[GRAPHIC] [TIFF OMITTED] 81443.005

[GRAPHIC] [TIFF OMITTED] 81443.006

[GRAPHIC] [TIFF OMITTED] 81443.007


                                <F-dash>

                                National Families in Action
                                          Atlanta, GA 30329
                                                 September 10, 2001

The Hon. Joseph Biden, Jr.
United States Senate
Washington DC 20510

    Dear Senator Biden:

    Tomorrow you will preside over the confirmation hearing of John 
Walters to serve as Director, Office of National Drug Control Policy. 
As executive director of a 25-year-old national organization that helps 
families prevent drug abuse among children, I write to tell you that 
America's families strongly endorses Mr. Walter's candidacy. For the 
first time in the history of this office, Mr. Walters has selected a 
deputy who comes from the prevention field, Deputy nominee Mary Ann 
Solberg, and those of us in prevention applaud him for doing this. We 
are equally pleased with his selection of Demand Reduction Deputy 
nominee Andrea Barthwell, M.D., an expert in addiction treatment. Both 
are women who have long-term, practical experience in their respective 
fields. Families who are deeply concerned about keeping children away 
from drugs, and about improving treatment to help all who have become 
addicted recover, greatly appreciate the wisdom of Mr. Walters' 
choices, for they signal that he will truly seek to balance demand 
reduction with supply reduction, both of which are necessary components 
of effective drug policy, but neither of which is more important that 
the other.
    You have already heard, and will continue to hear, loud voices 
opposing Mr. Walters' candidacy. This is an organized protest that 
comes straight from the drug-legalization movement, which insists our 
drug policies have failed, that the drug laws do more damage than drugs 
themselves, and that we should therefore legalize drugs. Legalization 
would be a disaster for this country and its citizens. Currently 105 
million Americans regularly use alcohol and 67 million use tobacco, our 
two legal addictive drugs, compared to just 15 million who use all 
illegal drugs combined, according to the 1999 National Household 
Survey. These levels of use produce 530,700 deaths a year from alcohol 
and tobacco, compared to 16,000 deaths a year for illegal drugs, 
according to the Robert Wood Johnson Foundation's newest report, 
Substance Abuse: The Nation s Number-One Health Problem. If drugs were 
legalized, new legitimate revenues would be used to mass produce and 
mass market drugs to increase consumption, and use of drugs that are 
now illegal would quickly rise to levels similar to alcohol and tobacco 
today. Legalization proponents are simply wrong, both in their analyses 
of the problem and their solutions for it. The only people listening to 
them are drug users, dealers, and traffickers, and many in the press 
who sympathize with their views.
    The policies this Congress has overseen since before and after it 
created the Office of National Drug Control Policy have not failed: 
since 1979, our nation has cut past-month drug use by nearly half (from 
25 million Americans to 15 million Americans). More importantly, 
between 1979 and 1992, past-month drug use among adolescents and young 
adults fell by two-thirds. The crime rate has dropped to the lowest 
levels since the 1960s. So has the murder rate. Before such drug 
polices, adolescents suffered so many alcohol- and drug-related deaths 
in the 1970s that their life span as a group actually decreased, while 
the life spans of every other age group lengthened. Thanks to our 
nation's drug policies, this is no longer true: far fewer adolescents 
use drugs and alcohol today compared to the 1970s, and far fewer suffer 
all the problems that drug use generates.
    Perhaps the greatest anxiety that parents and families feel about 
legalization efforts is the changes proponents are trying to make in 
drug-education for children and adolescents. Drug use is not a 
``fundamental human right,'' as Ethan Nadelmann, executive director of 
the George-Soros-funded Lindesmith Center asserts. Nor, God help us, 
will it ever be appropriate for parents to ``model the safe use of 
heroin, cocaine, marijuana, ecstasy, methamphetamines, and other drugs 
around the dinner table,'' as Mr. Nadelmann insisted in a debate with 
the author of this letter at the 1998 Vail Valley Institute (a debate 
at which John Walters and I served as the opponents of legalization).
    Nor should we ever teach children they can use harmful, addictive 
drugs ``safely,'' as Mr. Nadelmann's colleague Marsh Rosenbaum, 
director of The Lindesmith Center West, asserts in her drug-education 
guide for teachers, Safety Rust., A Reality-Based Approach IV Drug 
Education. At a Drug Policy Foundation conference, Ms. Rosenbaum warned 
against sending recovering addicts into the classroom. They are 
``failed drug users,'' she said, and .we should be usurp ``successful 
drug users as good role models for children.'' At a conference her 
organization sponsored in 1999, Ms. Rosenbaum featured Healthwise, a 
British company, whose drug-education curricula tell parents that their 
children are safer using drugs than participating in outdoor 
activities.
    Parents also worry about the efforts of another legalization 
organization, the Harm Reduction Coalition, whose newsletter explains 
how to enter schools as ``drug educators'' to surreptitiously establish 
``user groups'' to support students' drug use. Gain access, the 
newsletter advises, with a ``proposal that clearly outlines a harm-
reduction approach, but uses language that bridges the gap between 
traditional prevention and harm reduction. One hysterical parent may be 
enough to get you program thrown out of school.'' The coalition advises 
advocates to ``cast a wide net to include alcohol, tobacco, caffeine, 
chocolate, and sugar to breakdown stigma by showing that drug use is 
the norm, not an aberration.''
    John Walters will not let these kinds of assaults on school 
children happen. His experience as Deputy of Supply Reduction in the 
previous Bush Administration gave him the opportunity to take the 
measure of the re-emerging drug. legalization movement and the 
destructive policies it advocates. He will help America's parents and 
families reduce drug use and addiction among their children and in 
their communities. We wholeheartedly endorse his candidacy and ask you 
to confirm him quickly so that he can get on with the critically 
important task of shaping effective drug policy for our nation.
    Thank you for considering our request.
            Very truly yours,
                                                 Sue Rusche
                                  Co-founder and Executive Director
                                        National Families in Action

                                <F-dash>

                                National Troopers Coalition
                                         Albany, N.Y. 12207
                                                      July 11, 2001

Hon. Orrin G. Hatch
Ranking Minority Member,
Senate Judiciary Committee
United States Senate
Washington, DC 20510-4402

    Dear Senator Hatch:

    The National Troopers Coalition, (NTC), represents this nation's 
state police and highway patrol law enforcement troopers and retirees. 
Our membership includes all ranks, inclusive of Trooper through the 
rank of Colonel. State and local law enforcement efforts account for 
over 90 percent of criminal arrests and troopers do the majority of 
highway drug interdictions. Our troopers are on the front lines daily 
arid some of them are seriously injured and killed in the performance 
of their duties.
    On behalf of our Chairman, Trooper Scott Reinacher, and our 
membership it gives me great pleasure to give our highest 
recommendation and support for the nomination of Mr. John P. Waiters to 
be the Director of the Office of National Drug Control Policy. From 
1989 to 1993, Mr. Waiters served in the White House Office of National 
Drug Control Policy (ONDCP) under the tutelage of William Bennett. 
During his service at ONDCP; he was responsible for helping guide the 
development and implementation of anti-drug programs in all areas of 
prevention, treatment, education and law enforcement.
    Prior to his service at ONDCP, Mr. Waiters was a founder of the 
Madison Center, a public policy organization devoted to advancing 
improvements in education and related fields, including early childhood 
education and drug abuse prevention Mr., Waiters began working on drug 
policy matters at the U.S. Department of Education in the mid-1980's. 
He was a major designer of the largest federal funding increases for 
drug treatment and treatment research in U.S. history. He has always 
been a major supporter of innovative drug prevention programs and a 
steadfast advocate of a balanced anti-drug effort.
    John Waiters is an articulate advocate, an able administrator, old 
a man of deep and reasoned convictions. The National Troopers Coalition 
believes that a successful effort depends on a thoughtful and 
integrated approach with strong law enforcement in conjunction with 
treatment, prevention and educational programs. John Waiters is the 
right man, and the best man, to lead America's anti-drug efforts. In 
addition to endorsing addition to endorsing John Waiters, the NTC would 
like to publicly commend him for the fine work he has accomplished in 
the anti-drug arena.
    The NTC hopes the Senate Judiciary Committee will review the record 
of John Waiters, which is strong and unwavering and that an early 
Senate judiciary Committee confirmation will be forthcoming.
            Sincerely,

                                           Johnny L. Hughes
                                     Director, Government Relations

                                <F-dash>

                        Partnership for a Drug-Free America
                                         New York, NY 10174
                                                       July 2, 2001

The Hon. Joseph R. Biden, Jr.
SR-221 Russell Senate Office Building
Washington, DC 20510-0802

    Dear Senator Biden:

    Thank you for your years of commitment and leadership to drug 
prevention and-treatment. Your advocacy has been critically important 
to all of us working to reduce levels of drug use in America.
    Recently I had the opportunity to meet with John Walters, the Bush 
administration's nominee for Director of the Office of National Drug 
Control Policy (ONDCP). I first came to know John when I Joined the 
President's Drug Advisory Council in 1989, the same year I became 
Chairman of the Partnership for a Drug-Free America (PDFA). At that 
time, John was Deputy Director of Supply Reduction for ONDCP. While 
most of toy dealings with ONDCP then focused on demand reduction 
issues,, it was my impression that John was an insightful and outspoken 
supply reduction advocate.
    In our recent conversations with John, he assured us that if he is 
confirmed the National Youth Anti-Drug Media Campaign--a collaborative 
effort between ONDCP and the Partnership--would have his continued 
support.
    Further, he made clear he would honor the administration's stated 
objective of pursuing a balanced approach to the nation's drug policy, 
one that focuses on reducing demand through prevention, education and 
treatment as well as on reducing supply through interdiction and law 
enforcement.
    Given the above, I ask you to support the confirmation of John 
Waiters as Director of the Office of National Drug Control Policy.
            Sincerely,
                                             James E. Burke

                                <F-dash>

                                              PRIDE Surveys
                                          Atlanta, GA 30326
                                                  September 7, 2001

The Hon. Jon Kyl
United States Senate
Washington, D.C. 20510

    Senator Jon Kyl,

    Over the past two decades I have had the opportunity to work with 
John Waiters on issues surrounding youth, parents and drug use.
    I know there are many other issues he must deal with if confirmed 
by your committee to direct ONDCP but I cannot believe there is a issue 
more important than preventing drug use among Americas youth. John has 
always proven to be knowledgeable and truly concerned about use of 
drugs by our youth.
    More importantly, John has shown strong leadership when issues on 
policy were in conflict during past administrations. His support for 
America's youth has never wavered.
    I want to give my strongest endorsement for the confirmation of 
John Waiters as Director of the Office of National Drug Control Policy.
            Sincerely,
                                          Thomas J. Gleaton
                                           President, PRIDE Surveys

                                   - 

</pre></body></html>
